<html>
<title> - ASBESTOS CONTAMINATION IN LIBBY, MONTANA</title>
<body><pre>[Senate Hearing 106-950]
[From the U.S. Government Printing Office]




                                                        S. Hrg. 106-950

                ASBESTOS CONTAMINATION IN LIBBY, MONTANA

=======================================================================

                             FIELD HEARING

                               BEFORE THE

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                                   ON

 FEDERAL, STATE, AND LOCAL RESPONSE TO PUBLIC HEALTH AND ENVIRONMENTAL 
        CONDITIONS FROM ASBESTOS CONTAMINATION IN LIBBY, MONTANA

                               __________

                   FEBRUARY 16, 2000--LIBBY, MONTANA

                               __________

  Printed for the use of the Committee on Environment and Public Works


                               __________

                    U.S. GOVERNMENT PRINTING OFFICE
63-377                     WASHINGTON : 2001

_______________________________________________________________________
            For sale by the U.S. Government Printing Office
Superintendent of Documents, Congressional Sales Office, Washington, DC 
                                 20402


               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

               one hundred sixth congress, second session
                   BOB SMITH, New Hampshire, Chairman
JOHN W. WARNER, Virginia             MAX BAUCUS, Montana
JAMES M. INHOFE, Oklahoma            DANIEL PATRICK MOYNIHAN, New York
CRAIG THOMAS, Wyoming                FRANK R. LAUTENBERG, New Jersey
CHRISTOPHER S. BOND, Missouri        HARRY REID, Nevada
GEORGE V. VOINOVICH, Ohio            BOB GRAHAM, Florida
MICHAEL D. CRAPO, Idaho              JOSEPH I. LIEBERMAN, Connecticut
ROBERT F. BENNETT, Utah              BARBARA BOXER, California
KAY BAILEY HUTCHISON, Texas          RON WYDEN, Oregon
LINCOLN CHAFEE, Rhode Island
                      Dave Conover, Staff Director
                  Tom Sliter, Minority Staff Director

                                  (ii)

  
                            C O N T E N T S

                              ----------                              
                                                                   Page

                      MAY 2, 2000--LIBBY, MONTANA

                           OPENING STATEMENTS

Baucus, Hon. Max, U.S. Senator from the State of Montana.........     1
Burns, Hon. Conrad, U.S. Senator from the State of Montana.......    16

                               WITNESSES

Anderson, Ron, director, Lincoln County Environmental Health 
  Department.....................................................     7
    Prepared statement...........................................    55
Beasley, Terry, Libby, Montana...................................    50
Berget, Hon. Tony, mayor, City of Libby, Montana.................     9
    Prepared statement...........................................    56
Black, Brad, M.D., medical officer, Lincoln County Environmental 
  Health Department..............................................     6
    Prepared statement...........................................    54
Damrow, Todd, Ph.D., M.P.H., State Epidemiologist, Montana 
  Department of Public Health and Human Services.................    21
    Prepared statement...........................................    57
Falk, Henry, Assistant Administrator, Agency for Toxic Substances 
  and Disease Registry, Public Health Service, U.S. Department of 
  Health and Human Services......................................    36
    Prepared statement...........................................    66
Rosco, Jim, Libby, Montana.......................................    49
Rumelhart, Paul, Libby, Montana..................................    53
Simonich, Mark, Director, Montana Department of Environmental 
  Quality........................................................    23
    Prepared statement...........................................    58
Stringer, Alan, W.R. Grace.......................................    51
    Prepared statement...........................................    69
Williamson, Lloyd, Libby, Montana................................    47
Windom, Rita, Lincoln County Commissioner........................     4
    Prepared statement...........................................    53
Yellowtail, William, Region VII Administrator, Environmental 
  Protection Agency..............................................    32
    Prepared statement...........................................    63

 
                ASBESTOS CONTAMINATION IN LIBBY, MONTANA

                              ----------                              


                      WEDNESDAY, FEBRUARY 16, 2000


                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Libby, Montana.
    The committee met, pursuant to notice, at 10:10 a.m. in the 
Memorial Gym, Libby, Montana, Hon. Max Baucus [ranking minority 
member of the committee] presiding.
    Present: Senator Baucus.
    Also present: Senator Burns.

             OPENING STATEMENT OF HON. MAX BAUCUS, 
             U.S. SENATOR FROM THE STATE OF MONTANA

    Senator Baucus. I'd like to welcome everybody to this field 
hearing of the Senate Environment and Public Works Committee. 
We are here today to review the government's response to the 
asbestos contamination here in Libby. I'm very pleased to be 
joined by my colleague, Senator Burns, who's temporarily 
detained over in the corner by modern technology. I assume 
he'll be back during the hearing.
    Unfortunately, Congressman Rick Hill and Governor Marc 
Racicot are unable to be here. They were invited, but they had 
other business that required their attention. I would like to 
recognize on behalf of Congressman Rick Hill, Julie Altemus. 
Julie, where are you? If you have any questions, I want to 
direct you to Julie.
    I'd also like to identify other key people who are here. 
First, of my staff, Bill Lombardi, who works for me in Helena, 
and then Barbara Roberts and Tom Sliter who are staff 
Environment and Public Works Committee. Could you three please 
make yourselves known? Barbara and Tom Sliter. He's the 
minority staff director of the Environment and Public Works 
Committee, and then Bill Lombardi over there in the blue 
jacket.
    Senator Smith is the chairman of the Environment and Public 
Works Committee. He is represented here by Kirstin Rohrer. This 
is Kirstin Rohrer who represents Senator Bob Smith from New 
Hampshire, chairman of this committee. Lori McDonald. Is Lori 
here? Lori's over there on the side, representing Senator 
Burns. And in addition, probably the most important people here 
is Bambi Goodman. Bambi Goodman is over here who is physically 
typing away making a record of everything that we say.
    Also, I'm very happy to see some very familiar faces here: 
John Konzen, Rita Windom, Brad Black, Ron Anderson, Tony 
Berget, George Bauer, Mark Simonich, Todd Damrow. A lot of you 
have worked very hard. Thank you very much for being here, in 
addition to Bill Yellowtail who's flown in from Denver. He's 
the head of Region VIII of the Environmental Protection 
Agency--Public Works Committee, and Dr. Falk, who's come all 
the way from Atlanta to come here to help solve some of our 
problems.
    We all know that Libby's been in the spotlight lately, 
which is probably the understatement of the year. But attention 
from people in a position to help who are committed to taking 
concrete steps to give some relief to this community is what 
we're trying to find out and get some help from. That's the 
kind of attention we are really looking for. This is a rare 
opportunity, having in one room key representatives from the 
city, from the county, from the State, from Federal agencies 
working toward a common goal. And that's why I called this 
hearing, primarily, just to get everybody together so that we 
can compare notes, take stock of where we are and to be sure 
that we're working together and working together for Libby. 
Because after all, it's Libby's solution, with the aid of 
outside agencies where appropriate, is going to, I think, reach 
the kind of result that makes more sense for all of us here.
    One of the main goals of this hearing is to help ensure 
that the citizens here get the assistance that they deserve. 
Again, some outsiders will know, but we want them to be 
listening to people here at home so that the right assistance 
is provided.
    The two priorities are to determine if the health of the 
people of Libby is threatened by continuing exposure to 
asbestos. Is there any continuing exposure? And if there is, 
clearly, steps must be taken to eliminate the threat to the 
maximum amount possible. We must ensure that whatever cleanup 
is needed is performed quickly so this community can have a 
clean bill of health. That's paramount.
    I know a lot of people here, rightly, are very concerned 
about the image of the community, of Lincoln County. The clear 
primary goal of ours is to be sure that that image is a shining 
one, that people know that Libby has a clean bill of health, as 
quickly as we possibly can. It's good for jobs, it's good for 
tourism, it will help real estate values and just help our 
various economies.
    The other, probably, is to support those who suffer from 
asbestos-related illnesses. That would be including screening, 
treatment, as well as public education. We'll learn this 
morning what steps have been taken, what is planned for the 
future to address these priorities.
    I particularly want to learn how work is being coordinated 
among all the different government agencies. That includes how 
the agencies are communicating with the citizens; getting input 
from the community and keeping citizens actively informed as 
information becomes available. I also hope to hear from the 
people of Lincoln County, Libby, their perspectives on whether 
the community's needs are being met by steps that have been 
taken or being planned.
    So far I've heard mostly positive things about the 
coordination from local, State and Federal personnel. I know it 
takes work to keep on track. Everyone has a lot on their minds. 
More than we can address at a single hearing. But I want to 
emphasize, just this little anecdotal conversation with people, 
that the coordination sounds pretty positive. It sounds like 
things are working real well.
    I've heard from many of you about your feelings of 
helplessness, anger, confusion, guilt, just to name a few. 
Those are obvious human reactions. The goal here is to soothe 
all of those, make them go away so that we can feel good and 
confident about the community. And I believe that with 
commitment, the commitment of the people here in this room, 
that's going to happen. Because that is, after all, the purpose 
of this hearing: to ensure that the people of Libby and the 
community get the assistance they need to meet their needs.
    We have three panels. The first will be basically local 
officials. The second panel will be representatives of our 
State, State of Montana, and third, representatives of Federal 
agencies. I'm going to ask each of the witnesses of each of the 
panels to speak up to 5 minutes. And that's what these lights 
up here are all about. When you start, the light's going to be 
green. When there's about 1 minute left, that is after 4 
minutes have transpired, it's going to turn yellow. And then 
when it's all over, it's red.
    Now, I'm going to be flexible but firm about this. So just 
know that I'm not going to just gavel you down exactly 5 
minutes. But on the other hand, please don't abuse the 
privilege. We have to keep the interest of others, be polite 
and courteous to others, keep it within our time frame. I'll 
ask some questions then of the witnesses, and Conrad will also 
ask some questions too. And that will be the procedure from 
each of the panels.
    However, at the end of each panel, I'm going to ask a 
general question whether--is there something that should have 
been said that hasn't been said, or has somebody said something 
so outrageous that needs to be addressed. That's for each of 
the panels. Then, finally, after we go each of the three, I'm 
going to come back to the first one again. Because they will 
have, at that point, heard from State officials and they will 
have heard from Federal officials. So that the county folks, 
the local folks, will have an opportunity then to address what 
they've heard. We want to make sure that all of you here, you 
know, get the word out of what you want everybody to hear.
    We'll be flexible. If somebody in the audience has 
something to say, if there's some expert in the audience that 
has something to say, we want to recognize that person as well.
    Before I start, though, just as a symbol of coordination 
and working together, I'd like to mention the name of Paul 
Peronard. Where's Paul? I hear Paul's been doing a really good 
job. And people like their work, Paul, and you're a real good 
servant to the people of this community. And let's give Paul a 
big round of applause.
    [Applause.]
    Senator Baucus. He's shaking his head over there.
    All right; first panel is Rita Windom and John, the 
commissioners here in Lincoln County, Brad Black. Ron Anderson 
is the director of Lincoln County Environmental Health 
Department; Tony Berget, mayor; and George Bauer, acting 
president, Libby city council. I apologize for the small table. 
We'll just move the microphone around.
    Okay, Rita?

     STATEMENT OF RITA WINDOM, LINCOLN COUNTY COMMISSIONER

    Ms. Windom. Thank you, Senator Baucus and Senator Burns.
    Senator Baucus, Senator Burns, we would like to thank you 
so much for taking time out of your busy schedule to hold this 
formal hearing on the asbestos problem that we are faced with. 
This is a very important issue to all of us, especially those 
that have had their health adversely affected by this problem.
    Credit needs to be given, and I thank you, Senator Baucus, 
for doing that, to the EPA and the ATSDR for their quick 
response for the concerns that have been raised. They have 
acted in a very open and professional manner, and they have 
done an excellent job in earning the trust of our local 
citizens by being openly accessible to address concerns and 
answer all questions as--and keeping everyone fully informed. 
The on-site coordinator, Paul Peronard, really does deserve to 
be personally thanked for managing this team in such a 
proficient method.
    There are several issues that are of current concern to all 
of us. An immediate concern, of course, is the level of 
contamination within the Libby area, especially any risk of 
people's homes. Current testing by the EPA shows that 2 homes 
out of 32 have asbestos detected. One of those homes has 
tremolite asbestos which is the kind associated with 
vermiculite mining.
    The EPA testing has also discovered asbestos at the two 
former vermiculite crossing locations. One is at the old 
railroad loading of the Kootenai River at the base of the Rainy 
Creek Road. That property is currently being used as a plant 
nursery. The other is in Libby at the old export site near the 
ball fields. Currently, this property is owned by the City of 
Libby who has leased a portion of the property to a local 
business. We know, for a fact, that both of those businesses 
are extremely concerned whether they will be able to continue 
in business or remain in business during any clean-up efforts.
    There are many areas of concern to private citizens where 
there have been areas of testing, including soil sampling and 
garden areas, driveways, roads, and outside air quality in 
Libby and near the mine site. The test results from these 
locations should be available around the middle of March. With 
that information in hand, a plan can be determined on how much 
and where further testing needs to be done.
    Another major concern is the health of our residents, 
especially the former workers and their families. We believe, 
as a board of commissioners, that it is important to follow 
through with developing a screening and treatment center right 
here in Libby to reduce the fears of hose who have not had an 
opportunity to be screened, but more importantly, to lessen the 
financial and traumatic impact on those that have contracted 
asbestosis or related diseases. These folks affected may not be 
financially nor physically able to travel the long distances 
they now have to travel to seek treatment. But in addition to 
that, I think it's very important to have local screening and 
treatment because it provides the emotional support of family 
and friends.
    The local hospital has submitted a plan that they feel will 
meet these needs right here in Libby. We, as Lincoln County 
Board of Commissioners, strongly support the efforts of St. 
John's Lutheran Hospital to accomplish this. There are still so 
many unknowns on how many people will need to be screened and 
treated. Asbestosis may take years to develop to a point where 
it is detectable. The need to offer this screening and 
treatment locally will continue for years to come.
    We are also concerned about the effects this has already 
had and we know it will continue to have on our local economy. 
The Libby area, as well as the rest of Lincoln County, was 
already faced with economic challenges due to the major 
downturn in timber sales and other natural resource-based 
industries these last several years. To survive this additional 
roadblock will require all of us working together to address 
and identify the problem collectively, get it cleaned up, and 
we can do that, and identify ways to recover from the negative 
and sometimes exaggerated publicity.
    Our taxpayers are understandably worried. They know that 
Lincoln County has been affected by major losses of revenue the 
past few years. Many of our county services have been reduced 
or eliminated because of a loss in tax valuation due to the 
closure of major industry. We are aware there will, 
undoubtedly, be a demand on many county departments for 
continuation of some services associated with this very 
distinct problem. Due to the long latency period associated 
with asbestos disease onset, the lengthy duration of the 
illness and the likelihood of additional asbestosis source 
discovery, citizens will need to rebuild their confidence that 
the environment in which they live is currently safe, and it 
will continue to be safe through extended sampling programs. We 
foresee additional funding requirements for our district court, 
the Department Of Environmental Health, our county nurse's 
office, the road department, mental health services, and other 
areas of support needed by our constituents. As part of the 
partnership working to solve this problem, it would be 
beneficial for the Federal Government to help us defray the 
cost of these additional burdens, rather than to attempt to 
shoulder all this additional burden by those who are most 
affected.
    Again, we all would like to thank this committee for taking 
the time to come to Libby, to listen to us, and to address the 
problems and the uncertainties that are on the minds of all our 
residents. We appreciate this opportunity; thank you.
    Senator Baucus. You're very welcome. It was a very good 
statement; we appreciate that.
    I'll turn to John. Do you have a statement, John?
    Mr. Konzen. Same.
    Senator Baucus. Good; thank you.
    Dr. Black?

  STATEMENT OF DR. BRAD BLACK, M.D., MEDICAL OFFICER, LINCOLN 
             COUNTY ENVIRONMENTAL HEALTH DEPARTMENT

    Dr. Black. My name is Brad Black. I hold the position of 
Lincoln County Health Officer and have lived and practiced 
medicine in Libby for the past twenty-two years.
    As cases of asbestosis surfaced in the area that involved 
people with nonoccupational----
    Senator Baucus. Can everybody hear Dr. Black?
    You have to speak a little more slowly and right into the 
microphone.
    Dr. Black. I'll start over. My name is Brad Black. I hold 
the position of Lincoln County Health Officer and have lived 
and practiced medicine in Libby for the past 22 years.
    As cases of asbestosis surface in the area with people with 
nonoccupational exposure, our health department began the 
process of determining where that might have occurred. 
Communication with Dr. Alan Whitehouse, pulmonary specialist in 
Spokane, gave indication that at least 23 cases of 
nonoccupational asbestosis had occurred. When we identified 
some of these areas and realized they extended into youth 
recreation and the various areas, there was real concerns over 
more widespread exposure.
    And then in the fall, of course, late November, he EPA 
arrived and--under the direction of Paul Peronard, and felt 
like things went very efficiently in the initial assessments, 
and with EPA toxicologists Chris Weis and Aubrey Miller, took 
on a very professional--they took on a very professional 
approach to look at the situation. And their observations 
supported the concerns of over--possible widespread asbestos 
exposure.
    We, together, discussed the immediate needs to determine, 
first of all, if there's current risk of asbestos exposure 
through environmental screening; if there was significant past 
exposure, which would require medical screening; and then also, 
the need in our community to develop infrastructure in the 
medical system that would accommodate people and carry on the 
ongoing monitoring and care for patients that were affected 
with significant asbestos exposure.
    In discussions with our medical providers in the community, 
there was consensus that we should take a lead role in 
providing this medical support and follow-up care. Our medical 
staff is very interested in one of the more important issues 
that came to mind was how can we help people too. And we were 
very interested in some component that might look at potential 
therapies in this area.
    We also discussed that the Lincoln County Health Board 
this--our desire to take a lead role, and we received heir 
support with us also. And also we discussed this with Dr. 
Whitehouse as an expert consultant, and he was very supportive 
of us taking on this plan.
    At this stage, our role appeared to be in providing 
assistance to the EPA and medical screening process and to 
proceed with securing the elements necessary to provide medical 
care and follow-up care.
    In the first part of this year, the ATSDR was engaged. And 
under the direction of Jeff Lybarger, physician, we continued 
to proceed with the development of some infrastructure needs. 
There was initially concern locally, that with the EPA and the 
ATSDR together on the project, there might be a problem 
concerning the leadership. However, both groups have 
demonstrated a level of professionalism that has allowed things 
to move along in a positive direction. They have come to 
fulfill their role but have been listening and responding to 
State and local input quite well.
    Development of the community advisory group is seen as an 
essential element. I would strongly recommend an initial phase 
of development of this interactive process, that the EPA take a 
more formal role in facilitation. This could help break down 
community tensions and help create an environment of 
participancy that is comfortable and respectful of individual 
rights when discussing differing pinions. Then the group 
function can mature to a level that allows it to sustain an 
independent character.
    As environmental screening and medical screening are in 
progress, we feel that it is essential to be developing a 
system to receive, evaluate, continue monitoring, and provide 
for all aspects of care for these people with significant 
asbestos exposure. This would be accomplished with the 
assistance of expertise offered by Dr. Whitehouse, a pulmonary 
specialist who is experienced with this clinical course of 
tremolite exposure. In addition, it is our interest, along with 
Dr. Whitehouse, to investigate the possibility of finding a 
therapy for the fibrotic process caused by the asbestos fibers. 
The ATSDR, represented by Dr. Lybarger, has indicated a support 
for a research component.
    As we receive the aid of the EPA and environmental 
screening and the ATSDR in developing a local program that 
would begin by being involved with the medical screening and 
continue the process and be ready to receive the identified 
population, I am concerned we are not going to be prepared. St. 
John's Hospital is in a serious need of operational capital in 
order to take an active role in hiring a local program 
coordinator, clerks, interviewers and pursuing education for 
health providers and respiratory therapists, to mention a few 
immediate needs. As a health care community, we are ready and 
waiting to move ahead. With adequate capital and expertise, I'm 
certain we can construct a quality infrastructure.
    There had been indications that there might be monetary aid 
somewhere in the future, and I'm hopeful that we will see some 
success in this area.
    I think--in closing, I think our role still is to continue 
to work in a negotiating relationship with W.R. Grace to 
address the long-term health care needs of persons affected by 
asbestos-related disease. This would involve regular monitoring 
and care with appropriate interventions for those who have been 
impacted by asbestos exposure.
    Thank you.
    Senator Baucus. Thank you very much, Brad.
    Ron, are you going to add to the statement?

      STATEMENT OF RON ANDERSON, DIRECTOR, LINCOLN COUNTY 
                ENVIRONMENTAL HEALTH DEPARTMENT

    Mr. Anderson. Senator Baucus, Senator Burns, I wish to 
express my appreciation for your consideration and efforts in 
evaluating the impacts on, and concerns of, this Libby 
community as we deal with this asbestos issue.
    I echo the acknowledgments of others in regard to the 
Federal and State assistance rendered to date in evaluating 
conditions and assessing the problem. These efforts will result 
in public health risk assessments, health screening for 
asbestos disease presence and clean-up of known asbestos 
sources. This process will go a long way toward alleviating 
immediate health concerns and anxieties harbored by the 
community.
    However, asbestos and its impacts presents a long-term 
issue. Asbestos does not readily deteriorate in the 
environment, and exposure to its fibers take many years to 
develop into a debilitating and deadly affliction. It is 
inconceivable to assume the efforts currently being expended in 
response to the asbestos conditions in Libby will result in a 
100 percent clean-up of all asbestos risk. Long-term planning 
is proceeding for personal health issues associated with 
asbestos presence in our community. These include screening, 
long-term care and research efforts.
    In order to rebuild and maintain citizen and visitor 
confidence in the Libby environment, it will be necessary to 
maintain an ongoing environmental asbestos monitoring program. 
This program must address ambient and indoor air quality, 
drinking water and source sampling of such things as dirt and 
insulation. As people remodel houses, dig up yards and gardens 
and transfer real estate, new asbestos sources and concerns are 
going to be uncovered. People will need to have a local agency 
to assist them. The Lincoln County Environmental Health 
Department has experienced staff personnel to deal with air and 
water monitoring programs regularly. Asbestos training and 
appropriate monitoring equipment will allow our department to 
expand this role to provide this service. It is also logical 
that we assume the role as the educational outlet for asbestos-
related topics when the EPA Libby storefront information center 
is phased out.
    The scope of these long-range community needs falls beyond 
the current EPA and State efforts. These needs will require 
extended funding, and that leads me to the basis of my request. 
The citizens of the Libby community need your assistance in 
providing a means for sustained and assured long-term funding 
to provide these essential environmental programs. Assurance, 
and reassurance, that the local environment does not pose a 
public health risk is critical to the healing and rebuilding 
process facing the citizens of the Libby community.
    I'm appreciative of your efforts and concerns and express 
my thanks.
    Senator Baucus. Thank you very much, Mr. Anderson.
    Mayor Berget?
    Mayor Berget. I basically feel like everything I'm going to 
say has already been covered, but I'll do it.
    Senator Baucus. There's a famous Member of Congress named 
Mo Udall who once said--when he was at the end of the line and 
everybody had said everything that had to be said, and he said, 
``Everything's already been said but not everybody has said 
it.''

  STATEMENT OF HON. TONY BERGET, MAYOR, CITY OF LIBBY, MONTANA

    Mayor Berget. We are experiencing one of the most difficult 
times in Libby's history. It is diagnosis of hundreds of Libby 
area residents with asbestosis that is devastating on many 
levels. I have lived in this community for almost my entire 
life. It is where I choose to raise my family, not because it 
is the most economically advantageous place to be to do so, but 
because this is where my heart is. Libby is a beautiful and a 
great place for kids. But the reason I choose to live here is 
because of the people.
    It is only recently that I've become aware of just how many 
families have been affected by this debilitating and deadly 
disease. I, like many Libby citizens, knew of the court cases 
but had no idea of the scope of the problem until recently. The 
more I've talked with victims of this disease during the past 
few weeks and months, the more I realize how horrifying the 
diagnosis can be. My heart goes out to everyone affected. It is 
imperative now that we determine the extent of the problem and 
assess the steps necessary to remove any residential danger. It 
is clear that health care facilities need to be expanded and 
staffs of the testing and health care services can be received 
in Libby. I am encouraged that W.R. Grace has made a commitment 
to help St. John's Lutheran Hospital provide these services. It 
is still unclear how much money will be required to do what is 
necessary. There may also be environmental clean-up issues that 
surface as we continue the investigation. This community does 
not have the resources to face these economic challenges. We 
will need help.
    I am also concerned about the effect the intense media 
attention will have on the future of Libby. This media 
coverage, aside from making us more aware of the situation, has 
only done damage. Not only to the Libby as a community, and 
yes, to the economic issues we have been striving to turn 
around, but also, and most severely, to the very individuals 
who have already suffered the most. The national exposure to 
the situation means that many more individuals are seeking 
legal recourse against Grace, including most recently a class 
action suit. I'm concerned that the lawyers will fair better 
than the victims of asbestosis. The publicity has already led 
to the delay of a pending court case. Should the change of 
venue be granted, the plaintiffs may have to travel to eastern 
Montana, at their own expense, to have their day in court. 
Meanwhile, these individuals with asbestosis who are still able 
to work, or who may need to sell their home, will be subject to 
the same economic hardship as the rest of the community, as we 
continue to be labeled ``The town left to die.''
    I'm glad the EPA is here and I'm very impressed with the 
team. I'm very impressed by their expertise and 
professionalism. They are very approachable. I am cautiously 
optimistic about the preliminary findings. I believe there's 
minimal risk of exposure to the citizens of Libby today. I 
believe Libby is still a safe community in which to live. This 
in no way should diminish the fact that many people are 
suffering from the past exposure. We must continue to work 
together at local, State and Federal levels to ensure the well-
being of Libby's future.
    Senator Baucus. Thank you very much, Tony. I'd like to ask 
some questions. I'm encouraging others to chime in, if you have 
additional points you want to make of particular relevance. I 
want this to be more in the nature of a discussion than a 
formal hearing. Conrad's going to chime in too.
    Dr. Black, I was struck with your suggestion that EPA take 
on the more formal role in facilitation. What do you have in 
mind? Does that mean going beyond the community advisory group?
    Dr. Black. No. For those of us who went to the first 
meeting, I think we felt like there was enough tension in the 
room, varied feelings about this. It was an opportunity for our 
community to start healing and getting through and 
understanding each other and hearing about people's past. You 
know, some of the pain they've gone through, and also for those 
of us who do not--or those members who don't understand what 
other people have gone through, it's very important to share 
those feelings.
    Those feelings only come through breaking down of the 
tensions and starting into conversation. Certainly, at first, 
it's a bit tenuous because of those feelings and things can be 
very difficult. It needs a more formal process, I think, from 
the EPA in terms of coordinating and facilitating the process 
to where people get to a very comfortable level and respect for 
each other in that setting so that that group can then take 
over and become a very----
    Senator Baucus. How has it been working so far?
    Dr. Black. It's been moving slow, I think. It's starting to 
move some. We did go out and obtain a facilitator. But I felt 
like that could have been handled by the EPA to get us started 
and maybe the first--maybe until we saw the group maturing to a 
level as far as being able to interchange and do it in a very--
--
    Senator Baucus. But the EPA helped in getting the community 
actually grouped together; is that correct?
    Dr. Black. Yes. Excellent idea, there's no question. A very 
appropriate thing to do. I just felt like it could have gone a 
little smoother. That was the only criticism. That's not a 
major criticism.
    Senator Baucus. So it's a little slow in developing, but do 
you think that's a good group to kind of sort of be the 
clearing house for the community?
    Dr. Black. I think that it's not been defined fully. I have 
a little different expectation of it. Right now I think it's 
been a--considered a clearing house for information. I suspect, 
over time, it could become an area where when it comes to some 
decisions we make, because of the impacts of the decisions on 
this--in this process, it affects everybody. And I think the 
community has to have some sense it's time for the community to 
work together and actually stand behind something together. And 
I think it's an opportunity to do that.
    Senator Baucus. Am I correct in assuming that's a good way 
for the community to decide among itself what it really wants, 
or doesn't want, in working with the State and Federal 
agencies? Others might want to speak to this.
    Dr. Black. To me it has this potential. I'll turn it over 
to whoever wants to speak.
    Mr. Anderson. In the late 1980's we were faced with Clean 
Air Act violations here and were deemed to be a noncompliant 
community, according to the clean air standards. As part of the 
process for addressing the problem and coming up with an action 
plan, we developed a citizens' advisory group that worked very 
effectively. This group involved all the various interests in 
the community--wood stove users and those opposed to wood 
stoves, road districts, etc.--everybody we could think of. That 
group quickly focused on the issue of developing a plan and 
control measure that everybody could live with. Through 
compromise and whatnot, we were able to effectively cure the 
problem.
    Senator Baucus. Does this group have the confidence of the 
community? That's a hard question to answer, but it's only 
going to work if it has the confidence of the community.
    Mayor Berget. I think it does. I mean, the group is made up 
of quite a few different individuals. I've been really 
impressed with Wendy as part of that triple-A team we had here 
in Libby. But I think all of us have our own expectations of 
what the group is going to do. So I think over time, as Dr. 
Black said, we will get comfortable together and we will be 
able to strive.
    Senator Baucus. Does the community advisory group have a 
leader?
    Mayor Berget. Just our facilitator at this time and Wendy.
    Senator Baucus. Okay. Rita, do you have a comment?
    Ms. Windom. Senator Baucus, I have attended both of those 
meetings. They have been frustrating for everyone in 
attendance, but I believe that it's our own responsibility. I 
have noticed that we still represent certain sections of the 
community in the way we sit at those meetings. The elected 
officials sit together, the victims sit together, other 
community members sit together, EPA sits together. And we 
haven't come to that comfort level that we should have with one 
another that we mix up and sit in varied seats in the arena and 
that we are able and comfortable to share the information.
    We need strong leadership in that direction. Maybe it needs 
to come from EPA, maybe it needs to come from the community, 
but we need the support of EPA in bringing all of these 
different groups together to have a spokesman in this group and 
raise our comfort level so that we can actually share our most 
intimate thoughts on these subjects.
    Senator Baucus. What facilities and equipment are needed 
for screening, testing and counseling? Probably we won't know 
until a little later on, but what are the parameters? What's 
the minimum, and then what is a reasonable maximum?
    Dr. Black. We're looking at short-term needs and the long-
term needs. Short-term, I think that some of the upgrading of 
x-ray equipment, the provision of a specific pulmonary function 
apparatus, which has not been in our community before, is in 
the process of being worked out also. Those things will be 
essential in order to fill a role. We're working with the ATSDR 
and EPA to bring them into the community.
    The areas that I think we need immediate help involve the 
development of the initial infrastructure. Somebody needs to 
coordinate our program. This is a new program for the hospital 
and the health care community to take on. It's going to need 
ongoing, long-term organization to carry this out. We think a 
clinical coordinator is a very critical role in this.
    Senator Baucus. What's it take to get one?
    Dr. Black. You're asking probably the wrong guy on that.
    Senator Baucus. Who do we ask?
    Dr. Black. Well, I think probably hospital administration, 
Mr. Rick Palagi.
    Senator Baucus. You work at the hospital. We've got a good 
sense of what it takes.
    Dr. Black. You caught me off guard on that one. I'm not the 
money man.
    Senator Baucus. I'm just trying to get a sense, John and 
Rita and everyone. You've thought about this a month or so now. 
Quantify the amount, in dollar terms maybe, the equipment, the 
trained personnel, coordinator you're talking about that's 
going to be necessary here short-term, long-term. We're trying 
to get a handle on this.
    Mr. Konzen. I think that is what frustrates everybody. 
We're not experts in this area at all. We are covering new 
ground. The role each agency plays in the delivering of service 
to help these folks and to get this community on the path to 
assistance and recognition of their potential and the therapy 
that could come on after the end of this process is important, 
I think. My frustration is in trying to understand what role 
W.R. Grace plays monetarily, what role EPA plays monetarily and 
the other organizations. So far, we have heard a lot of talk, 
and not seen a lot of money. We're looking to fleece America. 
We're looking to get what this community needs to do the job, 
and that's what you're trying to do.
    I wonder, when W.R. Grace comes to the table with money, if 
we should take it or not. We have never been through this 
process. Who is out there to advise people on this kind of 
issue? There is a concern that we could draw upon advisers to 
help us better focus on what we need to do. About $6 million 
was mentioned a couple times, but I don't think we know where 
that's going to go. The costs could be far greater than that.
    Senator Baucus. Now, you're asking a question of some State 
folks here and some of the Federal people like EPA and ATSDR 
folks. Do you get a sense that they'll be able to help you 
answer those questions fairly soon?
    Mr. Konzen. No, I think it's becoming clearer that they are 
going to be able to do something, but we still haven't seen 
that commitment on paper.
    Dr. Black. I think we're talking about an issue that's 
short and long-term. Clearly, you know, on the short-term, I 
think we could probably get, you know, some idea on costs from 
the right people. But on the long-term, until we identify the 
impacts, we do not know how many people are affected with 
significant asbestos exposure. Until we identify it, it's very 
difficult to put together figures. You know, is it going to 
involve 500 people? What's it going to involve? We don't know 
and we're--we need that piece of information once a medical 
screening does get enacted and we get some rulings.
    Senator Baucus. Let's assume it does involve 500 people. 
Let's make that assumption. Then what flows in terms of medical 
and screening and equipment, personnel screening needs?
    Mr. Konzen. Senator, could we bring Rick up here?
    Senator Baucus. Sure; Rick.
    Rick, you're paged here. You're requested. Why don't you 
identify yourself, Rick.
    Mr. Palagi. I'm Rick Palagi. I have the honor of living in 
this community and representing the finest rural hospital in 
America. And you can take that back to Washington with you.
    I don't know how to respond to this. The big deal is to 
identify. We assume 500? I'm not the medical expert. I believe 
there's a group of them getting together next week to further 
discuss medical models of how to manage and look at this 
process. There are resources, I believe, that ATSDR, EPA and 
maybe independent facilities that could forecast, let's say, 
what it might cost in terms of care for a person who has an 
asbestos-related disease. So I don't now what that figure is. 
We could discuss a million dollars over the course of a 
lifetime. Is it--whatever that might be.
    Senator Baucus. Well, I got word yesterday that the 
Department of Health and Human Services is going to give Libby 
$80,000. That's probably just a drop in the bucket, but it's--
the Department of Health and Human Services, yesterday, 
announced they're going to give Libby $80,000 for medical care. 
It's a start. Once you get your foot in the door, it could lead 
to other Federal possibilities.
    Now, we also know that Grace has offered $250,000 a year. 
John wondered out loud, is it good to take that money or not. 
We'd like a little more comfort in attempting to answer that 
question.
    What's your knowledge about that $250,000? It's my 
understanding is it's there for the hospital to spend as it 
wishes on asbestos-related problems. But they want to be sure 
that there's some kind of an independent screening of some 
kind. Could you tell us a little more of your understanding?
    Mr. Palagi. That pretty well reflects my understanding of 
what we've been in discussion with those folks for.
    Senator Baucus. Would that be fair to the people or--that 
is the independent screening or not? I just don't know I'm 
asking.
    Mr. Palagi. Would an independent screening be fair? I 
believe that's what most of us would want to have is an 
independent screening, yes. And I guess that's representing the 
hospital. We want to make sure that what we do is independent 
and used that way in the most supportive way that it can be 
with all the community members. So that's some of our debate 
within the board.
    Senator Baucus. Would you also tell us all that's involved 
in looking at and examining x-rays--the expertise that's 
needed. It's my understanding you need something called a ``B 
reader.'' I was talking to somebody at the ATSDR, and they said 
you need three B readers. What does that mean?
    Dr. Black. Basically, B reading is a standardized method 
that was developed, and I can't tell you what year. But it's 
been the standard for quite sometime in terms of assessing on 
chest x-ray what involvement somebody would have with what's 
called a pneumonoconiosis, which would be asbestos, asbestosis 
or silicosis or that type of disease. They've been used for 
years. Once again, it's the only standard that has been used.
    The kicker on this, and I'll be very frank with you and our 
real concerns are that the nature of this tremolite exposure is 
that it involves the pleural surface of the lung, which is very 
active in that area, and it predominates in that area. The 
standard B reading is not as accurate in that area. That's why 
we want an active part in the process of screening those x-rays 
also. With the assistance of people that have really been 
taking care of this disease for quite sometime, we have the 
chance to get much more expertise. I think we can do a very 
good job of that.
    Senator Baucus. Would telemedicine help here, that is of x-
rays taken and then sent Internet or somehow?
    Dr. Black. I think there is a place for that in certain 
cases, yes.
    Mr. Palagi. That's like a lead-in for me, isn't it?
    Senator Baucus. Right.
    Mr. Palagi. Telemedicine has a lot of things. Let's talk a 
little bit about what's commonly referred to as televideo or 
interactive television, which requires for transmission and 
message purposes, T-1 telephone lines, big pipelines or fiber 
optic. Both those elude us here significantly. Would it be 
helpful? Yes. If we have physicians caring for a group of 
patients who require visits in consultations with pulmonary 
specialists, be those in Spokane or Chicago or Washington, DC, 
that would be very helpful. That's an interactive two-way 
process. That could be achieved without having families bear 
the burden of travel and time with that travel. So that would 
be certainly something that could be helpful.
    Senator Baucus. What's the cost of a T-1 line to Spokane?
    Mr. Palagi. I'm going to guess--I might be off--but it's 
somewhere in the neighborhood of $2,500 to $3,500 a month, in 
terms of maintaining that expense. We just worked one in terms 
of some work we were doing with Missoula, and that was about 
$3,500 to $3,700. That's an ongoing expense. Doesn't sound like 
a lot, but to a hospital with an $8 million revenue stream, 
it's a big bunch of money.
    Senator Baucus. Another question: obviously the facilities 
and we want to solve this problem as quickly as possible. We 
hope this health problem is going to come to a time where it 
tapers off. So this would be a large, but not be a permanent 
effort. It would be somewhat temporary or intermediate. T-1--
some Federal dollars paying for a T-1 connection during in the 
near-term would then reduce. Once the issue was basically 
solved, then there would be other facilities in place for a lot 
better rural telecommunications. That is a huge problem that 
Senator Burns and I have been working on for Montana, 
generally. I want to make sure we're not gold-plating this 
thing. We want to dedicate the needed dollars, but we don't 
want a big rush of pork in here as well. What we really want is 
just to address the need for as long as it lasts.
    Mr. Palagi. There is a component of use that extends beyond 
medical that that equipment obviously could be used for.
    Senator Baucus. Absolutely.
    Mr. Palagi. There is many economic development kinds of 
things that would be very positive to allow community and 
business access, let's say, to a telemedicine suite of that 
nature. So there are some long-term benefits to our community.
    Senator Baucus. I have a little different kind of question 
here.
    This is a huge problem, and we are going to do all we can 
to solve it. But it seems to me that simultaneously, at the 
same time, it really helps psychologically if there's some 
other community effort going on. Something to spend one's 
positive energy on so we're not just devoting all our time to a 
problem or maybe get a little disconcerted with or frustrated 
with or something.
    I mean, are there some ongoing sort of positive, like one 
or two major community efforts to--you know, boy, we're proud 
of this--football team or a basketball team or something? My 
God, you're the State champs or so on and so forth? I don't 
know, I'm just thinking out loud here, if there's something 
like that that we can kind of put some positive energy into at 
the same time we're looking into this.
    Audience Member. Timber resource.
    Senator Burns. Timber resource; okay.
    Mayor Berget. There's a community effort with the Kootenai 
Heritage Council and what they're using on. There's a pool. 
There's a group that's still working in Libby in an area to 
accomplish that. And as far as the--I don't know, the T-1 line 
or fiber optics into Libby so that we could be up to speed with 
any of you guys, that's all it would take, is getting the speed 
to the access of the Internet things. Because it speeds up the 
speed and the ability to come in and out of Libby at faster 
rates you know, we're going to be able to create some jobs that 
way as well. So I guess those can.
    Mr. Palagi. I'm a newcomer. I've been here 5 years. I don't 
think I get my card-carrying Libby residency status for about 
another 10 or 12, I'm told. More than that, Senator? This is a 
community of the proudest people I have ever been associated 
with. The news cameras will catch the tattered screens behind 
us and the tattered drapes and the kind of cold we're in in 
this building, and that does not at all represent the spirit of 
people that are here.
    Two weeks ago or so we had a public fund-raiser to bring 
public radio to town. Local bluegrass band, a packed house at 
the Elks Club. It's a neat thing, it's going to happen. Raising 
$20,000, amongst many of our folks who don't have a nickel in 
their pocket, is a big deal. It will happen. The performing 
arts center will happen. There are many, many positive things 
here. Unfortunately, now, we're under a cloud with this 
particular situation to work through. So it's troublesome for 
us. But that doesn't mean we won't keep pushing for those 
things.
    Senator Baucus. And I appreciate that very much.
    Is there anything any of you want to say to the State folks 
that will be coming up soon or to the Federal folks that will 
be coming up soon? Anything that you want to say to us or to 
them so that Conrad and I can talk to them about?
    Mr. Konzen. I'd like to see things move fast, and I realize 
that this is not going to move fast. But I think if this can 
get some positive data out to the folks in this community and 
to this nation of ours that's now involved, that it will help 
stop some of the decisiveness that's going on in this 
community. That if this thing continues to linger and the 
unknowns continue to be out there, it's going to continue to 
cause the decisiveness that I'm seeing. And so I think a clear 
goal and a clear plan needs to come forth as soon as possible.
    Senator Baucus. Are there any areas where you think perhaps 
it can be a little more speedy?
    Mr. Konzen. Put people in the lab; I don't know.
    Senator Baucus. What's that?
    Mr. Konzen. More people in the lab that are getting this 
stuff tested.
    Senator Baucus. The tests are just taking a long time.
    Mr. Konzen. Yes. I think these folks are doing what they 
can, locally. But I guess, you know, trying to figure out--I 
wear two hats; the hospital board member and the commissioner. 
And watching the hospital struggle with this process, trying to 
coordinate and set up something hat could be palatable for the 
people in this community without knowing where the source of 
funding is at, is really a question. And our EPA doesn't give 
funding. They do it through a contract, and then we don't know 
where all this stuff goes. So like I mentioned before, we're 
still frustrated with the process of securing funding to make 
sure these people get the health needs met. And if we don't do 
that pretty soon, I think we'll continue to have problems.
    Senator Baucus. That's a good point. Maybe I'm a little 
naive here. But it's my hope that we could, you know, turn this 
into something that makes that community really, really proud. 
I mean, it's kind of like turning a sow's ear into a silk 
purse. That is, we got a problem here, we just--we get people 
working together and a story that would be written maybe a year 
or two from now about what a great job the folks from Libby did 
there and whether we could make a real positive story out of 
it. Everything's an opportunity, and it's my hope that that's 
the result of this, my goal, to help work toward that goal.
    Mr. Palagi. Senator, I would be remiss if I didn't take the 
opportunity to speak to the research component. Brad's 
mentioned that some. There's a very definite positive silver 
lining in this, if we can develop some kind of research 
component or someone can here. Not only can we hold out hope 
for folks suffering that would be transforming event to have 
that happen here. And so we're very anxious with that.

STATEMENT OF HON. CONRAD BURNS, U.S. SENATOR FROM THE STATE OF 
                            MONTANA

    Senator Burns. Thank you, today, Mr. Chairman. I want to 
thank Max for holding this hearing. I think it's very essential 
in the way we reacted to this situation that we have up here, 
and I appreciate him doing that. And I appreciate him letting 
me sit here and listen today. I'm not a member of the 
Environment and Public Works Committee, but I am a member of 
the Senate subcommittee that appropriates its money.
    I was interested in, Ron, your statement today. Also, I 
knew John Konzen when he was younger and faster and quicker on 
the handball court. I can just take one look at him right now 
and tell him he can't be that quick anymore. Of course, neither 
can I. So we've had some real sessions on the handball court.
    But I want to take this a little further with you, Ron, Mr. 
Anderson, just for a second. You want the capability to monitor 
and to assist in whenever we start talking about property 
transfer, we start talking about putting confidence back into 
the community. I think you will have a lot to do with that. Can 
you give me any kind of a figure, what do you think--and this 
is going--how long you going to have to do it and what are the 
resources you're going to need as far as manpower, and then 
we're going to convert that into dollars. Because I'm going to 
look at it the way the commissioners look at it. I was a 
commissioner before I was this. And I know that in providing 
those funds, it will finally end up in our committee. So if you 
could give me an idea what idea you have of resources, 
personnel and what--tell me what you define your job to be.
    Mr. Anderson. Well----
    Senator Burns. You got to feel like an old auctioneer and 
just grab a hold of the microphone and talk. There you are.
    Mr. Anderson. How much am I bid for this?
    I, too, am frustrated by the uncertainty of this, as far as 
determining an actual dollar value. And it's----
    Senator Burns. If you can say how many people do you think 
you'll need. Let's solve a problem here. How many people do you 
think you'll need if you decide to monitor; that if people come 
to you and say Okay, I'm buying a home or a property or a 
business, can I come to you to make sure that everything is 
taken care of environmentally and especially in environmental 
health.
    Mr. Anderson. I envision that the resources that we have, 
manpower wise, will adequately cover the sampling program. The 
cost of analyzing filters for asbestos and the latency period 
in getting results for those, we're not doing this--we're not 
envisioning doing his as we do with the daily air quality 
monitoring that we do right now. We feel that it's necessary 
to, possibly once a month, collect a sample and have it 
analyzed for the presence of asbestos fibers. What would be 
involved--there is an agreement with the lab to process those 
filters on whatever basis. The equipment for collecting that 
sample. It's a matter of just, you know, one shot deal. The 
installation would be compatible with what we already have in 
place.
    As far as people discovering new sources, relay transfers, 
that sort of thing, the actual sampling process is fairly 
simple for the source materials such as the insulation; a 
matter of collecting the sample.
    Senator Burns. Equipment. How about equipment? Are you 
going to need extra equipment or new equipment?
    Mr. Anderson. We would need the air sampling device. We 
would also need the indoor sampling devices, whichever was 
selected to be most appropriate and most affordable.
    Senator Burns. How about training? In other words, have you 
got trained folks, and do you think you'll have to have 
additional training from other labs, other places that deal 
with these problems?
    Mr. Anderson. I think training would be essential for the 
people in the department. Like I say, we've had the 
experience--continual experience with sampling techniques and 
running equipment. But this would be just a different set of 
equipment. As far as educational purposes, if we're looking at 
being somebody in a department that people can come to, we 
would need to have some training about the asbestos and other 
related issues.
    Senator Burns. I think it would be quite helpful to Senator 
Baucus and to me if you could set down and make some sort of an 
assessment on where we are and where you want your department 
to go and what role it plays and what it's going to take to 
bring you up to speed to do a job. And for the county. Also, I 
think it could be very important as far as the State's 
concerned. I think that's what the commissioners are looking 
for. And if there's a way we can help you with that, if it 
takes funding, let's look at it. Let's get our name in the pot 
and start moving into those areas. I think we owe that not only 
to this generation but the next. I think that's the most acute 
problem that we have right now is dealing with the 
environmental problem; that we make sure we're helped with our 
properties and everything.
    Now, as far as Dr. Black and Mr. Palagi's concern on the T-
1 line, we are already moving on a broad-band digital transfer 
of extra eight and stuff like that. But I'll talk bout that 
later on. But I think right now, I'm more concerned about do 
you have the money to do what you want to do environmentally so 
that we can address that problem, and can you give us a 
ballpark figure and would let Senator Baucus and I work on that 
for you?
    Mr. Anderson. Yes, I will; thank you.
    Senator Burns. Okay.
    Senator Baucus. I think George had a comment to make.
    Mr. Bauer. Senator Baucus, and Senator Burns, as far as the 
litigation process, I personally would like to see another 
judge brought into this area at the district level. And, 
second, on the Federal Court list, you know, that seems to be 
an ongoing list of about 30 or 40 people. If that could be 
speeded up, you know, to a certain degree, because sometimes 
that takes a long period of time, as long as 10 years. So those 
are two issues that people have asked me, so I'd like to see 
that addressed.
    Senator Baucus. That's a really very important question. I 
essentially kept the scope of this hearing to the health needs 
of the area and then also the exposure problems and questions 
of the future where asbestos might hurt people. And I've stayed 
away from liability issues. My view is, let's get focused on 
the health needs first and let's see what clean-up needs are 
and get the resource dollars there.
    Now, clearly, one of the pressures on Lincoln County is 
going to be the cost of trials and judges and things like that. 
It's a huge cost. And that is related to costs and resources; 
there's no doubt about that. My judgment is that we should 
start looking at that a little bit later, not much later, but a 
little bit later but focus first on those first two problems.
    Mr. Bauer. And, second, as far as the insulation situation 
in homes in Libby, Montana, I would consider that there's 
probably 60 to 80 percent of these homes in Libby that have 
zonolite insulation. There are a lot of people that have 
addressed this to me that they feel this should be handled a 
little bit speedier. As John Konzen mentioned, that if this is 
going to be a problem, it should be addressed at a faster pace. 
We look at the 5 micron level. What is the danger point? Is it 
under 5 or so, I think this is something----
    Senator Baucus. Those are all very good questions. And so 
at some point--and later on this morning we will talk to--the 
Federal and State people supposedly have a little more 
expertise on vermiculite and asbestos and begin to tell us what 
system you set up to know what to do about insulation in homes.
    Sometimes asbestos should be removed. Sometimes asbestos is 
best just left there, as long as it's not getting in the way or 
getting in people's bodies. It's a judgment call. And it's 
really--it's going to take people, not me, but others to know, 
you know, when to do all that.
    This is a huge issue with asbestos over the years and other 
situations. There's asbestos in walls and so forth and 
ceilings, and sometimes you just start scraping the stuff away 
trying to get it out and you don't know what you've created.
    Mr. Bauer. I agree. We talked about a judgment call. But 
we're talking about people's homes. And if they want to sell 
their house, I think it can be a considerable problem.
    Senator Baucus. That's a very good point.
    Mr. Bauer. And they talk about sealing off the problem, I'm 
not so sure that's a long-term situation.
    Senator Baucus. Have you been asking these questions of the 
Federal and the State people in town?
    Mr. Bauer. I've talked to Senator Burns about it.
    Senator Baucus. Have you talked to the feds about it? Have 
you talked to Paul about it? What does Paul say?
    Mr. Peronard. One of the things we've had to do with the 
number of samples we collected----
    Senator Baucus. Paul, could you come over to the 
microphone? Sorry. This is your big buildup, you better tell us 
something.
    Mr. Peronard. One of the things that we've done is the 
number of samples we've collected and tried to prioritize them. 
And we've done that so that we can assess where we think some 
of the risks are. In the entraining samples that we have now, 
we did the air samples first. And we've got a direct measure of 
what people are going to be exposed to, what they're breathing 
right now.
    The second set of samples that we put in line are in queue 
at the laboratory with the samples around the screening plant 
and loading station, as we saw vermiculite there out in the 
open and it was the unexfoliated, unexpanded material. 
Historically, that has shown higher asbestos levels.
    Third in the queue was the insulation samples from the 32 
homes that we have in there. I'm going to have a complete set 
of data for all the samples back by mid March. I can look and 
see where the insulation samples are and bump them up as a 
priority. What that means is that I take other samples which 
I'm analyzing, take them out of the queue and I replace them. 
So, you know, there's a balance to be struck there.
    In the meantime, the reason I put the insulation samples 
down is just the point that Senator Baucus raised. It's not--
there are two things that we need to figure out. One, is there, 
in fact, asbestos in the expanded insulation? As it turns out, 
nobody's ever sampled and analyzed, at least on the government 
side, expanded vermiculite in this mine. So that's a question 
one.
    And then two, does that create an immediate exposure 
problem even if it's in there? How we get to the second answer 
is by doing the air sampling, which we bumped up to the first 
priority.
    So I actually think we've done this in the appropriate 
order. I certainly can move it around in the lab. In any event, 
we'll have all the answers from the first round of samples back 
by March. I'll be able to come up here and tell you We have 
this percent at this level of asbestos and vermiculite sample 
in Libby. So that's sort of how we approached it and that's 
why.
    Senator Baucus. Paul, while you're here, you might address 
the basic question about speeding things up a little bit and, 
you know, what's in the queue, and maybe the way to set up 
different or more queues someplace in the universe in order to 
get the data and the information here a little more quickly. 
It's a basic point that John was making.
    Mr. Peronard. You know, I used to have a larger part of my 
stomach lining intact. And I don't mean to whine about this. We 
can certainly try to pick up the pace.
    But especially with the air samples, there's a limited 
number of laboratories in the country that can run the samples 
with the type of analysis that--transmission electromicroscopy 
that we are using. In each of the samples, somebody's got to 
sit under a microscope after the sample has been prepared and 
count the fibers. It's a tedious, tedious process. Something I 
hope never to do in my entire life. So physically it takes 
time. There's not a whole lot of laboratories I can go to for 
the analysis.
    Senator Baucus. Where are the samples going to?
    Mr. Peronard. Right now they're being done by two 
commercial laboratories in Denver. So we also have to set up 
the contracting to do that. The more laboratories I contract 
with the more time I lose in the procurement cycle. I can add 
more labs and I can spend more money off the project in the 
procurement cycle, and I'm not sure what the net gain in time 
is.
    Senator Baucus. Is there anything that we can do, like 
myself or Senator Burns?
    Mr. Peronard. Unless you want to open an asbestos 
laboratory that meets the QA standards and certification, 
there's actually--because of the type of analysis, there's a 
very rigorous quality control procedure with it. And only so 
many labs are certified and capable of giving you verifiable 
data. We can pick it up. I'll get back to doing that, and I'll 
see if I can pull out the vermiculite insulation samples.
    Frankly, one of the other exposure areas that I'm a little 
more worried about is actually the garden material. It's 
something we put back in the priority because people don't 
garden in the wintertime, typically, unless they want to shovel 
the snow out of the way. So, again, we're trying to prioritize 
the samples and run through, help see if we can pull out the 
insulation samples.
    Senator Baucus. Thank you, Paul.
    Any other questions?
    Ms. Windom. I just wanted to make one more comment. You've 
heard from these panelists, and I think it's pretty evident 
that this is a wounded community. We were wounded before this 
event with a bad economy, very high unemployment, a lot of 
struggles in families. And now we're further wounded. And if 
we're going to talk to the Federal and State agencies, what I 
want to say is, We don't want to hemorrhage to death in this 
community while we're trying to resolve this situation. Please 
make sure that the results are timely, that the figures, the 
facts that you give us are quantifiable so we can go out to the 
press and the rest of the world and say These are the facts. 
This isn't rumor, this isn't emotion, these are the facts. And 
until we have the facts, we can't begin to heal and to rebuild 
our community and move forward. So that is extremely important 
to us.
    Thank you.
    Senator Baucus. That's a very good point, in fact. You can 
be sure Senator Burns and I are going to be talking to Federal 
agencies to accomplish just that goal so that you can know more 
quickly otherwise.
    Okay, Tony, one more and then we've got to go to the next 
panel.
    Mayor Berget. And I guess that word pork boys comes up. But 
even some public works jobs or something up here, a little more 
highway work in this area, so there are some jobs for the next 
couple years while we get through this difficult time. You 
know, if a road was scheduled for 2005, we could move it back 
or something and try to get some other public works jobs up 
here.
    Senator Baucus. That's a good point. This committee also 
has jurisdiction over the highway dollars. And we've got a 60-
percent increase in highway dollars for Montana over a 6-year 
period compared to the previous 6-year period. And that began a 
year ago. We used to get Montana 160 million dollars, roughly, 
of Federal highway funds. Now we get about 260-some million 
dollars in highway funds. There are three of us that did that; 
myself, John Chafee and John Warner basically were on this 
committee that--the general rule was 40-percent increase. I 
made sure Montana got a 60-percent increase in that highway 
funding.
    Now the question is where the money is spent in Montana. 
That primarily is up to the highway commission. And so we've 
got to really talk to Jim Roscoe sitting over here. He'll give 
you some ideas on that, where some of that money is spent. But 
that's basically where it's at. I hear you.
    Okay; next panel. Thank you very, very much.
    Next panel is Dr. Todd Damrow, Mark Simonich, DEQ.
    Okay; Todd, start with you. This is Todd Damrow. He's with 
the Montana Department of Public Health and Human Services.
    Dr. Damrow. Senator Baucus, Senator Burns, for the record, 
my name is Todd Damrow. I'm the State epidemiologist with the 
Montana Department of Public Health and Human Services.
    Senator Baucus. I'm sorry, don't forget to hold the 
microphone a little close to you.

      STATEMENT OF DR. TODD DAMROW, Ph.D., M.P.H., STATE 
 EPIDEMIOLOGIST, MONTANA DEPARTMENT OF PUBLIC HEALTH AND HUMAN 
                            SERVICES

    Dr. Damrow. Okay. I appreciate this opportunity to testify 
before your committee about our department's involvement in the 
various State and Federal activities here in Libby.
    On behalf of the department, I wish to sincerely thank the 
Federal Government for the assistance which they have provided 
to our department on numerous occasions over the years.
    As you might suspect, health care resources in this State 
are rather limited. Public health workers with the highly 
specialized training and expertise needed in Libby are not 
available in this State. Thus, in these situations, it becomes 
necessary for us to appeal for help from Federal health 
authorities in order for our residents here to be properly 
served.
    Our department has enjoyed a long history of good working 
relationships in Montana with Federal health experts from EPA 
and ATSDR. Their responsiveness to the public health needs in 
Montana continues to this day, as evidenced by the strong 
showing of Federal health workers here in Libby. And we are 
most appreciative for their assistance in providing residents 
of Libby with the care that they expect and deserve.
    Our department is currently involved in response activities 
in several different ways.
    First, the State medical officer and the State 
epidemiologists have been working together with local health 
officials to help them in decision making, when requested.
    Since the public health system in Montana is set up by 
statutes such that local/county health agencies have primacy 
over health matters in their jurisdiction, the Lincoln County 
Health Department ultimately has the final decision making 
authority with respect to public health actions in Libby. State 
and Federal health workers are very careful to respect this 
right of the counties.
    It's been our experience that county health departments 
appreciate our department's assistance in decision making, 
especially when dealing with large agencies like EPA and ATSDR. 
County health departments are quite understandably nervous 
about becoming out on the limb alone when making decisions in 
isolation. They recognize our department's experience working 
with these agencies, and they value our input because of 
insight obtained from past situations in Montana. And we're 
working closely with the Lincoln County Health Department to 
make sure the health decisions that are made are logical, 
scientifically defensible and cost effective.
    Close cooperation between county and State health agencies 
is the norm here in Montana. We've worked hard over the years 
to successfully establish good, close collegial working 
relations with all of our county health departments, including 
Lincoln County.
    Second, the Montana Department of Public Health and Human 
Services is working closely together with health officials from 
EPA and ATSDR to assist them in accomplishing their mission 
here in Montana.
    Since public health infrastructures and resources vary 
considerably among States in the nation, Federal health workers 
often rely on State health workers to help them transition the 
work in the locale. State health department workers are helping 
to facilitate their work here in every manner possible. We 
stand firmly united with EPA and with ATSDR in their efforts to 
protect the health of the public in Libby.
    Third, our department has engaged all the personnel and 
resources within our agency that are able to bear on the 
situation in Libby. Workers in our department's Bureau of Vital 
Statistics and Records have provided data for analysis by State 
and Federal epidemiologists. Similarly, workers in the Montana 
Central Tumor Registry have provided aid on cancer residents 
for analysis.
    In an unprecedented action, departmental administrators 
accessed medicaid claim databases for medical utilization 
review of current and former residents of Libby. This action 
was undertaken in an effort to help Federal health workers in 
their assessment of the current health status of residents in 
Libby.
    And last, our department has created new partnerships and 
strengthened goal partnerships with other State agencies in 
response to the incident here.
    Health professionals in our department are currently on 
call to meet with the Department of Environmental Quality 
incident managers as developments unfold here. Face-to-face 
meetings of workers in our two agencies occur on a frequent 
basis to help ensure that the State response actions are 
coordinated and comprehensive.
    The Montana Department of Public Health and Human Services 
is also collaborating with the Montana Office of Rural Health 
in Bozeman to evaluate and redress unmet needs regarding health 
care delivery in Montana.
    This office serves as the State's single point of contact 
for the Federal Office or Rural Health Policy and for funding 
from HRSA, Health Resources and Services Administration.
    Together, we've been working with the county health 
officer, with the administrator of St. John's Lutheran Hospital 
in an attempt to secure funding for two critical unmet needs 
which have already been mentioned. One would be to get a 
clinical coordinator, locally hired, to work out of the 
hospital to assist the health officer with medical screening 
and follow-up of patients here in Libby. And second, as 
telemedicine capabilities for the hospital to allow for 
teleradiology, pulmonary function telemetry and consulting on 
patient evaluations and follow-up care.
    So on closing, let me say that the State health department 
is committed to working closely together with local, State and 
Federal colleagues to ensure that the public health response to 
the situation in Libby is the best available anywhere.
    Thank you.
    Senator Baucus. Thank you, Dr. Damrow.
    Mark Simonich?

  STATEMENT OF MARK SIMONICH, DIRECTOR, MONTANA DEPARTMENT OF 
                     ENVIRONMENTAL QUALITY

    Mr. Simonich. Thank you, Senator Baucus, Senator Burns. My 
name is Mark Simonich. I'm the director of the Montana 
Department of Environmental Quality. And I'd like to extend 
Governor Racicot's regret that he was not able to be here 
today. He certainly did appreciate the offer to attend. We also 
appreciate this opportunity to address the committee and 
explain all the involvement that our department has had and 
will continue to have with not only the mine site but the 
various environmental issues here in Libby.
    The DEQ was formed just 5 years ago by an executive branch 
reorganization that brought into place the responsibilities for 
nearly all environmental regulation in one agency. The DEQ, as 
it now stands, administers more than 25 environmental laws in 
Montana. Many of those are State laws. DEQ also has 
responsibility and delegation of authority for, in 
administering certain Federal laws as well. We administer air 
quality laws, water quality laws, solid and hazardous waste 
laws and are also responsible for development of natural 
resources such as hard rock, open pit and coal mining 
operations in Montana. The department also has the 
responsibility for overseeing cleanup activities for instances 
from the past. For example, underground storage tanks, 
abandoned mine, petroleum releases and, of course, Superfund. 
So DEQ has many responsibilities in regard to the operations 
here in Libby, and has actually been involved with the mine up 
here since the early 1970's when the State legislature first 
passed the Montana Metal Mine Reclamation Act.
    Prior to 1971, there was not a reclamation law in the State 
of Montana, and so there wasn't a direct regulation or 
requirement for reclamation of that. At the point in time that 
that law was passed, the department started working with Grace 
so that it could be properly permitted to operate in Montana. 
Through the 20 or so years after that that the mine operated, 
of course, Montana adopted a number of environmental laws, 
including our native air quality and water quality regulations.
    Through that period of time, the department and its 
predecessor permitted the mine as an operating mine, under the 
Metal Mine Reclamation Act, also permitted, I think, 10 
different air quality permits during that period of time, as 
well as issuing water quality permits for discharges from that 
facility. The department has continued to work with the company 
throughout that period of time doing the necessary monitoring 
of every aspect of that.
    As you know, the mine closed in 1990, and we are still 
administering what we refer to as a post-mine closure area 
where they are continuing to do reclamation of the site. Other 
than under the mining reclamation law, the company is required 
to put up a bond--post a bond that will ensure that reclamation 
will take place.
    The mine was originally permitted to cover a potential area 
of 1,200 acres. Some 325 acres of that had already been 
disturbed prior to a reclamation law going into place in 
Montana. So as a part of working with the company over those 
years, a reclamation bond was established for areas that were 
disturbed as the mine was mined. Then as reclamation took 
place, the department would take steps to reduce the bond that 
was in place at the time.
    At this point in time, we now have, out of that entire 
1,200-acre area within the mining permit, only 125 acres is 
still held under the bond. The bond is $66,700. That is the 
specific area of responsibility and the amount of money that is 
currently held by the State just for mine reclamation as it 
relates to 125 acres on the site.
    Now, there have been a variety of concerns, Senator, that 
because the bond is so small that, in fact, if there are 
additional areas of work that may need to be done, that there 
won't be enough money to get that work done. I would like to 
assure the committee that we do not see it in that same 
fashion. The Metal Mine Reclamation Act is very specific, the 
bond is very specific in terms of what we can require to be 
done on the site. But as I indicated, the State has a 
responsibility for other environmental laws, and we're fully 
prepared to utilize each one of those laws to ensure that 
adequate reclamation or cleanup is done at the mine site as we 
proceed through that area.
    I won't speak to all the testing that's been done in the 
homes in the community. I'm sure EPA will touch on that. But I 
would like to indicate that through the course of the spring 
and into the summer, we will continue to do a fair amount of 
sampling, particularly of the Rainy Creek Road and Rainy Creek 
itself and some of the drainages of some of the other 
tributaries around Rainy Creek, as well as the mine site, so we 
can determine if, in fact, outside of reclamation that was done 
and vegetation that was established, is there any ongoing 
concerns at the mine site particularly that need to be 
addressed. Even if they have already been reclaimed, we still 
have the authority, if need be, to require additional work to 
be done if we find that there is asbestos that is exposed and 
potentially being re-entrained in the air which might cause 
some type of health concern.
    I would like to speak, just briefly if I can, to water 
quality. Asbestos is not something that will be water soluble. 
So we don't anticipate that public water supplies will 
necessarily be at risk in Libby. But to try and help bring some 
level of comfort, we did go out and sample several groundwater 
wells that are used for domestic purposes up in the valley, 
near the mine, mobile home courts, at the nursery, with the 
screening plant. We also coordinated with the City of Libby and 
have taken water samples at the water treatment plant, both the 
raw, untreated water going into the treatment plant and the 
treated water that comes out of the plant. All those samples 
have come up clean, no asbestos.
    We wanted to make this point again that we do not see any 
concern with the public water supply in Libby with asbestos. 
The concern, really, would be more from the standpoint of what 
might be in the soils, what might be entrained in the air, and 
we will continue to work through this spring and summer with 
the EPA and local officials to try and determine what those 
areas of contamination may be in trying to determine 
appropriate steps to take to clean up areas in those particular 
areas so we can remove that.
    Thank you, Senator.
    Senator Baucus. Thank very much, Mark. Basically, you heard 
the earlier panel. And as I understand it, essentially there's 
a concern that--if I can state it in their words, We really 
don't quite know, yet, the degree with which we've got a 
problem on our hands; how much it's going to cost; what 
resources we're going to need; what efforts to hire medical 
personnel and equipment or whatnot. nd, second, Gee, is there 
some way to speed up these tests so we have a better idea more 
quickly of what the situation is here so we can get a handle on 
it.
    So as State representatives, what advice do you have in 
answer to those questions? And how much of those concerns can 
you State officials solve?
    Mr. Simonich. Senator, I think I'll take the first shot of 
that, particularly from the environmental side.
    As you and I spoke before the meeting, it will take us 
several months to continue the sampling that we need to do, 
from the environmental side, because, again, we're looking at 
trying to sample new soils, we're trying to sample high stream 
flows in streams that might be carrying asbestos off the mine 
site that wouldn't occur normally at other times of the year. 
It's very difficult to get to those soils when we have frozen 
conditions.
    Senator Baucus. To make it clear to everybody, when you 
talk about the environmental side, you're saying the 
environmental side as opposed to the health side; is that 
right?
    Mr. Simonich. Yes, sir.
    Senator Baucus. You're talking about clean-ups here more 
than--are you talking--more than you're talking about health 
needs and taking care of people that----
    Mr. Simonich. That's correct, sir. I'll let Dr. Damrow 
address the health side.
    But from the clean-up side, we need to be able to see those 
same areas during drier conditions. Those drier conditions are 
the ones that, more than likely, would cause some potential 
health risk from the asbestos getting airborne. Much less 
likely that we would be seeing that, particularly in the 
outdoor environment, in the wintertime. So we will continue to 
do that kind of sampling during the summertime and then begin 
putting into place the protocol to do the clean-up.
    Now, I'm convinced that we have the ability to work very 
closely with the EPA and the local people in Libby to put those 
clean-up activities in place very quickly, once we determine 
what exactly needs to be done on the ground.
    I'll let Dr. Damrow speak to the health side.
    Dr. Damrow. Senator, from the public health standpoint, 
until we know for sure just exactly what we're dealing with, 
and can accurately determine the impact of the incident, it's 
going to be tough to come up with appropriate response actions 
and fiscal figures associated with those actions.
    As I said in my testimony, the State must necessarily 
appeal to the experts at the Federal level. We're in over our 
heads on this. We recognize that. And we want to be sure the 
folks here get what they expect and deserve; they get an 
appropriate response. And so we're turning to the feds with 
ATSDR and EPA to provide us with some of the answers for us to 
go on from here.
    Senator Baucus. Mark, could you maybe just tell us--maybe 
delineate a little bit more where--first of all, I have the 
utmost confidence in you, but you still use the words ``in over 
our heads.'' Where are some areas that we need some help? If 
you could just delineate those, as you see from it the public 
health perspective.
    Dr. Damrow. As was pointed out earlier, we need some timely 
results back to determine the impact of past activities on the 
health of the public. We need to assess the human health. 
That's why these medical screenings are so important. Perhaps 
Dr. Spence, our State medical officer, having interacted with 
physicians in the community and the specialists, could address 
that.
    Senator Baucus. Okay.
    Dr. Spence. I think two things are critically important. 
One is what Paul Peronard pointed out; is that the testing that 
we want done and is being done, the transmission 
electromicroscopic testing, that is the ultimate.
    Asbestosis is a disease. It's caused by very minute fibers. 
You cannot conduct insensitive tests to determine the magnitude 
of fibers in samples, whether it's air samples or earth 
samples. Paul has prioritized, looking at the most dangerous 
areas first. He is looking at the air quality. That has been 
done. We do know that there is a health hazard here, but 
certainly not of major magnitude. It is something that needs to 
be addressed, and it is being addressed.
    The other thing is to have an idea of how many people we're 
dealing with. The screening that is proposed will look at the 
overwhelming majority of residents in this immediate valley 
that are currently residing here and have resided here for the 
period of time in question. We want to determine what health 
effects they have suffered. We know, for example, that there 
are numerous people that worked in the plant that had 
exposures. Although we have identified many of those 
individuals, we want to identify more of them and their 
families. What we don't know and what we need to know is about 
those individuals that are neither plant workers or family 
members of plant workers and what degree of disease they may or 
may not have. We also want to know what are their sources of 
exposure. This is going to take medical screening on a timely 
scale right now and hopefully it will be accomplished in the 
not-too-distant future.
    Senator Baucus. We're depending on ATSDR and EPA to get 
this data, and it's the Federal agencies that are getting----
    Dr. Spence. EPA is the Agency that is capable of getting 
the screening. We do not have those resources. As Paul pointed 
out, there are very few laboratories in the country that even 
have the capability of doing that type of testing that needs to 
be done to get the information we need, that needs to be done, 
to address the medical issues. And they have very rigorous 
quality control measures that have to be in place, as Paul 
pointed out also. So we are highly dependent upon them.
    Then with regard to medical screening, we have put 
together, and we are in the process, of initiating screening. 
Once we have an idea of the magnitude of people, we will get a 
denominator of the number of people we screen. And then we will 
get a numerator of the number of people that have evidence of 
the disease. And once we have an idea where they are, then we 
can focus more specifically. But we need to get that 
information first.
    Senator Baucus. But is it true, then, that we don't have 
the facilities in our own State to do that. The State agencies 
do not have that----
    Dr. Spence. We are heavily relying on the Federal agencies; 
that is a correct assumption. We are----
    Senator Baucus. Okay. But, Mark, the DEQ has taken some 
tests. Is that more with respect to exposure and potential 
cleanup? Is that what that's about?
    Mr. Simonich. Yes, Senator. DEQ's interest is, of course, 
from the standpoint of do we find any continuing sources that 
may be putting the people at risk. Are there sources of 
contamination, particularly out in the environment, potentially 
around the homes, that would cause the people to be at risk? So 
that we need to then determine what steps we can take to clean 
these up and eliminate that risk. From that standpoint, I think 
the DEQ is in a very good position, and we do have a good 
relationship--working relationship with EPA to address those. 
We do that kind of work all the time on sites all across the 
State.
    Senator Baucus. Let's say, under the best case scenario, 
there's no exposure. Worst case, we've got exposure problems. 
Maybe air, maybe ground or somewhere. Then, is it the EPA that 
does the cleanup and addresses that, or is it DEQ, or who does 
that?
    Mr. Simonich. Senator Baucus, there's no one formula for 
that. That's something that I would anticipate we would work 
together with EPA to determine.
    Right now, Mr. Peronard and those folks that are here under 
a particular area of authority under Superfund to do a removal 
action. They believe that there's an imminent threat, and they 
will come in and spend money, engage the EPA to potentially 
undertake a cost recovery from the responsible party that's 
there.
    What we're looking at is, we're unsure whether or not what 
we will find up here will be of the magnitude that it will 
ultimately result in a Federal Superfund. It may be that the 
State will take it on under our own respective authorities. And 
in either case, the agencies would look to companies that may 
have been responsible to actually perform the work at our 
direction.
    Senator Baucus. And be responsible, financially 
responsible?
    Mr. Simonich. That's correct. We would anticipate, through 
all this--and I believe Grace has indicated a willingness to 
step up to the plate and do whatever is necessary--we would 
anticipate working with Grace once we determine levels of 
cleanup that may be done to, in fact, carry that out. Even if 
Grace does the work, and quite often the Federal agencies or 
State agencies look to the company to do the work directly, it 
is done under the guidance with the specific approval of the 
State and Federal agency. So there is that oversight.
    Senator Baucus. Any thought been given to how to preserve 
land use restrictions, in the event that the solution is not 
removal but it's maybe capping or some conservation, to use a 
better term, some easement, some of the--some use restriction 
that makes--how use is maintained in the future, 10, 20, 30, 40 
years from now when title transfers? How does that work out?
    Mr. Simonich. That's a very good question. Because just 
last year with the Montana legislature, it took steps and 
amended the State Superfund law that allows us the ability to 
place institutional controls. It gives us greater ability to 
create an institutional control. That's what you're talking 
about.
    If we want--for example, on a normal site, if we're going 
to create a repository where we're going to collect a bunch of 
waste and bury it on-site, we want to make sure it's not going 
to be disturbed; that we're not going to be digging in it for 
the basement of a home and drilling a well. We will now have 
the ability to create these institutional controls and, in 
fact, create, at the State and at the local level, an authority 
to place a specific restriction on how that property might be 
used. That restriction, then, could be enforced either by the 
State or by local government. So that in the future, as 
potentially a subdivision might be proposed in an area, the 
people that would need to be in place would be in place 
potentially looking at that, making the decision, would be ware 
of that, looking at that to make sure that if it wasn't a 
complete cleanup, that there was some capping or something like 
that that would be in place, that it would not be disturbed.
    Senator Baucus. Are there any State programs that address 
asbestos contamination from installation in residences?
    Mr. Simonich. Senator Baucus, the areas that the State 
regulates asbestos from an indoor standpoint really gets to 
when you're in remodeling and removing it. And if the houses 
have been sampled, or if commercial buildings have been sampled 
and asbestos levels are found at certain levels, then it falls 
in an area that we regulate. And so the individuals during that 
work would have to be licensed individuals. Otherwise, 
generally the State does not get involved in directly working 
in individuals' homes.
    And to me, I think you struck on probably one of the 
biggest questions that needs to be answered in terms of Libby. 
Because of the concern of the insulation--the vermiculite 
insulation that was used in many homes, not only in Libby but 
throughout Montana and around the country, questions have been 
raised about is there asbestos contamination and what needs to 
be done. Mr. Peronard explained very, very well the level of 
sampling and the analysis that's being done.
    What I don't think any of us have been able to explain to 
the people of Libby, yet, is at what point in time, at what 
level do we really see that there is a specific risk that needs 
to be addressed and at that point in time then what should be 
done in the house. And who would be there to step in and assist 
the homeowners in that regard. And that might be a question 
that the folks on the Federal panel could better answer for 
you. The State--that's not an area that the State normally has 
ever been involved in.
    Senator Baucus. Dr. Spence?
    Dr. Spence. Senator, I'd like to clarify the last question 
that you asked. I don't think we can take a brush fire or SWAT 
team approach to this. This is a longstanding problem and may 
be a longstanding problem for years to come. We do not know 
that.
    What we anticipate the Federal Government will provide us 
is not pulling up in a van dropping out people that will 
completely attack our problem, solve it, then get in the van 
and leave, and that's not what we're looking for. We're looking 
for them to come in and help us to make the decisions of how to 
set up the infrastructure and where to go from here; what type 
of screening, and help us leave that infrastructure and help us 
realize how much we need in the way of support, financial and 
otherwise, to get the job done or not only now but for years to 
come and also for possible similar types of episodes outside of 
Libby.
    Senator Baucus. One question I have is, as I recall looking 
at the newspaper accounts, there are about 30-some homes that 
were tested for airborne insulation or problems--asbestos 
problems, and maybe there are two that had the concern. But all 
those homes were people who volunteered. And how do you deal 
with the question of, you know, if asbestos is in the 
community, either in the home or on land and the owner doesn't 
volunteer his property? So you may have asbestos there but 
nobody really knows. It affects other people in the community, 
I imagine, in some respect.
    Mr. Simonich. Senator, that's a very good question. Again, 
it's one that the EPA may better be able to answer than we can. 
Although there have been three dozen or so homes that have been 
sampled so far, I understand the EPA has a much longer list 
that they're still working on that haven't. They've tried to 
prioritize that in some fashion. But, again, there's a fair 
likelihood that there will be many, many homes in Libby that 
wouldn't necessarily be sampled for a variety of reasons; the 
homeowners may have asked for them not to do that.
    Again, I would anticipate that unless those homes that are 
sampled begin to show some real concerns that you're finding 
widespread contamination or widespread validated levels of 
asbestos, there may not be a need to try to go pursue that any 
further into the community. Whether or not there's any specific 
authority or ability to go further into the community if that 
contamination is found, I don't know that we have it at the 
State level. It may be something that will have to be done at 
the Federal level.
    Senator Baucus. Has the department or anyone looked to see 
whether there's asbestos installation in other homes in Montana 
other than Libby?
    Mr. Simonich. We can tell you for a certainty that the same 
material that was used throughout Libby, the vermiculite, has 
been used throughout the State of Montana.
    In other words, one of the individuals who's our 
reclamation specialist who deals with the reclamation site of 
mining up here at this mine, he has two homes in Townsend that 
are both insulated with it, since this insulation was used 
throughout the United States.
    Again, the real question is not whether or not there is 
insulation in the town but the condition that the insulation is 
in; whether or not it's something that would be open for 
exposure at this point in time, whether it's trapped in the 
walls or the ceilings. Those are the kinds of things that need 
to be addressed to determine whether or not whether, in fact, 
there might be a risk in the homes.
    Senator Baucus. All right. Do you have anything you want to 
say either to the last panel or to the next one?
    Mr. Simonich. I'll take this chance. To me, again, I made 
the point earlier that the removal team that the EPA has in 
here right now is normally a team that comes in, they clean up 
the site and leave. They do very good work. We've experienced 
their work in a variety of areas in Montana. But because of the 
uniqueness of the situation in Libby, it's more than just an 
abandoned mine site that needs to be cleaned up and then you're 
okay with it.
    There is a question about ongoing concern within the 
community; whether there is additional contamination in 
people's homes; how the medical help will handle those things; 
the nature of the ongoing need for health screening in Montana. 
I think it really points to the need to ensure that there is a 
great deal of coordination done, particularly at the local 
level. To make sure that any of us that are participating, 
either at the State or Federal agencies, all the steps are 
taken humanly possible to make sure that is coordinated very 
closely with the local people that will be here for the very, 
very long term that will be involved and be responsible. I 
think Ron Anderson said it very well, and I would certainly 
echo the sentiments.
    Senator Baucus. Kind of institutionalize, systematize what 
you're talking about, so that it's not cut and dried or get 
running so it's followed up and followed through.
    Mr. Simonich. As an example, and this is something we 
thought about at our department. The last panel talked a lot 
about health screening, the funding to do that, potential 
responsibility or liability with the hospitals and others being 
involved. And of course EPA is here now monitoring. We don't 
know whether there will be a need for EPA necessarily to be 
involved for the long-term. Locals certainly will need to be 
and I suspect State health will be as well.
    It would seem to make sense to look to see if, and I 
believe there is some authority within Federal law, to begin to 
create some type of a trust where there can be a specific 
trustee established working with the local board that could 
help oversee those health screenings; to be able to set up the 
program, so you can have appropriate medical expertise like 
from a variety of areas, from State and Federal agencies as 
well as the local people, where they really have an ability to 
control that, to create the mechanism to do those health 
screenings and to direct the funding over the long term. I 
think those trusts are established. They're able to be done in 
a way that they can insulate the parties participating from 
liability so that local hospitals wouldn't suddenly be as 
concerned about potential liabilities.
    Senator Baucus. That's an interesting thought. I'm glad 
you're thinking creatively like that. All right, good; I want 
to thank you very much.
    We'll take a slight break here.
    [Recess.]
    Senator Baucus. Our next panel is going to be Bill 
Yellowtail, also Dr. Henry Falk. Would you both please come to 
the table? And we'll get started now. Probably one of the more 
important parts of this hearing.
    Mr. Yellowtail is the EPA Regional Administrator of Region 
VIII. Max Dodson is the EPA assistant administrator of Region 
VIII. Paul Peronard is the on-scene coordinator. Dr. Chris 
Weis, toxicologist; Dr. Aubrey Miller, physician. John Wardel, 
director of Montana operations office; Wendy Thomi, community 
relations and program. Dr. Falk is the assistant administrator 
with ATSDR and will be accompanied by Dr. Jeff Lybarger.
    Okay; folks, you may proceed. We'll first start with you 
first, Bill. We are very honored to have Bill Yellowtail here. 
As we all know, Bill is a Montanan, serving this region very 
well. And we're very honored, Bill, with the good work that you 
do for us as a Montanan in the Denver office, and I'm sure you 
heard the accolades.
    Mr. Yellowtail. Thank you, Senator Baucus, we very much 
appreciate it.
    Senator Baucus. I give you all the credit since you took 
over as the regional manager.
    Please proceed, Mr. Yellowtail.

  STATEMENT OF WILLIAM YELLOWTAIL, REGION VIII ADMINISTRATOR, 
                ENVIRONMENTAL PROTECTION AGENCY

    Mr. Yellowtail. Thank you, Senator Baucus, Senator Burns. 
Thank you for inviting me the opportunity to offer testimony 
concerning the asbestos situation in Libby, Montana. EPA Region 
VIII will complete the investigation it is conducting within 
Libby with all due speed and thoroughness and as a top 
priority. Senators, you've already introduced the EPA team, and 
I very much appreciate that.
    Senator Baucus. Why don't you reintroduce them?
    Mr. Yellowtail. If you don't mind.
    Max Dodson is the Assistant Regional Administrator for, 
among all things, Superfund. Paul Peronard you've already met, 
is our on-scene coordinator. Dr. Chris Weis is a regional 
toxicologist. Can you stand up, Chris? Dr. Aubrey Miller, M.D., 
a physician. John Wardel is our director of our Montana 
operations office. Wendy Thomi is the community involvement 
coordinator. Matt Cohn is our senior enforcement legal counsel. 
And not here, but worth some mentioning because she's important 
to the community, is Linda Newstrom, who is our office manager 
out at our storefront office downtown on the corner of Fifth 
and Mineral.
    I'm Bill Yellowtail. I'm regional administrator for the 
Environmental Protection Agency, Region VIII, in Denver. I've 
provided written text of my presentation for your record but, 
if you don't mind, in the interest of time, I'll hit the high 
spots and abbreviate my remarks somewhat today. And I want to 
speak, then, directly to the activities EPA has been involved 
in since November 1999 and where we're headed in the future.
    First, the Agency's recent actions. On Monday, November 22, 
1999, I made the decision to send to Libby an on-scene 
coordinator from my emergency response program, along with a 
team of scientists, toxicologists and a physician and a 
community involvement specialist, to investigate the situation. 
They arrived in Libby on November 23, 1999, the very next day.
    This investigation confirmed two things. First, there is a 
large number of current and historic cases of asbestos-related 
diseases centered around Libby. A pulmonologist in Spokane was 
currently treating over 200 cases of asbestos-related diseases 
among folks who had either lived in Libby or worked at the 
mine. Further, he had provided care to dozens more who had 
already died. Of 33 incidents of apparently nonoccupational 
exposures, six had no family or other ties to anyone working at 
the mine.
    The second thing our investigation confirmed was he 
likelihood that significant amounts of asbestos-contaminated 
vermiculite still remain in and around Libby such as at the 
former mine itself, at the former screening plant, the railroad 
loading station. And the base material of Rainy Creek Road 
appears to contain tailings and samplings of the mine. 
Residents have stated that piles of expanded and unexpanded 
vermiculite used to sit at the former expansion/export plant 
next to two former youth baseball fields. And they've indicated 
that children regularly played in and around these piles. 
Further, local residents used both expanded and unexpanded 
vermiculite from the mine site waste piles in their yards and 
gardens as a soil conditioner, and the expanded vermiculite was 
used as wall and attic insulation in many homes. The 
descriptions of historic operations of the mine, mill and 
processing center show that large amounts of dust and other 
fugitive emissions were released into the environment when 
these operations were still running.
    These findings led EPA to initiate a larger-scale 
investigation with three overall goals: First, to determine the 
current distribution of asbestos contamination in Libby. 
Second, more accurately to determine the extent of asbestos-
related health impacts, in Libby. And finally, third, to 
distinguish the effects from past asbestos exposures from any 
that might be ongoing currently or may occur in the future.
    In December 1999, EPA collected samples of air and dust 
from inside 32 homes and two businesses around Libby and 
conducted samples--or collected samples from yards, gardens, 
insulation and driveways at these same locations. Air and oil 
samples were collected from the former screening plant and 
railroad loading station, as well as at the former expansion/
export plant. Samples were also collected from along Rainy 
Creek Road. To date, EPA has collected, in fact, over 600 
samples. Seasonal sampling of ambient air around Libby and the 
former mine site began in January and will continue through 
this fall, as conditions are favorable.
    In December we began planning a wide-scale community 
medical testing and exposure assessment. Chest x-rays, where 
indicated, follow-up pulmonary evaluations, will be given to 
residents and former residents of the Libby area. This effort 
should help determine the full scope of asbestos-related 
medical impacts in Libby and, in conjunction with the ongoing 
environmental sampling, help distinguish between past and 
current sources of exposure. The medical testing is planned for 
start-up this spring.
    Let me move to what we know about asbestos-related health 
effects in Libby. It's very apparent that the asbestos-related 
health effects associated with the vermiculite mining and 
processing operations in Libby have been significant. The vast 
majority of cases that EPA and the Public Health Service have 
reviewed appear to be occupational in nature. But the next 
largest group appears to be family members of those involved in 
the mining operation.
    Beyond the occupational and secondary exposures, that is 
exposures to workers' families, it is difficult to identify the 
sources for other asbestos-related diseases and whether they 
exist today. It is probable that people who played in the piles 
or lived near the former expansion plant when it was in 
operation are in greater risk. But this has not yet been 
confirmed by a rigorous investigation. EPA has not yet 
concluded whether or to what extent having this vermiculite in 
the home garden, in a yard or a wall or attic insulation, 
correlates to an increased incidence of asbestos-related 
disease. It is these latter two questions which form the crux 
of the ongoing investigation.
    Let me move to the state of the environment in Libby today 
and what we know about it. The piles of vermiculite around the 
export/expansion plant are gone. Air emissions from the mill 
and processing operations no longer exist. And ambient air 
conditions in Libby have greatly improved over the last decade. 
The results from the air samples collected by EPA in December 
indicate that unsafe levels of asbestos fibers still exist in 
some areas of the former screening plant and railroad loading 
station and the export/expansion plant.
    EPA has already initiated discussions with W.R. Grace about 
conducting and/or paying for cleanup actions at those 
locations. One of the 32 homes sampled in Libby also showed 
unsafe levels of tremolite-actinolite fibers. EPA is currently 
trying to determine the source of those fibers, and then EPA 
will take steps to reduce those levels. We expect to have the 
results from the remainder of the samples collected in December 
by mid March and will announce our findings at that time.
    Now, let me turn to next steps. The next step is the 
implementation of the community medical testing and exposure 
assessment that EPA and ATSDR will jointly conduct, with 
assistance from the Public Health Service. The outreach 
education efforts will begin in March 2000, next month. The 
actual medical evaluations will begin in April 2000. EPA and 
ATSDR have both committed to conduct this action under the 
above-mentioned time frames. If done successfully, this 
evaluation should also help to serve to develop the local 
medical infrastructure in Libby so that residents can receive 
proper diagnosis, treatment and care locally.
    Senators I see that my time has expired. If you'll forgive 
me, I'd like to continue.
    Senator Baucus. It's important that you're here. You 
traveled a long distance, and we want to hear what you have to 
say.
    Mr. Yellowtail. Thank you, Senator.
    Montana EPA, along with Montana's DEQ, will continue to 
continue its investigations in and around Libby and will begin 
cleanup actions at the two former processing centers this 
spring. As more information is gathered and more information 
data become available, EPA will discuss its findings publicly 
and take action accordingly. It is EPA's intent to identify all 
areas where unacceptable exposure to tremolite and actinolite 
asbestos are occurring and remediate them. EPA plans to test an 
additional 75 to 100 homes starting in late February. Ambient 
air sampling will continue through next fall. Investigations as 
to the present physical condition of the mine and the area 
surrounding the mine will be started as soon as the snow melts 
this spring.
    Finally, and I know this is of importance and interest to 
you, I want to address the matter of coordination of local, 
State and Federal efforts. Given the critical nature of the 
situation in Libby today, it is imperative that the efforts of 
all the agencies involved be well coordinated. I can and will 
take steps to ensure that he agencies work together in a 
coordinated manner. We have conducted several briefings and 
interviews with officials from the City of Libby and Lincoln 
County.
    In addition EPA, ATSDR, Montana DEQ, Montana Department of 
Public Health and Human Services, and the Public Health Service 
have met extensively with the county medical officer, hospital 
officials and local physicians to exchange information about 
these investigations. Local medical resources will be used to a 
great extent in conducting the community medical screening and 
exposure assessment and have participated in the development of 
this project.
    EPA and the other Federal agencies involved will continue 
to communicate with local officials and medical personnel as 
the investigations progress. EPA and Montana DEQ have helped to 
facilitate the formation of a community advisory group, which 
is a citizen-based group designed to better transmit, receive 
and evaluate the information collected during our 
investigations. The group will serve to act as a forum to 
discuss and debate publicly many of the inevitably 
controversial issues surrounding the investigations.
    Montana DEQ has been participating jointly with the EPA in 
this investigation since it was begun. Montana DEQ personnel 
have been involved with the investigation, design and 
implementation and will participate with EPA when clean-up 
actions actually begin. Montana Department of Public Health and 
Human Services has been integrally involved in the current 
medical information and has participated in the design of the 
community medical testing and exposure test assessment. This 
relationship will continue as this project evolves.
    Coordination among the Federal agencies involved is also 
paramount to the success of this project. Because of the 
overlap in authorities that's potential, and to eliminate any 
duplication of efforts, ATSDR and EPA are jointly conducting 
their investigations in Libby where that is appropriate. To 
this end, the two agencies are now in the process of finalizing 
an agreement on how the work will be conducted and ensuring a 
sharing of information and resources. As a result, EPA has 
agreed to fully fund the community medical testing and exposure 
assessment while relying on ATSDR's expertise in its design and 
implementation. In addition, the agencies have agreed to 
coordinate their enforcement and cost-recovery actions 
concerning W.R. Grace.
    Senators I want to assure you that I personally have 
charged my on-scene coordinator with the directions discussed 
above. And he will, and I will, stand fully accountable to the 
success of their implementation.
    Senator Baucus, Senator Burns, I want at this time to 
acknowledge and express EPA's appreciation for the generous 
compliments for the EPA team that Libby folks have delivered 
today. We will work hard to continue to earn your confidence. 
Thank you, Senators, for your attention and consideration.
    Senator Baucus. Thank you very much, Bill. It's clear that 
conversations you and I had when I called you up when this 
issue broke, as well as Dr. Falk, when I encouraged you to be 
expeditious and also burn the midnight oil to make sure 
everybody works together and pays proper close attention and 
listens to the local folks, that you've done that. It's--
whether through Paul or through your other people, it's clear 
you made that point very strongly. And I know from speaking for 
the people of Libby, we appreciate and know that you're going 
to continue in that regard. Thank you very much.
    Dr. Falk?

  STATEMENT OF DR. HENRY FALK, M.D., ASSISTANT ADMINISTRATOR, 
        AGENCY FOR TOXIC SUBSTANCES AND DISEASE REGISTRY

    Dr. Falk. Senator Baucus, Senator Burns and members of the 
Libby community, thank you very much. My name is Dr. Henry 
Falk, and I'm the assistant administrator of the Agency for 
Toxic Substances and Disease Registry public health agency 
within the U.S. Department of Health and Human Services. 
Accompanying me is Dr. Jeffrey Lybarger who's the director of 
the Department of Health Studies and has been our lead 
coordinator for the project here, and Sharon Campolucci who has 
been working with Dr. Lybarger here in the community.
    I'd like to start by saying we appreciate the opportunity 
to be here to address the public health issues. We have been 
listening to the concerns, and I'd like to assure you that we 
will do our utmost to provide whatever assistance we can.
    Second, I know that the issue of coordination has been very 
critical and is very much on your mind. I've been listening to 
that all morning. And I'd like to echo Bill Yellowtail's 
comments that we will work very closely with the EPA. We always 
work very closely with the State and health community officials 
and, again, we will do our most on that score.
    I just want to briefly summarize the areas that we can work 
in, in terms of public health, but I want to point out we share 
the desire to develop both the immediate as well as the long-
term steps to address this issue. Among the activities ATSDR 
will pursue initially in Libby are, first, providing advice and 
consultation on environmental sampling; second, reviewing 
medical and vital records for residents already diagnosed with 
asbestos-related disease; third, developing protocols from the 
medical testing which will begin later this spring; and 
fourthly, developing and distributing health care provider and 
community education materials and providing relevant training 
to health care professionals who may need to provide services 
to residents and workers in the Libby area.
    As you know, ATSDR was created by Congress in 1980 under 
the Superfund legislation. Our mandates derived from the 
Superfund legislation and they are to provide health 
assessments and health investigation in relation to sites where 
there are toxic chemicals or hazardous substances, and so we 
work in communities through our authorities that come from that 
legislation. Because of that, we work very closely with the 
EPA, as a part of the Superfund process and, again, the State 
health department, local health agencies and affected 
communities.
    I'm a little bit in the Mo Udall situation you mentioned 
before, and I'll try to be quick. I don't want to repeat things 
that have been said before.
    I do want to point out that we are in the Department of 
Health and Human Services. We are, at ATSDR, closely related to 
the sentence review for which is also a plaintiff and one of 
the closely related agencies, National Institute for 
Occupational Safety, or NIOSH, which, as part of CDC, carried 
out work in the Libby area in the 1980's; documented asbestos 
exposure and related health effects, including respiratory and 
lung ailments in workers at the Libby vermiculite facilities.
    Senator Baucus. Dr. Falk, would you pull the microphone a 
little bit closer.
    Dr. Falk. And that work conducted by NIOSH was critical to 
our understanding of the potential health impact of the 
situation.
    ATSDR initiated site activities with a site visit to Libby 
from January 18 to January 21. We had a follow-up visit here 
February 2-9, during which time our staff and DHHS regional 
worked with State and local health officials to outline future 
public health activities. The key elements of the overall 
health response plan for Libby that were worked out are to: 
One, provide input and advice on environmental sampling;.
    Second, collect and analyze medical and epidemiologic data 
to better characterize the nature and extent of asbestos-
related disease in the community. And this would involve review 
of medical, pathology and vital records date for the residents 
of the Libby area who have already been diagnosed with the 
disease. And that will be important for our understanding of 
the full picture of what the impact has been on the community;
    Third, is the coordination of the medical testing for 
people in the community who have had past exposure to asbestos 
in order to identify people with asbestos-related conditions so 
they can be referred for further medical care as needed; and
    Fourth, to provide the public health education program, as 
I noted.
    I would like to amplify, briefly, some comments related to 
the medical screening. The desire to identify the extent of the 
site-related adverse health effects is a very key component to 
our work here. Planning by us to provide medical testing to 
persons through Federal, State and local agencies has been 
ongoing to develop this effort. The medical testing will 
provide screening services and advice on diagnosis and long-
term care needs for people who were exposed to asbestos; it 
will also help us to estimate the prevalence of this condition 
for people who have been exposed; and assist the local health 
department and local physicians to estimate the magnitude of 
asbestos-related illnesses that must be addressed in the future 
by local physicians, a point which was brought out earlier by 
Dr. Black and others.
    Under this plan, people who lived near the site, worked 
with vermiculite, lived in a household that had a vermiculite 
worker, or had some other activities which allowed them to have 
frequent contact with vermiculite in the Libby area, would be 
identified and included in the medical testing.
    We are progressing on this plan. There is, as has been 
mentioned, a meeting coming up next week which will include 
local officials, State officials, Dr. Black, Dr. Spence, Dr. 
Whitehouse, ourselves, EPA, as well as outside asbestos experts 
to continue working on the details of the screening effort. We 
anticipate we will have a very large turnout, hopefully, from 
the Libby area for the medical testing.
    As you mentioned, in the letter to you, DHHS noted that the 
Health Resources and Services Administration has already 
committed $80,000. But as you said, you see that as indicative 
of the department's commitment to assess the appropriate way to 
see that.
    We also want very much to participate in the community 
process and working with the community. We are working with 
local partners to plan a community meeting in Libby in 
preparation for the screening. The idea is to create an 
environment for individuals to take directly with scientific, 
environmental and health experts and about health-related 
questions and concerns. We hope this public availability 
session will be held within the next month and certainly well 
before the medical testing and screening begins so people have 
the opportunity to learn more about that and ask any questions 
they have.
    I would like to reiterate that we share your concerns about 
the health impact in the community. I'm confident that all of 
us will do our utmost in working together to address both the 
short-term and long-term public health needs of the community.
    Thank you very much. I'm be happy to answer any questions.
    Senator Baucus. Thank you, Dr. Falk. And, again, thank you 
for traveling all the way from Atlanta; is that right? 
Appreciate it very much. Welcome to Montana.
    The basic question is, how quickly can you provide 
sufficient resources and test results and expertise to enable 
us to put a plan together and to know how much we're going to 
have to spend, what resources we're going the need and so 
forth. I mean, you heard Dr. Damrow, for example, say We just 
need help, we're over our heads. We're dependent upon you, both 
agencies, the ATSDR as well as EPA, to help find solutions for 
us. So what can you tell us, hearing them say We're over our 
heads, we need this data, we need to get this put together.
    To be honest, I was a bit struck by the first panel which 
was almost as much at sea as it was when I talked to them about 
a month ago. At least that was my impression. That they're 
asking the same kinds of questions today that they were asking 
about a month ago which, to me, indicates that they're still 
dependent upon the State to some degree but to you to a greater 
degree to get these answers quickly so that we can then put 
together a plan. What can you tell us about how--what you can 
provide, how quickly you can provide it and how much it's going 
to cost and when we're going to know how much it's going to 
cost so we can then ask ourselves where are we going to get the 
resources to do all this.
    Mr. Yellowtail. Dr. Falk, I'll let you begin and then I'll 
follow.
    Dr. Falk. Let me begin by saying that I think this problem 
is devised into the short-term and the long-term. On the short-
term, I think we are making very rapid progress. We are drawing 
up plans for the screening effort. We are, you know, assessing 
what the likely needs are to do that screening effort in terms 
of equipment, such as x-ray equipment and pulmonary function 
testing equipment that was mentioned earlier, in terms of, you 
know, what it takes to coordinate that effort. And I think we 
have made a lot of progress with EPA in terms of how to fund 
that short-term effort. And I think that is moving along. We 
are trying to get the best advice possible on what is the 
appropriate way to do the screening and set it up properly. And 
I think--and I think we are getting a handle on that.
    I think the tougher question, really, is for the longer 
term. And I know this has come up before. And there are many 
questions that will become clearer over the next 3 or 4 or 5 
months. But it will be important to know how high the 
environmental samples are, different locations. It will be 
important to know what percentage of people who were not 
workers or family members turn up with any positive findings on 
the screening effort. And I think then we will have a better 
assessment, in terms of what the long-term leads are. We--if--
you know, if there are ongoing environmental exposures, then 
one has to think about what are the long-term medical testing 
needs. If there are people who turn up with positive findings 
on any of the screening tests, then one has to think about what 
is appropriate follow-up activities. So I think it's difficult 
to say that exactly now too. We actually learn this process 
over the next few months.
    Senator Baucus. What do you mean by short-term and what do 
you mean by long-term? What kinds of things are addressed in 
short-term and what in the long-term, just so I can get a 
sense--quantify. About the only way I can think is I have this 
phrase in my mind, bedevil my office with it; names, data and 
dates. I just need to know deadlines. Quantify as much as 
possible, you know, when we're going to get something done. 
Avoid the abstract wherever possible.
    If you could give me something I can get my hands on, 
something specific, so people in the community can get their 
hands on something here. What are we talking about here? What's 
the short-term, specifically; what's the long-term, 
specifically?
    Dr. Falk. In the short-term, as Mr. Yellowtail has noted, 
we have been aiming for something like the latter part of April 
to complete the screening process. And I think our efforts 
between now and then are devoted towards doing that, as well as 
organizing that as best we can.
    Senator Baucus. In April; is that what you said?
    Dr. Falk. Yes.
    Senator Baucus. By April what will we know?
    Dr. Falk. Between now and then, we will be developing the 
protocol for the screening process. We will be preparing 
locally with the physicians, hospital, State groups in terms of 
designing the screening process and arranging for how that will 
be implemented, meeting with people and making sure they are 
aware of how that will proceed. So I think we are in the 
process of over--between now and then, of organizing the 
screening effort, meaning communities working with the local 
health department physicians and so on. So that is between now 
and April. We then have the screening process, which will 
actually occur. And during that time we will be, you know, 
developing the information and understanding what the results 
of that process are. And over the next several months, we will 
have an understanding of what information we have learned from 
the screening process.
    We will, simultaneously, on a separate track, also be doing 
some of the other things which I mentioned during that time 
period, such as trying to review the vital records, review 
medical information on people who have already been diagnosed. 
I think people who have already been sick and have been seeing 
a physician or have been diagnosed may not be the ones who come 
to a screening program. So we want to get a complete picture of 
what the impact has been on the community. And that's our 
reason for wanting to do both of those.
    But I think by summer, as these processes have gone on, we 
will have a much better understanding of what we have 
identified from the screening program; we'll have a better 
understanding of what has been coming up on the environmental 
effort, and then I think we will be better able to speak, you 
know, with more detail and clarity about what the long-term 
public health needs may be in terms of numbers of people who 
have positive findings on screening.
    Senator Baucus. What tests or your tests or EPA's tests 
have yet to be taken or have been taken and we do not know the 
results of yet, are going to be most important for you in 
developing your protocol or developing your longer-term plan?
    Dr. Falk. From our perspective, we most want to make sure 
that the people who have been potentially exposed are the ones 
who have the opportunity to participate in the screening 
programs or, you know, to be able to----
    Senator Baucus. Speak up, please, Doctor.
    Dr. Falk.--to be able to avail themselves of any screening 
tests. I think the environmental sampling efforts help in terms 
of understanding what is the scope of potential contamination; 
who might be. We want to make sure hat people who have, you 
know, been potentially exposed, are the ones who are included. 
And to that end, the environmental sampling informs us as to 
who has been potentially exposed. So some of this stuff these 
people we'll know historically; people who may have worked or 
have had some relationship to the mine. But some of this also 
we clearly will learn as----
    Senator Baucus. The very basic question here is--the 
community asked it, Senator Burns asked it. We need to know 
what resources are going to be needed here. And we just need to 
know when we're going to know what resources are going to be 
needed. I see Paul creeping up here. He obviously has something 
to say about it. And maybe you're the right person to call, but 
Senator Burns wants to know, I want to know, the community 
wants to know. What are the resources that are going to be 
needed? How much it's going to cost, when, from what source? 
And then we need some indications, some answers along those 
lines. Either Bill or----
    Mr. Yellowtail. Senator Baucus, as I indicated in my 
earlier remarks, EPA has committed to fully fund the screening, 
the health screening for community members. And as to costs, 
it's probably early to estimate that. But I'm going to turn to 
Paul who knows much more about the details of this than I, if 
you don't mind.
    Senator Baucus. Great.
    Mr. Peronard. Just so we first get a sense of the scope, 
we've actually--government agencies have taken a first step at 
outlining the protocol and how the testing will be done. And 
we're pretty satisfied that we know what we want to do. Now the 
next step, then, is getting it out to the community to see if 
folks will accept it. That's one of the reasons why we're 
talking April instead of right now. And that is to take the 
idea out.
    What's important to us is that if you set a screening that 
people come to and people trust the results they get from it. 
And that takes the education component. We have to work out how 
we're going to fund it. We can answer some of the questions 
whether or not it's appropriate to use money from W.R. Grace or 
not. Those are the types of questions we want to resolve before 
we implement the study. We think we can do that by April.
    The second thing is we want to shop this study out to some 
national experts. Next week we're meeting with some folks from 
as far away as Mount Sinai Hospital in New York. Folks at the 
University of Cincinnati have special expertise in asbestos-
related medical diseases. So to make sure that our protocols--
to make sure how we're doing so the testing stands up to more 
rigorous medical evaluations so the answers are good for the 
long haul.
    We want to screen about 5,000 people in the first efforts, 
about a two and a half mile radius around downtown Libby, which 
is basically the valley proper. We've run down a list of all 
the former employees from W.R. Grace. So we're going to make 
that available to them----
    Senator Baucus. Employees that you know.
    Mr. Peronard. Yes, sir, we have that now.
    Senator Baucus. Including those that are not in the 
community.
    Mr. Peronard. Yes, sir. Now, we haven't found them all yet; 
that's a part of the rub. We actually have to go out, find 
these people, let them know the screening is available, figure 
out how we're going to get them here if they want to come. 
We're going to set up a dual screening where we actually come 
out and call everybody in Libby, call these former workers, ask 
them about 12 to 15 questions, try to set up the appointments 
for times for them to come in and do the screening.
    In the meantime, I have estimated we'll have to buy about 
$200,000 in equipment. Which right now, the plan is to house it 
at the local hospital. They have the ability, the space, the 
infrastructure. We'll need to bring in some trailers where 
we'll conduct the interviews and process the information. We 
have to hire--somebody talked earlier about the number of B 
readers. That's actually part f the study aspect of it. In 
order to get the protocols right, you do a comparative study. 
You have three people look at a single x-ray. There actually 
will be some subjective disagreement between the three. You 
might get two positives and one negative. That's the nature of 
how you read the x-rays. It's a quality control set. We hire 
these people to bring them on. Again, that should come on in 
April. We're running down folks to do that now.
    How we do the screening and the information collection, 
this is one of the things we're working out now, is going to 
affect--who actually does the work is going to affect the cost. 
The order of magnitude is going to be around $4 million or so 
for the overall screening plus the medical testing plus the 
infrastructure purchases. It's money right now that we have in 
hand--make sure my boss is nodding his head.
    Senator Baucus. John will give it to you.
    Mr. Peronard. That we need to then funnel out how we divvy 
up the specific work. We want to work out do we fund the 
position for the local hospital, or do they want to provide 
that resource so they have control over that. Those are the 
details we're talking about working out now. Screening 5,000 
people, if we get a 60 percent turnout rate, we're planning to 
do x-rays for 3,000 people. A similar study was done in Duluth, 
Minnesota for 1,500 people. It took them about a month and a 
half to 2 months to do. So we figure this will take 3 months in 
implementation, give another month or two to actually start 
crunching through the data.
    And in the meantime, the way we set up the protocol, any 
other obvious medical problems we fall out will be identified, 
will be notified directly back to the affected individuals 
directly so they don't have to wait to the end of the study to 
find out what's going on. All this flows out to sometime at the 
end of summer we should have the information back, we should 
have the evaluations in place and we'll be able to tell you 
Gosh, it looks to me that 30 percent population or some number 
to quantify that. That's the target for the end of summer, next 
fall. A whole bunch of things can happen between here and 
there, but that's how we're planning to do it.
    Senator Baucus. Who all--are you staying here, Paul, 
through the interim? And my question is, who's going to be 
here, to be honest, to keep your enthusiasm and energy and make 
sure this thing continues to happen?
    Mr. Peronard. Well, that's actually an open question right 
now. Right now we're.
    Senator Baucus. Well, what's the open answer?
    Mr. Peronard. I don't know.
    Senator Baucus. I'm just kidding.
    Mr. Peronard. Decisions are certainly made up above my 
head. But the look we are taking--ATSDR will take the lead for 
doing the implementation. So they'll be responsible for the 
timing and how that happens. I don't stay up here full time. 
It's my daughter's birthday and I actually want to get home for 
that. But it's spending 78 percent of my time up here. So I'll 
make sure on our end, in terms of the environmental sampling, 
including the seasonal sampling, I'm looking to finish this up 
in sort of 8 months. That's sort of my long-term plan.
    Senator Baucus. I hear you think the screening could cost 
roughly about $4 million?
    Mr. Peronard. Yes, sir.
    Senator Baucus. Did I hear you correctly that EPA is going 
to foot that bill?
    Mr. Yellowtail. Yes, sir.
    Senator Baucus. What other costs--health-related costs, 
will there be? And when will we know them?
    Mr. Peronard. The crucial piece to that, and I'll turn it 
back over to the doctors in the house, if you will, is how many 
additional cases that the study identifies. That's really the 
crux of what we're trying to get at. Is it a fact that we 
already have the medical care f everybody affected, or is there 
another 200 people out there? If we then dump 200 more people 
on the medical system, you actually could come in, once you 
have that number, and figure out what their treatment costs are 
going to be, what facilities you need to still treat them. The 
other question to ask is the people who have to go to Spokane, 
what would it take to set up the infrastructure here in Libby, 
to set that up. And as far as the dollars per patient kind of 
thing, you'll have to talk to a doctor about that.
    Senator Baucus. I can appreciate that. I'm trying to get a 
handle on--some advice as to when we might know the answer to 
some of those questions.
    Mr. Peronard. Summertime, in terms of the number of people 
we need to actually bring in to medical care.
    Senator Baucus. Sometime this summer.
    Mr. Peronard. Yes, sir, in the summer.
    Senator Baucus. Now, how much is the results of the data, 
the tests you're taking, going to affect all of this? As I 
understand, there are test results we don't have the results to 
yet, that there may be some other tests taken particularly, you 
know, if when the snow melts, we to have break up and it's a 
little dry so we can have a better idea of what the ambient 
problems might be.
    Mr. Peronard. I think in terms of answering the questions 
about the health effect, the crucial pieces of data deal inside 
people's homes and in their yards. The mine is a fixed facility 
and we know it's sitting there. And it can be a fairly 
conventional approach to how you management that. We're not 
moving that mine. We don't have to figure out how to take care 
of it there.
    Figuring out what levels of asbestos in somebody's home, 
let's say in an insulation material or in a garden, is 
something that we don't have any experience with doing. We're 
figuring this out as--let me say that better. We're developing 
the science as we go, investigating this project.
    Senator Baucus. So that's different from Duluth.
    Mr. Peronard. Well, Duluth was centered more around an 
occupational situation which differs from a fixed facility you 
can measure the air that they have. They weren't worrying about 
people using their gardens or insulation or somebody's house.
    What we're going to try to do is marry up the environmental 
data that we collect, the air samples from people's houses to 
the medical information from the medical screening to see if, 
boy, is there a correlation. Is everybody who has it in their 
garden, do we see an increased incident of disease or is it not 
related because they don't seem to correlate. Or correlate the 
garden levels to indoor air levels. Do the same thing with the 
attic insulation. So you don't get the final pieces put 
together until all this short-term work is completed at the end 
of the summer. In the meantime, we'll have some obvious areas 
from fallout. For example, the screening plans. We're not going 
to wait until the end of the study. We'll start that cleanup 
now so that extra improvements are being made while we figure 
out the next level or next quantum of risk and while we're 
getting a handle on the overall program. That way you parallel 
task things.
    Senator Baucus. Is there anything we can do to help speed 
this up in terms of resources or talking to agencies, telephone 
calls here and there? We want to help speed this along as 
quickly as possible. You're going to pass that up; okay.
    Dr. Falk. Senator, I think a critical question is we have a 
sense for the approximately 5,000 people who want to be 
involved in the initial screening. Thinking further down the 
road is the question. How many of those people ought to be 
screened on a regular basis after this summer. How many people 
may have some signs of asbestos exposure which ought to be 
watched on a regular basis for any progression. How many 
people, as had been noted by Dr. Black and others, have a real 
illness that requires regular attention. And I think we can 
estimate the cost of each one of those parts. Like what does it 
take to screen an individual yearly or what does it take to 
provide the medical care for an individual who needs an annual 
checkup or the care for somebody with an illness. What we can't 
provide to you yet are those actual numbers.
    And I think what Paul has been saying is by the summer, 
having completed the first round of screening, we may be able 
to take those individualized costs and have a number attached 
to each of those, and then we can estimate what this will take 
to follow through in succeeding years. And I think that's the 
tougher part to really know at the moment.
    Senator Baucus. Well, I might ask, you know, John or Rita 
or others, can you wait that long? What's your reaction to all 
that? Because you mentioned, John, earlier how, you know, 
you've got to get moving in the community.
    Mr. Konzen. I think Bill mentioned something that I've been 
wondering about, is the responsibility, economically, to take 
care of the medical, short-term, long-term, is who? I don't 
know. Are you in it for the long haul to take care of these 
people and then are we going back to W.R. Grace later or 
what's--that scenario is not clear to me.
    Dr. Falk. Let me start on that and maybe Bill will be able 
to comment.
    ATSDR does not have authority to provide medical care. We 
are not a medical care agency. We do have an ability to work on 
screening over a longer-term basis and I think, you know, we 
would certainly be willing to do that. We do not currently have 
the funding for a long-term screening effort and that's 
something we all have to work together on. And I think the best 
estimates we could provide you would be in the summer maybe 
there's some way of providing some initial estimates which 
could be refined. I wouldn't want to answer that myself at the 
moment but we could perhaps work on that, at least give you 
maybe some initial impressions. But I think the summertime 
would be when we would have the best estimate for that.
    Mr. Konzen. I guess along with that then, no medical 
coverage will come out of either one of these two Federal 
organizations.
    I've heard it takes about $250,000 for these folks to 
actually end up in--I guess, in death. And so I don't know if 
that's true or not. But you're trying to equate some kind of 
appropriations that would be long term. I think these victims 
that have been through this might be the best source of that 
information, of what it costs and where is that money is going 
to come from. I guess the other thing I mentioned about 
appropriations is that we are in above our head a lot further 
than the State is and we don't know where these variables are 
going to come into. So I think marking something in 
appropriations would be a wise thing to do for the future of 
this program, because we don't know where we're going to go. 
And the economic downsizing and downfall from this also has to 
be considered, because this thing has actually damaged the 
community along with its citizens. So I think appropriations 
need to be kind of looked at in those areas.
    Mr. Yellowtail. Senators, I delivered EPA's commitment to 
pay for the screening process, and I want to qualify that as 
saying up front, I think the question here about the long run 
is very important. And as to individual medical care, I don't 
know who has the answer to that question. But if you don't 
mind, I would like to expand--or ask my attorney to expand on 
who pays in the long run. The law provides that it should not 
be the burden of the taxpayers to pay for this kind of damage.
    Senator Baucus. That's right.
    Mr. Yellowtail. And if you don't mind, I'd like to ask Matt 
Cohn to give you a perspective on the whole area of cost 
recovery here, because I think that's important to that whole 
issue.
    Mr. Cohn. Senators, certain statute under which we're 
operating allows us to recover costs from operators of 
facilities for two basic components that were mentioned here 
tonight. The first of that is in identifying exposure routes 
and taking response actions to cut off those exposure routes. 
The second is to do the health assessments that ATSDR will be 
needing and to recover those dollars. The third component that 
I haven't mentioned is the treatment of individuals who may 
have been affected by what happened here.
    We can broker a deal with W.R. Grace and hope that we can 
work out some sort of consensual agreement whereby they will 
fund, perhaps in a trust, a mechanism to pay for such costs. I 
am not sure, however, that the statute gives us the authority 
to force them, at least under CERCLA money, to pay for those 
costs. And so to the degree you're asking what can Congress do 
in terms of appropriations, perhaps treatment is the best 
avenue.
    Senator Baucus. Could you more precisely delineate the 
second course of action where you can compensate? I understand 
the cleanup and so forth, but you mentioned something with 
respect to ATSDR, and I didn't quite understand that.
    Mr. Cohn. The second component which we are allowed to cost 
recovery or to actually perform the work for is health 
assessment. And that is what ATSDR----
    Senator Baucus. By ``health assessment,'' you mean 
determining what needs to be done?
    Mr. Cohn. Determining what needs to be done and referring 
people who have been affected to appropriate physicians. That 
is the screening and testing.
    Senator Baucus. Screening and testing as opposed to 
mediation, as opposed to cure.
    Mr. Cohn. Correct.
    Senator Baucus. That's interesting. Has this been tested at 
all, or is there any other example where, under No. 3, you've 
gone back to a company to pay for the medical care?
    Mr. Cohn. I don't know the answer to that at this time. 
I'll have to check into that.
    Mr. Yellowtail. Obviously, the courts have a pretty full 
menu of cases before them to address individual medical costs.
    Senator Baucus. So you said four million dollars. Is that 
general fund money, or is that four million you expect to go 
back and get out of Grace?
    Mr. Yellowtail. That's CERCLA money but with the potential 
for cost recovery. And, of course, it is always our going-in 
expectation that we will recover that investment.
    Senator Baucus. Right.
    Dr. Falk. I just wanted to add a little bit o that. The 
divide, really, I think, is in terms of providing health care. 
There are--in addition to screening and testing, there are 
related types of activities that can be done under CERCLA. For 
example, if there were signs where a number of people for whom 
we wanted to stay in touch with over a period of many years so 
that we could establish some register of all those people, stay 
in annual contact with them and be able to, you know, assist or 
initiate services for them, we can do that kind of a thing. And 
that's like an extension of the testing or screening. But it 
stops short of the actual provision of care.
    I think the people who actually have moved from Libby is 
something maybe that hasn't been touched on today but may be 
another thing that we should think about. Because there are 
many people here that have relatives or friends or neighbors 
who may live in other parts of Montana, or maybe now live 
outside of Montana, who in the future ought to be included 
under some appropriate type of follow-up activities.
    Senator Baucus. Right. Forgot about that. Somebody have an 
answer to that?
    Dr. Falk. That might be included in the cost of a register 
for keeping track of everybody. But I think that would be--that 
is authorized under CERCLA.
    Senator Baucus. Oh, it is. One question in y mind is, 
when's the next time for us to kind of sit down together and 
sort of take stock? This is mid-February. I'm a little nervous 
about waiting until summer, over August. Lots of things could 
slip and slide over that long a period of time. I'm tempted 
to--my inclination is that we should sit down again and talk 
about all this, see where we are and maybe take stock in a 
month or two, rather than wait until all the way until August.
    Mr. Yellowtail. Senator Baucus and Senator Burns, I 
appreciate your attention here and appreciate your support. I, 
frankly, think at your convenience. Certainly on an ongoing 
basis we need to keep you informed as to progress of our 
efforts here in Libby. But to have another hearing like this I 
think would be useful. Obviously by late summer we will have, 
if we're successful with our commitment to conduct all of the 
medical screening and so on on the time table we've set out, we 
will know a lot more by the end of summer. However, at your 
convenience, if in the interim at some point you would like to 
have another, basically, community-based check-in like this.
    Senator Burns. Can I interject one thing here? I think it's 
important here that it keys on you. It keys on Dr. Falk, on 
whenever we got ample enough information together that it 
becomes meaningful. And then we have to take--decide to take 
some steps at that time. I think it keys on you and how your 
work progresses for example. And I'm not saying hurry up and do 
it. I'm saying it takes a certain amount of time to do this. 
This is very painstakingly technical stuff.
    And here this guy's--you need a haircut, by the way. And 
we've got to get on the town of Libby, too; they've got to fix 
their air conditioning here.
    [Laughter.]
    Senator Burns. But I think it keys on you and when you 
think you're ready to present some information. Now, we can 
sort of work with you on a personal basis in a--not in an 
environment such as a formal hearing setting, but we can sure 
work with you in completion of your information. And then when 
it becomes meaningful, then I think the folks of Libby and the 
State of Montana will--the commissioners can make some plans, 
the Department of Health, environmental health can make some 
plans. I think the DEQ will know what to do, and I think our 
people will know what to do. But I think that's the way I look 
at it. Maybe that's looking at it backwards. And if it is, then 
you can tell me so. And thanks for coming today, I appreciate 
it. I don't have any formal questions.
    Senator Baucus. I said I'd give the local folks a chance to 
respond, Tony Jorgenson and John and others, Brad, to what 
you've heard.
    Mr. Konzen. I, too, would like to thank both of you for 
showing up today. I think this solidarity is important to 
resolve this issue. I'm still not sure about the long-term 
care. I think you heard that, and I don't think these folks are 
either. If it falls back on W.R. Grace, I don't know who 
brokers that, I don't know who takes care of that. And we're 
kind of lost out here as far as device and how we go about 
doing that.
    Senator Baucus. It's a good question, John, and it's one we 
have to keep thinking about and find the answer to in the 
several next weeks and months. But I'm definitely going to have 
another follow-up hearing, either committee hearing or some 
similar type of hearing. But I think it's very important for us 
to keep our eye on the ball and keep things going here.
    I'd like, now, to give people in the audience a chance to 
speak.
    Yes. And why don't you just--there's a microphone back 
there or whatever, just grab one anywhere. If you could give 
your name, please.

         STATEMENT OF LLOYD WILLIAMSON, LIBBY, MONTANA

    Mr. Williamson. My name is Lloyd Douglas Williamson, 643 
Sheldon Flat Road, Libby, Montana, 59923. My phone number is 
406-293-7079. My lineage goes back to 1895 in Lincoln County.
    I just have two questions, and I probably have the 
solutions myself. The last point you made out here, is it 
easier for Senator Burns and Senator Baucus to sit down, or is 
it easier for you people to sit down for a progression, as far 
as a graph progression report, to the people of Libby, Montana?
    Mr. Yellowtail. Mr. Williams----
    Mr. Williamson. Williamson, sir.
    Mr. Yellowtail. Sorry. We have our storefront office here. 
And on an ongoing basis our community involvement person, Wendy 
Thomi, here, makes it her business to provide information to 
members of the community on an individual basis and on a--you 
know, through the media and through the public medias and so 
forth. So that's an ongoing operation----
    Mr. Williamson. I understand that.
    Mr. Yellowtail.--on a daily basis you're going to have 
access to.
    Mr. Williamson. I understand that, sir.
    Mr. Yellowtail. We use the community advisory group as a 
means of providing information to the community.
    Mr. Williamson. I understand that, sir.
    Mr. Yellowtail. And then I think as an appropriate 
milestone, I think we ought to accept the good offices of our 
Congressional delegation to hold this level f report back to 
the community. Now, to tell you the truth, I don't know, today, 
at what point it's appropriate to have another one of these.
    Mr. Williamson. I wouldn't expect that.
    Mr. Yellowtail. But I think we ought to be able to publish 
for you very soon some at least rough time-table kind of a 
calendar as to what's going to happen here. And I think Paul 
probably does that already. We're going to have our agreement 
between EPA and ATSDR which--within a couple weeks, which 
should give us more information about that.
    Mr. Williamson. I understand that.
    Mr. Yellowtail. Is that helpful?
    Mr. Williamson. I'd like to sit at that table and you look 
across at my Senators and you answer to them. That's what I'd 
like to see. If it goes between you said late summer, I'd like 
to see you--I know how Mr. Baucus--I've seen his voting record, 
and also Senator Burns'. I'd like to see you talk to them. I 
understand publication and I really understand the news media. 
Now, if you can get with Mr. Baucus and Mr. Burns and sit down 
like you did today when you get 25 percent into this, I can 
figure out--I know math. I can figure out 25 percent, boom, we 
sit down again.
    But I do believe it's when you two can get together, you 
two committees can get together and sit down and say we got a 
progress report to the people of Libby.
    My second question is, Senator Burns and Senator Baucus, 
I'm well aware of dollars and cents in the Cat scales. I'm well 
acquainted with taxpayers' money being handed out and being 
held accountable for. If the trillions of dollars that went out 
to other countries, no interest, no pay back, is Libby, Montana 
worthy of that same kind of donation? Thank you.
    Senator Baucus. Yes, Mr. Williamson, all I can tell you is 
I can speak for Conrad, I'm sure, we're devoting a tremendous 
amount of time to solving this problem here. We've come to 
Libby several times. We've had this follow-up meeting which is 
kind of a first, in my experience, in the State. And we're 
going to have another one. And Mr. Yellowtail and Dr. Falk and 
Marc Racicot and Rick Hill and I, we'll be talking about what 
we can do to make sure that the dollars are there as quickly as 
possible. Believe me, we're going to solve this problem.
    When I sat in the living room of people here in Libby, 
people who are dying. They knew they were dying, I knew they 
were dying. I'm hard pressed for a more gut-wrenching, heart-
wrenching experience I've ever encountered. Radicalized me. I'm 
going to do all I can to solve this problem. You have my 
pledge; I promise you that.
    Mr. Williamson. Senator Baucus, I've been in the bedrooms 
of widows. I've stood by the death beds. I stand before you now 
and I know whether I have asbestosis and I know that it's 
around here. I also know Libby doesn't--in years past didn't 
have sand boxes for kids to play in. We had zonolite boxes we 
played in. Thank you very much for your time and your 
expertise.
    Senator Baucus. Thank you, sir.
    We're going to have to leave in about 15, 20 minutes.

            STATEMENT OF JIM ROSCOE, LIBBY, MONTANA

    Mr. Roscoe. I understand there's three aspects to this. One 
is the environmental cleanup, the other one is health and 
economics.
    Senator Baucus. We need your name for the reporter.
    Mr. Roscoe. Jim Roscoe, common spelling, 6766 Pipe Creek 
Road, Libby.
    There's three aspects that we're addressing is health, 
environmental cleanup and then economic. Anyone that's got 
zonolite in their homes is scared to death they won't be able 
to sell them. Anyone that's got zonolite in their lungs is 
scared to death they're not going to be able to live in their 
homes very long.
    I think we should set up a database in Libby, whether it's 
through the EPA or some other agency, where all he questions 
and concerns of the residents can come into. When a person 
comes in, they're worried about health. You can access the 
database, see what's been done in that area. If it's 
environmental, what the time table is. And economics, people 
here are scared to death about their property values, what's 
going to happen on that. And right now we have, as you've heard 
here, 15 different people all have the piece of the puzzle, and 
I as an individual don't know who to turn to the get the 
answer. But if we had a central point with a database I think 
would help. Thank you.
    Senator Baucus. Yes, Tony.
    Mayor Berget. I'd just like to address a little bit, that 
city home page, EPA is linked to that. So there is an ability, 
through the Internet, to ask some questions. And then the EPA's 
location downtown, I know they have that. And EPA has a web 
page up.
    Senator Baucus. Is there a Libby web page?
    Mr. Yellowtail. It's a Libby web page.
    Senator Baucus. EPA has a Libby web page.
    Mr. Yellowtail. Went on line yesterday. So pester Paul to 
find out the address.
    Mayor Berget. It's linked to the city's home page.
    Mr. Yellowtail. It's linked to the city's home page, 
libbymontana.com, all one word, no spacing.
    Senator Baucus, I hear Jim. I just wanted to relate, I sat 
in our storefront office about 30 minutes this morning doing 
some last-minute editing of my presentation for you. And during 
that very short space of time, I saw two property owners from 
Libby come in with questions. And they wanted to know what--one 
guy brought in a sample of material that he pulled from, I 
guess somewhere on his property. Says I want this stuff tested 
so I know what I've got. And, furthermore, he said, Sometime 
down the line, I might want to sell this property. I need to 
know, and my prospective purchaser deserves to know, what I'm 
going to get. Well, I watched Paul Peronard take the names and 
commit to a date specific when he's going to go out and conduct 
the necessary testing on their property to give them that 
assurance.
    In the big picture and in the long run, I think we're going 
to have to figure out a mechanism to give a clean bill of 
health, some certificate or letter of assurance, to a property 
owner in Libby that they've got--they don't have a problem that 
they need to worry about.
    [Applause.]
    Senator Baucus. Yes.

           STATEMENT OF TERRY BEASLEY, LIBBY, MONTANA

    Ms. Beasley. My name is Terry Beasley, and I am chairperson 
of the Board of Directors at the hospital. I just need some 
further clarification, from probably Dr. Falk or Mr. 
Yellowtail, on the initial screening phase versus the long-term 
screening and ongoing treatment funding aspect of this 
situation. And you spoke a little bit up to it. And I--you 
know, Paul can say he can have his lab tests back by March 15 
for this community. But we, as a hospital board in this 
community, need to have some sense of a time line and avenue of 
funding to address this situation.
    Mr. Yellowtail. Who can speak specifically to this?
    Mr. Peronard. The only thing that I know that we have 
funding for and we're committed to deliver is the initial 
screening process. To do the study, the 5,000 folks, and make 
that available here, purchase equipment, and that obviously 
would stay with the hospital. I can figure that out just in the 
next priority list of things to do.
    And, frankly, working out the long-term issue is sort of 
second to your question. We have to get this up and running. So 
we haven't worked out the details on how we're going to bring 
through the infrastructure permits or how we're going to 
provide long-term care which is questions that probably we 
would do that anyway. It's on the list of things that I--
obviously we don't know how--we really don't have the answers 
now.
    Ms. Beasley. Well, if your intent is to begin screening by 
the end of the summer and then leave this community and this 
hospital to meet the health care needs of those who are 
affected, we need to know where that funding source is coming 
from.
    Mr. Peronard. The intent, then, is to figure that out as 
we're doing the screening. I just don't have the answer today. 
So that as we're doing the screening, we'll be able to better 
estimate what the long-term needs are going to be, start 
getting that funding lined up.
     Senator Baucus. One other question. Where is that $80,000 
going to go?
    Dr. Falk. I think that may be helpful in terms of the 
staffing that's needed for the screening process. But if I 
might speak to your question, one of the things that is very 
important to us as we are involved in the site is developing 
what we call a public health response plan. And I think what 
you're emphasizing is how critical that is. Because we can 
undertake activities that we see right in front of us now, but 
we really have to have a plan that will encompass these things 
that need to be done as we go forward. I think we have said 
that we're committed to working on such a plan. We work 
together with EPA, State, local community, and I think that's 
where we need to elaborate what the needs are, and we need to 
give cost figures that Senators have asked for but also the 
elements f what need to be done, which I think is what you're 
particularly concerned about.
    Ms. Beasley. Well, we already know that we need research if 
we're going to allow any hope in this disease process. So I 
don't think you need any more statistical studies.
    Senator Baucus. I'm wondering if there is any way we--Dr. 
Falk and Bill and the right people at the end of this hearing, 
can just sit down in the corner of the room over there and try 
to work some of this out. In the meantime, you know, talk to 
us. We're going to be--we work for you, take your telephone 
calls, and we'll be talking back to Dr. Falk and Bill 
Yellowtail and others. And we'll put a list together. And 
that's the reason for--I put a little pressure on all of us to 
come up with this by having another sort of taking stock where 
we get together sooner, rather than later. Because that's going 
to make it easier for all of us. Maybe not easier, but we're 
going to get to the answers more questions.

             STATEMENT OF ALAN STRINGER, W.R. GRACE

    Mr. Stringer. My name is Alan Stringer. I'm the Grace 
representative here in Libby. I have a written statement I've 
already provided to your assistants. I don't want to take the 
time right here to read that. I do want it to be made part of 
the record.
    What I do want to address here, right now, is this 
conversation that's been going on here in the last few minutes 
with respect to the ongoing health care of this community. Mr. 
Cohn came up and made reference to it. And I think what 
everybody fails or seems to forget is Grace has made a 
commitment to take care of the medical needs for anybody in 
this community or anybody that's been associated with this 
organization or this town to cover their medical needs if 
they've been diagnosed with an asbestos-related disease. We 
said that, we're still committed to that, irrespective of what 
comes about out of the asbestos--out of the EPA's findings. We 
stand behind that. It will go on, irrespective.
    The questions have been asked. The hospital has asked that 
question. Mr. Cohn addressed it. We made that announcement. And 
there's no top limit on the funding. There's no top limit on 
the people. It's the disease that these people have, if they're 
diagnosed with it, Grace is going to cover those costs, 
including medication.
    [Applause.]
    Senator Baucus. We've got to do this in an orderly basis.
    Mr. Stringer. It's a fair question. Right now we've been 
talking with the hospital, and you heard Mr. Cohn make the 
comment. They don't know whether they should even take other 
money. There has to be a sensible, rational layout of how this 
a going to get done. This is very complicated.
    Senator Baucus. Mr. Stringer, may I ask a question? I'm a 
little confused. I read earlier in the press that Grace is 
making available $250,000, I think it's a month.
    Mr. Stringer. A year. But ask the question.
    Senator Baucus. Bad question; $250,000 a month for as long 
as it takes.
    Mr. Stringer. A year.
    Senator Baucus. It was a $250,000 a year?
    Mr. Stringer. To initially make it $250,000. Let me back 
up. When we originally--when this started, we wanted to get 
screening for the people in this community done as quickly as 
possible. You've heard that from a lot of people here today, 
Let's get this moving. Let's get this done as quickly as we 
can. Let's find out what the issues were. We felt that we could 
come in here and provide the hospital with the necessary 
resources to get a screening program set up. We were willing to 
provide the hospital initial $250,000 to get going, as well as 
any capital costs might be associated with getting that done.
    Furthermore, we were willing to provide that hospital as an 
ongoing means to provide ongoing screening nd other issues, 
$250,000 a year for the foreseeable future. That isn't 19--
excuse me, that isn't 2010, that isn't 2020. It was open-ended 
for the foreseeable future. We made that commitment. We still 
stand by that commitment. It's $250,000 a year. But that's--I 
mean, we have to determine what those costs are with respect to 
the health care. There's no number on that. It's what it is. 
But it's going to take a few months to get that set up and to 
get identified as to how the mechanism will be done.
    The last thing I want is anybody in this town who has a 
problem with an asbestos disease to get caught up in some 
bureaucratic circle as to who's paying their bill. Is it 
Medicare, is it Medicaid, is it private care, is it Grace? It's 
Grace. And I want to assure the people here that it's Grace. 
But we've got to get that mechanism set up such that it gets 
done and it's facilitated so that the people of this community 
don't get caught in that circle of bureaucracy.
    Senator Baucus. That's very interesting to hear, and I 
think people appreciate that. Has that statement been in 
writing? Has Grace committed in writing the amount that it's 
going to commit?
    Mr. Stringer. Absolutely. I made the announcement.
    Senator Baucus. Is there a document signed by the Grace 
people?
    Mr. Stringer. There has been a press release that has 
been----
    Senator Baucus. Not a press release. I'm talking about a 
document signed by the president of Grace.
    Mr. Stringer. No, there is not. I come here. I'm living in 
this community. I'm the representative here. I say that's what 
it's going to be, that's what it's going to be. I'm carrying 
that message from our community.
    Senator Baucus. I hear you. I just tell you that from me, 
as a person, I'll have a lot more confidence, no disrespect 
from you but, a lot more confidence in that statement and in 
what Grace will or will not do when I see a document signed by 
the president of the company.
    Mr. Stringer. And I'll carry that message. Who should he 
give it to? Excuse me, Senator, who should that document be 
given to?
    Senator Baucus. Me. I want to see it.
    Mr. Stringer. All right; thank you.
    [Applause.]
    Senator Baucus. One more and then we're going to have to 
wrap it up.

          STATEMENT OF PAUL RUMELHART, LIBBY, MONTANA

    Mr. Rumelhart. Just one last question then. Paul Rumelhart, 
Libby. How does the Fairness and Asbestos Compensation Bill 
affect the funding of the problem here, Senator?
    Senator Burns. How does what now?
    Mr. Rumelhart. How does that Fairness and Asbestos Bill--
how does that fit into the needs of the local residents and the 
needs of this community?
    Senator Burns. That's a separate issue altogether.
    Senator Baucus. Yes. The answer to that question is it is 
related but it's not directly a subject of this hearing. I've 
decided not to address those issues at this hearing because 
that would add--get us too far afield from what I regard as the 
No. 1 focus today in February, and that is how to quickly as 
possible address the health problems people face and also the 
exposure problem that may or may not exist here in Libby. The 
liability issues will settle themselves out, and each of us is 
going to have a different view on how that should be resolved, 
but that's not today. We'll do that in a future date.
    Thank you very much, everybody. It was very, very helpful.
    [Whereupon, at 1:25 p.m., the committee was adjourned, to 
reconvene at the call of the chair.]
    [Additional statements submitted for the record follow:]

 STATEMENT OF RITA WINDOM, JOHN KONZEN, AND MARIANNE B. ROOSE, LINCOLN 
                 COUNTY, MONTANA, BOARD OF SUPERVISORS

    Dear committee members: We want to thank you for taking time out of 
your busy schedules to hold a formal hearing on the asbestos problem we 
are faced with. This is a very important issue to all of us; especially 
those that have had their health adversely affected by this problem.
    Credit also needs to be given to the EPA and ATSDR for their quick 
response to the concerns that have been raised. They have acted in a 
very professional and open manner. They have done an excellent job in 
earning the trust of our local citizens by being openly accessible to 
address concerns and answer all questions as well as keeping everyone 
fully informed on the progress of their testing. The on-scene 
coordinator, Paul Peronard, deserves to be personally thanked for 
managing his team in such a proficient method.
    There are several issues that concern all of us. An immediate 
concern, of course, is the level of contamination within the Libby 
area, especially any risk in people's homes. Current testing by the EPA 
shows that two (2) homes out of the 32 tested have asbestos detected. 
One of the homes has termolite asbestos, the kind associated with the 
vermiculite mine. The other home shows chrysotile asbestos, used for 
years in insulation products as well as ceiling and floor tiles. In the 
other 30 (30) homes tested, the EPA did not detect asbestos fibers of 
the size immediately known to be a health risk.
    The EPA testing has also discovered asbestos at the two former 
vermiculite processing locations. One is the old railroad loading area 
up the Kootenai River at the base of the Rainy Creek Road. The property 
is currently being used as a plant nursery. The other is in Libby at 
the old export site near the ballfields. Currently this property is 
owned by the City of Libby who has leased a portion of the property to 
a local business. We are sure that both of these businesses are 
concerned whether they will be able to remain in business during any 
cleanup efforts.
    Many other areas of concern have been tested including soil 
sampling in garden areas, driveways, roads, and outside air quality in 
Libby and near the mine site. The test results from these locations 
should be available around the middle of March. With that information, 
a plan can be determined on how much and where further testing needs to 
be done.
    Another major concern is the health of our residents, especially 
former workers and their families. It is important to follow through 
with developing a screening and treatment center here in Libby to 
reduce the fears of those who have not had an opportunity to be 
screened; but more importantly to lessen the financial and traumatic 
impact on those that have contracted asbestosis or related diseases. 
Those affected may not be financially nor physically able to travel 
long distances to seek treatment. In addition, local screening and 
treatment provides the emotional support of family and friends.
    The local hospital has submitted a plan that they feel will meet 
those needs locally. We strongly support the effort of St. John's 
Lutheran Hospital to accomplish this. There are still many unknowns on 
how many people will need to be screened and treated. Asbestosis may 
take years to develop to a point where it is detectable. The need to 
offer screening and treatment locally will continue for years to come.
    We are also concerned about the effects this has already had and 
will continue to have on our local economy. The Libby area, as well as 
the rest of our county, was already faced with economic challenges due 
to the major downturn in timber sales and other natural resource based 
industries the past several years. To survive this additional road 
block will require all of us working together to address and identify 
the Problem collectively, get it cleaned up, and identify ways to 
recover from the negative and sometimes exaggerated publicity this has 
drawn.
    Our taxpayers are also worried. They understand that Lincoln County 
has been affected by major losses of revenue the past few years. Many 
county services have been reduced or eliminated because of the loss in 
tax valuation due to the closure of several major industries. We are 
aware that there will undoubtedly be a demand on many of our county 
departments for continuation of some services associated with this 
problem. Due to the long latency period associated with asbestos 
disease onset, the lengthy duration of the illness, and the likelihood 
of additional asbestos source discoveries, citizens will need to 
rebuild their confidence that the environment in which they live is 
currently safe, and continues to be, through extended sampling 
programs. We foresee additional funding requirements for our District 
Court, the Department of Environmental Health, our County Nurse's 
office, the Road Department, mental health services, and other areas of 
support needed by our constituents. As part of the partnership working 
to solve this problem, it would be beneficial for the Federal 
Government to help us defray the cost of these additional requirements 
rather than attempt to shoulder this additional burden by those most 
affected.
    Again, we all wish to thank this committee for taking the time to 
visit Libby to address this problem and the uncertainties that are on 
the minds of all our residents. We appreciate this opportunity to 
appear before you today.
                                   Marianne B. Roose, Chair
                                     Rita R. Windom, Member
                                     John C. Konzen, Member
                               __________

                STATEMENT OF BRAD BLACK, LIBBY, MONTANA

    My name is Brad Black. I hold the position of Lincoln Co. Health 
officer and have lived and practiced medicine in Libby for over 22 
years. As cases of asbestosis surfaced in the area that involved people 
with non-occupational exposure, our health department began the process 
of determining where they might have occurred. Communication with Dr. 
Alan Whitehouse gave indication of at least 23 cases of ``non-
occupationally'' acquired asbestos-related lung disease. These cases 
included youth recreational exposure, service workers to the mine site, 
individuals that expanded the ore on their kitchen stoves, loggers who 
worked timber contracts around the mine site, and a report of one case 
who had lived in the central area of Libby with no other apparent 
exposure.
    The EPA, led by their coordinator Paul Peronard, arrived and 
efficiently assessed the concerns. EPA toxicologist Chris Weis and 
Aubrey Miller, MD were professional in their approach to the situation. 
Their assessments supported the concerns of widespread asbestos 
exposure.
    We discussed the immediate need to determine if there is current 
risk of significant asbestos exposure (environmental screen), if there 
was significant past exposure (medical screen) and the future need to 
develop the medical infrastructure to provide ongoing follow-up and 
care of persons with evidence of significant asbestos exposure.
    In discussions with our medical providers. there was a consensus 
that we should take a lead role in providing medical evaluation and 
follow-up care for those affected with asbestos exposure. The Lincoln 
Co. Health Board was supportive of St. John's Hospital and medical 
staff taking an active role in developing the necessary infrastructure. 
Dr. Whitehouse was consulted and was supportive of us proceeding with 
this plan.
    At this stage, our role appeared to be in assisting the EPA in the 
medical screening process and to proceed with securing the elements 
necessary to provide medical care and follow-up.
    The ATSDR was engaged and with the direction of Jeff Lybarger, MD, 
we have continued to proceed with development of infrastructure. There 
was initially concern locally that the EPA and ATSDR might have some 
problems in developing a consensus on leadership in this project, 
however, both groups have demonstrated a level of professionalism that 
has allowed things to move along in a positive direction. They have 
come to fulfill their role, but have been listening and responding to 
State and local input quite well.
    Development of the community advisory group is seen as an essential 
element. I would strongly recommend, in the initial phase of 
development of this interactive process, that the EPA take a more 
formal role in facilitation. This could help break down community 
tensions and help create an environment that participants see as 
comfortable and respectful of individual rights when discussing 
differing opinions. Then the group function can mature to a level that 
allows it to sustain an independent character.
    As environmental screening and medical screening are in progress, 
we feel that it is essential to be developing a system to receive, 
evaluate, continue monitoring, and provide all aspects of care for 
those people with significant asbestos exposure. This would be 
accomplished with the assistance of expertise offered by Dr. Alan 
Whitehouse, a pulmonary specialist who is experienced in the clinical 
course of this tremolite exposure. In addition, it is our interest 
along with Dr. Whitehouse to investigate the possibility of finding a 
therapy for the fibrotic process caused by asbestos fibers. The ATSDR 
represented by Dr. Lybarger has indicated support for a research 
component.
    As we receive the aid of the EPA in environmental screening and the 
ATSDR in developing a local program that would begin by being involved 
with the medical screening and continue the process and be ready to 
receive the identified population, I am concerned we are not going to 
be prepared. St. John Hospital is in serious need of operational 
capital in order to take an active role in hiring a local program 
coordinator, clerks, interviewers and pursuing education for health 
providers and respiratory therapists to mention a few immediate needs. 
As a health care community, we are ready and waiting to move ahead. 
With adequate capital and expertise from consultants, I'm certain we 
can construct a quality infrastructure.
    Previously, Senator Baucus had indicated he would seek some 
monetary aid for helping our medical system prepare. I am hopeful that 
he will be successful in this venture.
    Also, our role is to continue negotiation with W.R. Grace to 
address the long term health care needs of persons affected by 
asbestos-related disease. This would involve regular monitoring and 
care with appropriate interventions for those who have been impacted by 
asbestos exposure.
                               __________
                        Department of Environmental Health,
                                 Lincoln, County, February 16, 2000

Senate Committee on Environment and Public Works,
U.S. Senate,
Washington, DC 20510-6175

Dear committee members: I wish to express my appreciation for your 
consideration and efforts in evaluating the impacts on, and concerns 
of, the Libby community as we deal with the asbestos issue.
    I echo the acknowledgments of others in regard to the Federal and 
State assistance rendered to date in evaluating conditions and 
assessing the problem. These efforts will result in public health risk 
assessments, health screening for asbestos disease presence, and 
cleanup of known asbestos sources. This process will go a long way 
toward alleviating the immediate health concerns and anxieties harbored 
by the community.
    However, asbestos (and it's impacts) presents a long term issue. 
Asbestos does not readily deteriorate in the environment, and exposure 
to its fibers can take many years to develop into a debilitating or 
deadly affliction. It is inconceivable to assume the efforts currently 
being expended in response to the asbestos conditions in Libby will 
result in a 100 percent cleanup of all asbestos risks. Long term 
planning is proceeding for personal health issues associated with 
asbestos presence in our community. These include: screening, long term 
care, and research efforts.
    In order to rebuild, and maintain, citizen and visitor confidence 
in the Libby environment it will be necessary to maintain an ongoing 
environmental asbestos monitoring program. This program must address 
ambient and indoor air quality, drinking water, and source sampling 
(dirt, insulation). As people remodel houses, dig up yards and gardens, 
and transfer real estate, new asbestos sources and concerns are going 
to be uncovered. People will need to have a local agency to assist 
them. The Lincoln County Environmental Health Department has 
experienced staff personnel that deal with air and water monitoring 
programs regularly. Asbestos training and appropriate monitoring 
equipment will allow our department to expand its role and provide this 
service. it is also logical that we'd assume the role as the 
educational outlet for asbestos related topics, when the EPA Libby 
``storefront'' information center is phased out.
    The scope of these long range community needs falls beyond the 
current EPA and State efforts. These needs will require extended 
funding, and that leads me to the basis of my request. The citizens of 
the Libby community need your assistance in providing a means for 
sustained and assured long term funding to provide these essential 
environmental programs. Assurance, and reassurance, that the local 
environment does not pose a public health risk is critical to the 
healing and rebuilding process facing the citizens of the Libby 
community.
    I am appreciative of your efforts and concerns and again express my 
thanks to you.
            Sincerely,
                              Ronald L. Anderson, Director,
                               Lincoln County Environmental Health.
                               __________

        STATEMENT OF TONY BERGET, MAYOR, CITY OF LIBBY, MONTANA

    We are experiencing one of the most difficult times in Libby's 
history. The diagnosis of hundreds of Libby-area residents with 
asbestosis is devastating on many levels. I have lived in this 
community for almost my entire life. It is where I choose to raise my 
family, not because it is the most economically advantageous place for 
me to do so, but because this is where my heart is. Libby is beautiful, 
and it is a great place for kids, but the reason I choose to live here 
is because of the people.
    It is only recently that I have become aware of just how many 
families have been affected by this debilitating and deadly disease. I, 
like many Libby citizens, knew of a few court cases, but I had no idea 
the scope of the problem until recently. The more I have talked with 
victims of this disease during the past few weeks and months, the more 
I realize how horrifying this diagnosis can be. My heart goes out to 
everyone affected. It is imperative now that we determine the extent of 
the problem and assess the steps necessary to remove any residual 
danger. It is clear that health care facilities need to be expanded and 
staffed so that testing and health care services can be received in 
Libby. I am encouraged that W.R. Grace has made a commitment to help 
St. John's Lutheran Hospital provide these services. It is still 
unclear how much money will be required to do what is necessary. There 
may also be environmental clean-up issues that surface as we continue 
the investigation. This community does not have the resources to face 
these economic challenges. We will need help.
    I am also concerned about the effect the intense media attention 
will have on the future of Libby. This media coverage, aside from 
making us locally more aware of this situation, has only done damage. 
Not only to Libby as a community (and yes to the economic issues we 
have been striving to turn around), but also and most severely to the 
very individuals who have already suffered the most. The national 
exposure to this situation means that many more individuals are seeking 
legal recourse against Grace--including most recently a class action 
suit. I am concerned that the lawyers will fare far better than the 
victims of asbestosis. The publicity has already led to the delay of 
one pending court case as the Grace attorneys have filed for a change 
in venue. Should this change be granted, plaintiffs may have to travel 
to Eastern Montana (at their own expense) to have their day(s) in 
court. Meanwhile those individuals with asbestosis who are still able 
to work or who may need to sell their homes will be subject to the same 
economic hardships as the rest of the community as we continue to be 
labeled ``the town left to die.''
    I am glad the EPA is here. I have been very impressed by their 
expertise and professionalism. They are very approachable. I am 
cautiously optimistic about the preliminary findings; I believe there 
is minimal risk of exposure to the citizens or visitors to Libby. I 
believe Libby is still a safe community in which to live. This in no 
way should diminish the fact that many people are suffering from past 
exposure. We must continue to work together on the local, State, and 
Federal levels to ensure the well being of Libby's future.
                               __________

 STATEMENT OF TODD DAMROW, STATE EPIDEMIOLOGIST, MONTANA DEPARTMENT OF 
                    PUBLIC HEALTH AND HUMAN SERVICES

    Senator Baucus and members of the committee, for the record, my 
name is Todd Damrow. I am the State Epidemiologist for the Montana 
Department of Public Health and Human Services. I appreciate the 
opportunity to testify before your committee about our department's 
involvement in the various State and Federal activities underway here 
in Libby.
    On behalf of the Montana Department of Public Health and Human 
Services, I wish to sincerely thank the Federal Government for the 
assistance which they have provided to our department on numerous 
occasions over the years.
    As you might suspect, health care resources in this State are 
rather limited. Public health workers with the highly-specialized 
training and expertise needed in Libby are not available in this State. 
Thus, in these situations it becomes necessary for our department to 
appeal for help from Federal health authorities in order for our 
residents to be properly served.
    Our department has enjoyed a long history of good working 
relationships in Montana with Federal health experts from the Agency 
for Toxic Substances and Disease Registry (ATSDR). Examples include 
health effect studies of environmental contamination in Livingston, 
Phillipsburg, Billings, Bozeman and communities along the Clark-Fork 
River Operable Unit, our nation's largest superfund site complex. Most 
recently, ATSDR workers provided invaluable assistance to local and 
State health workers in response to the train derailment and subsequent 
chlorine spill near Alberton.
    The responsiveness of ATSDR to public health needs in Montana 
continues to this day, as evidenced by the strong showing of Federal 
health workers on-site in Libby. We are most appreciative for 
assistance in providing the residents of Libby with the care they 
expect and deserve.
    Our department is currently involved in response activities in 
Libby in several different ways.
    First, the State Medical Officer and the State Epidemiologist have 
been working closely together with local health officials to assist 
them in decisionmaking when requested.
    Since the public health system in Montana is set up by statute such 
that local/county health agencies have primacy over health matters in 
their jurisdiction, the Lincoln County Health Department ultimately has 
the final decisionmaking authority with respect to public health 
actions in Libby. State and Federal health officials are careful to 
respect this right of the counties. Just as Federal health authorities 
are here at the request of the State, so State health workers are here 
at the request of the county.
    It has been our experience that county health departments 
appreciate DPHHS's assistance in decisionmaking, especially when 
dealing with large Federal agencies such as EPA and ATSDR. County 
health departments are quite understandably nervous about becoming 
``out on a limb alone'' by making decisions in isolation. They 
recognize the State's experience working with these agencies, and they 
value our input because of insight obtained from past situations in 
Montana. We are working closely with the Lincoln County Health 
Department to help ensure that the decisions made are logical, 
scientifically defensible, and cost effective.
    Close cooperation between State and county health agencies is the 
norm in Montana. DPHHS has worked hard over the years to successfully 
establish good, collegial working relations with all of our county 
health departments, including Lincoln County.
    Secondly, the Montana Department of Public Health & Human Services 
is working closely together with health officials from EPA and ATSDR to 
assist them in accomplishing their mission in Montana.
    Since public health infrastructures and resources vary considerably 
among States in the nation, Federal health workers rely upon State 
health workers to help them transition to work in the locale. State 
health department workers are helping to facilitate their work here in 
every manner possible. We stand firmly united with EPA and ATSDR in 
efforts to protect the health of the public in Libby.
    Thirdly, DPHHS has engaged all personnel and resources within the 
agency that are able to bear on the situation in Libby. Workers in the 
department's Bureau of Vital Statistics have provided death certificate 
data for analysis by State and Federal epidemiologists. Similarly, 
workers with the Montana Central Tumor Registry have supplied cancer 
incidence data on Libby area residents, and on residents in other areas 
of the State for comparison purposes.
    In an unprecedented action, departmental administrators accessed 
medicaid claim databases for medical utilization review of current and 
former residents of Libby that have received medicaid benefits. This 
action was undertaken in effort to help the Federal health workers in 
their assessment of the current state of the health of the public in 
Libby.
    Lastly, DPHHS has created new partnerships and strengthened old 
partnerships with other State agencies in response to the incident in 
Libby.
    Health professionals with DPHHS are currently 'on call' to meet 
with the DEQ incident managers as developments unfold. Face-to-face 
meetings of workers in DPHHS and DEQ are occurring on a frequent basis 
to help ensure that State response actions are coordinated and 
comprehensive.
    The Montana Department of Public Health and Human Services is also 
collaborating with the Montana Office of Rural Health in Bozeman to 
evaluate and redress unmet needs regarding health care delivery in 
Libby.
    The Montana Office is part of a national network of 50 State 
offices funded through the Federal Office of Rural Health Policy, under 
the Health Resources and Services Administration (HRSA). The office in 
Bozeman serves as the State single point of contact for the Federal 
Office of Rural Health Policy and HRSA.
    The Montana Office of Rural Health and DPHHS gratefully acknowledge 
the efforts of Senator Baucus in getting the ``Medicare Rural Hospital 
Flexibility Program'', Section 4201 of the Balanced Budget Act of 1997 
(PL 105-33), through the U.S. Congress.
    In Libby, the Montana Office of Rural Health has been working with 
the County Health Officer, the Administrator of St. John's Lutheran 
Hospital, and with DPHHS in attempts to secure funding for two very 
critical unmet needs:
    1). a clinical coordinator, locally-hired, to work out of the 
hospital to assist the County Health Officer with medical screening and 
follow-up of patients in Libby
    2). telemedicine capabilities for the hospital to allow for 
teleradiology, pulmonary function telemetry and consulting on patient 
evaluations and follow-up care.
    In closing, the Montana Department of Public Health and Human 
Services is committed to working closely together with local, State and 
Federal colleagues to ensure that the public health response to the 
situation is Libby is the best available anywhere.
    Thank you Senator Baucus for the opportunity to present this 
testimony.
                               __________

      STATEMENT OF MARK SIMONICH, DIRECTOR, MONTANA DEPARTMENT OF 
                         ENVIRONMENTAL QUALITY

    I appreciate the opportunity to explain to the committee the 
department's involvement the various local, State and Federal actions 
that are presently occurring in Libby, MT.
    To understand the Department of Environmental Quality's (DEQ) 
involvement in the Libby investigation, it is helpful to know a little 
about the department. DEQ was created in 1993 by the Montana 
Legislature based on the recommendations of a Blue Ribbon Task Force 
appointed by (governor Marc Racicot.
    The DEQ combined nearly all the environmental regulatory programs 
front the former Departments of State Lands (DSL) and Health and 
Environmental Sciences (DHES), and the energy programs in the 
Department of Natural Resources. and Conservation (DRC).
    The DSL programs regulated the operation and reclamation of hard 
rock, coal and open cut mines throughout the State.
    The environmental health programs formerly administered by DHES 
have a clear public health focus because of their ties to the Water 
Quality Act, Air Quality Act and other similar public health oriented 
laws,
    At the time of reorganization, county health officers from 
throughout the State expressed concern that moving the environmental 
health programs out of the health department into an environmental 
regulatory alertly would result in the loss of their public health 
focus.
    The Racicot Administration stressed then, as it does today that 
public health will remain a primary focus of the DEQ.
    The DEQ's mission is to protect, sustain, and improve a clean and 
healthful environment to benefit present and future generations.
    Today the DEQ administers more than 25 environmental laws. These 
laws address all facets of air quality and water quality (including 
regulating public water supplies and wastewater systems), as well as 
various laws relating to the development of natural resources (hard 
rock, coal, and open cut mining), disposal of solid and hazardous 
wastes, and cleaning up old areas of contamination (abandoned mines, 
petroleum contamination and Superfund.)
    DEQ has an authorized staff of 400 persons and a biennial budget of 
approximately $136.8 million. More than half of its budget comes from 
State special revenue accounts (including fees--59.5 percent), a little 
over a fourth from the Federal Government (26.6 percent), and lesser 
amounts from the State Resource Indemnity Trust (8.5 percent) and the 
State general fund (54 percent).
    In forming the DEQ, I have tried to instill a new vision. While it 
is true, by our very nature we are a regulatory agency, I truly believe 
we can accomplish more by working together. My vision is that DEQ will 
work cooperatively with the public, including regulated entities, and 
other government agencies to find solutions to the environmental 
challenges we face, such as those challenges in Libby.
    The DEQ is involved in the Libby investigations on several levels. 
The department is directly responsible for a request to release the 
final bond at the former mine site under the Montana Metal Mine 
Reclamation Act (MCA 82-4-101 et. seq) (MMRA). Additionally, the DEQ is 
responsible for enforcing federally delegated air quality, water 
quality, public water supply, and hazardous waste disposal laws. The 
department also is responsible for working cooperatively Aim local and 
Federal agencies to ensure the people of Libby have a clean and 
healthful place to live.
    Vermiculite was discovered in 1881 at Vermiculite Mountain, 
approximately six miles northeast of Libby, in the Rainy Creek 
drainage, by miners hoping to discover gold. Its unique properties were 
recognized by Edward Alley in 1919, and in the 1920's the Zonolite 
Company was formed and began mining vermiculite. In 1963, W.R. Grace 
bought the mine. The mine closed in 1990.
    At times during the operation, the vermiculite mine produced up to 
80 percent of the world's supply of vermiculite. It has been used in 
building insulation and as a soil conditioner. Unfortunately, the 
vermiculite ore from the Libby mine contained an associated waste rock 
that included a particularly toxic form of naturally occurring asbestos 
referred to as tremolite. \1\
---------------------------------------------------------------------------
    \1\ In the rest of this testimony, tremolite may also be referred 
to as tremolite-actinolite based on EPA's choice of definition for this 
project.
---------------------------------------------------------------------------
    Passed in 1971, the AURA acknowledges that mineral mining in 
Montana is a basic and essential activity that makes an important 
contribution to the State's economy, but at the same time, proper 
reclamation of sniped land and former exploration areas is necessary to 
prevent undesirable land and surface water conditions that would be 
detrimental to the general welfare, health, safety, ecology and 
property rights of the citizens of the State. At the three the act was 
passed, almost 320 acres of land at the vermiculite mine were already 
disturbed mine tailings were being discharged down the slopes of the 
mountain into the Rainy Creek drainage.
    DEQ has been involved at the mine site since the early 1970's when 
the Clean Air Act of Montana was passed, A series of 10 air quality 
permits were issued to W. R. Grace over the years for various pieces of 
air pollution control equipment and operations, including milling, 
concentration, drying, screening, storage, loadout, and bagging. The 
permits regulated primarily particulate emission and opacity 
limitations. Asbestos is a particulate, but was not regulated 
separately from total particulate probably because there cans, and 
still is, no Federal or State ambient air quality standard for 
asbestos. The permits were revoked in 1992 after completion of 
operations. A file review of air quality inspections of the operation 
indicated general compliance in the exception of one minor opacity 
violation at the dryer stack.
    W.R. Grace applied for a permit to discharge wastewater to Rainy 
Creek in February 1971. In 1973, the company changed from dry 
beneficiation of the ore to a wet process win a subsequent increase in 
the discharge of process water. It received a permit in March 1971, 
which was extended in November 1971. The permit expired in January 
1972. At that time the company had completed construction of the 
tailings impoundment, which the department considered a rho discharge 
facility and no longer required a Montana Pollutant Mischarge 
Elimination System (discharge) permit.
    The impoundment does have an underdrain, which has been sampled. 
The level of pollutants is within water quality standards so a permit 
is not needed for the underdrain.
    The impoundment has a spillway that discharges asbestiform fibers 
during high flows. The discharge over the spillway may require a 
discharge permit, but State Water Quality Bulletin-7 (WQB-7) limits for 
asbestos fibers may or may not apply. Sampling and health risk 
assessments in 2000 will evaluate the need for a permit and whether 
Rainy Creek needs to be diverted around the impoundment during high 
flows to prevent a, discharge of asbestiform fibers.
    The following is a. brief summary of the mine's permitting, bonding 
and bond release history under the MMRA:
    W.R. Grace applied for an operating permit from DSL in November 
1971. Bond was set at $100/acre on the original 320 acres of 
disturbance. Operating Permit 00010 was approved in January 1972.
    In July 1977, December 1978, August 1979, July 1986 and September 
1992? the operating permit was amended. The bond eventually increased 
to $472?000 for 1,004 acres of disturbance in the 1?200-acre permit 
boundary.
    As areas were mined out, concurrent reclamation commenced.
    After legal notice was published requesting public comment, a 
partial bond release was approved on 14 acres in August 1988 and the 
bond was reduced to $467,242 for 990 acres of disturbance in the 1,200-
acre permit boundary,
    Mining ceased in September 1990, and final reclamation commenced. A 
final closure plan for the impoundment area was approved in September 
1992 after a legal notice and environmental assessment were published 
and a public meeting was held in Libby.
    After a legal notice was published, a second partial bond release 
was approved in September 1994. Reclamation of the entire mine site, 
according to the approved plan, was completed. The bond was reduced 
from $467,242 to $66,700 for 740 acres of disturbance in the 1,025-acre 
permit boundary. The bond was held for maintenance of the reclaimed 
areas. The bond was no longer needed on the 160 acres released from 
Operating Permit 00010 for the tailings impoundment. These acres are 
now regulated under a Montana DNRC Dam Safely Section operating permit 
(Application No. 1470A) which was approved December 1994.
    In December 1994, the Kootenai Development Corporation (KPC) 
purchased the property and assumed the operating permits and bond. KPC 
has continued to maintain the site since 1994.
    After the public notice process was completed, a third bond release 
was approved in September 1997 reducing the bonded acreage in the 
permit area from to 125 acres because vegetation on reclaimed areas 
continued lo improve. The bond for maintenance of the reclaimed acreage 
remained the serve on the 125 acres at $66,700,
    DEQ's involvement in Libby continued through June 1999 when the 
current owners of the former vermiculite mine, KPC, requested a final 
bond release for the property. The department agreed to publish the 
bond release request, and after a public comment period, decide on 
whether the bond release was appropriate or whether more work and 
monitoring were needed. A resew public notice process was approved by 
the legislature in 1999 requiring a legal notice published throughout 
the area and a press release for statewide media coverage. As a result, 
a request for public hearing from Lincoln County Commissioners was 
received. DEQ immediately agreed to conduct the hearing and coordinated 
all phases of the hearing with the local officials.
    The DEQ held a public hearing in Libby to record comments on the 
proposed bond release on December 1, 1999. The department announced it 
would accept written comments to January 1, 2000.
    The DEQ will respond to individuals who have raised concerns by 
mid-February. The responses address the entire 1,200-acre mine site, 
riot just the 125 acres in the bond release request. The responses also 
address other possible health related issues resulting from vermiculite 
ore that left the mine site and was processed in Libby as well as in 
other locations throughout the country. A decision on the release will 
not be made until a thorough site review is completed by the department 
later this year.
    While focused on the MMRA, the department's review will also ensue 
that the entire mine site, access roads and streams in the Rainy Creek 
drainage are in compliance with State environmental health laws. This 
review will be coordinated with local, State and Federal plans and 
include;
    Air and water quality sampling will be done at the mine.
    An air quality monitoring program will document the level of dust 
and fibers blowing off the entire site.
    A tailings and waste rock sampling program will document the levels 
of asbestos in the materials at the mine site. DEQ knows the materials 
contain at least an average of 5-7 percent tremolite lapsed on a 
Montana Department of Commerce publication from 1990. Water in the mine 
area will be sampled to identify the level of asbestiform fibers. Based 
on the results of the materials sampling and the results of the air and 
water sampling programs, decisions will be made on the amount of 
reclamation still needed at the mine.
    Data collected in the early 1990's and again in 1999 indicate Mat 
asbestos levels in road materials in parts of the Rainy Creek road were 
elevated, Although there is no air quality standard for asbestos fibers 
along the road, new information indicates that dust on the Rainy Creek 
road may produce a continuing health hazard. Dust sampling by Lincoln 
County officials and W.R. Grace in 1991 and 1992 indicated that dust 
levels along Rainy Creek road did not exceed standards based on the 
sampling method used at the time. Rainy Creek road is a county road 
that passes through U.S. Forest Service land and sense land now owned 
by KDC. The DEQ will reevaluate sampling conducted along Rainy Creek 
road in the early 1990's and review the new data. Only a small portion 
of the road was within the old mine permit boundary. If there is a 
health risk, DEQ will coordinate with local and Federal officials to 
address the road issue.
    The former DHES and W.R Grace set up a water quality monitoring 
program in the early 1990's. Concerns were expressed again in 1999 
about levels of milling reagents (diesel, fluoride) in the water in the 
impoundment as well as asbestiform mineral fibers in the impoundment 
water. The DEQ re-sampled some sites again in September 1999. The only 
exceedance of any water quality standard at any sampling station was 
asbestiform mineral fibers in the tailing impoundment. The department 
plans to re-sample Rainy Creek and its tributaries during high runoff 
in the spring when the spillway from the impoundment is flowing. If the 
level of fibers is above acceptable levels (the ambient water quality 
standard for darning water is 7 million fibers per liter in WQB-7), the 
DEQ will work with the DNRC Dam Safety Program and local and Federal 
officials to address the issue.
    The Rainy Creek drainage has been impacted by mine waste products 
since die 1920's. Rainy Creek downstream from the location of the 
drinking water intake for the mine/mill (lower Rainy Creek) was 
classified as an impaired (C-1) stream in 1971. Upstream of that point 
it is classified B-1. The other waters in the Rainy Creek watershed and 
He Kootenai River are classified B-1. While B-1 waters ``are suitable 
for drinking, culinary and food processing purposes after conventional 
treatment; . . .'' (ARM 17.30.623), C-1 waters are not suitable for 
drinking and should not be used for that purpose (17.30.626). As a 
result, no one uses the water ire Rainy Creek or its tributaries for 
drinking water. The impoundment was constructed ire 1971 to contain the 
mine wastes. Rainy Creel; water quality is probably better today than 
it has been for more than 50 years. Risks from old tailings in the 
drainage below the impoundment will also be evaluated in 2000.
    W.R. Grace and KDC were given permission to dispose of certain 
solid wastes on site in a landfill. This is allowed under the MMRA as 
long as the disposal meets Montana solid waste regulations. Materials 
Mat were allowed to be buried on site included inert wastes such as 
concrete. W. R. Grace was also allowed to bury steel and asbestos 
shingles. Concerns have been expressed about how deep it is to ground 
water and if that ground water is contaminated by anything that may 
have been dumped illegally, DEQ plans to sample an abandoned well on 
the site to address this issue. The depth to water in the well is more 
than 200 feet deep. More wells will be installed if the old well is not 
located in an appropriate monitoring location. Reclamation of the 
disposal site will be reevaluated.
    Concerns have been expressed about future development of the Nine 
site. The concern is that new development will introduce more 
asbestiform mineral fibers in the air and water. DEQ will coordinate 
with Lincoln County and Federal officials to identify controls needed 
on the old mine site to limit potential problems win future development 
proposals.
    Concerns have been expressed that because the bond has been 
released on the majority of the site and because the land has been sold 
to KDC, that W.R. Grace is not responsible if air or water quality 
problems are identified. W. R. Grace has been cooperating with local, 
State and Federal officials to address the issue. Any necessary cleanup 
will be conducted under the MMRA, Clean Air Act, Water Quality Act, 
(comprehensive Environmental Cleanup and Responsibility Act (State 
Superfund) and Comprehensive Environmental Response, Compensation, and 
Liability Act (Federal Superfund), as needed.
    In response to the widespread concerns of possible asbestos 
contamination in Libby, the DEQ sampled five public and private wells 
to check for ground water contamination from asbestos. The samples 
revealed no contamination. The sites included mobile home courts and a 
plant nursed operating in a former vermiculite screening facility.
    City personnel had previously sampled Libby's public water system 
and found no asbestos contamination. However, DEQ decided to sample the 
system again to verify the initial findings. The city gets its drinking 
water from Flower Creek, which is geographically in a different 
drainage from the vermiculite mine. No asbestos contamination teas been 
reported in that drainage.
    Earlier this month the DEQ announced the sample results revealed 
Were was no asbestos in the samples taken from the city's water supply. 
One sample was taken from untreated water entering the treatment plant. 
A second sample was taken from the finished (filtered) water leaving 
the plant. Copies of the results were sent to the Wiry of Libby, the 
Lincoln County Sanitariums Office, and the EPA Office in Libby.
    Time and cooperation are the keys to answering the many 
environmental and public health questions in the Libby area.
    Time is an important factor because it took time for the situation 
in Libby to develop and it will the time to identify and address any 
environmental and public health problems. Time is also a factor in 
determining the current investigation's impact on Libby's economy, 
tourism, business community and its citizens. If testing reveals 
environmental exposures still exist, it will take time to clean up or 
stabilize those sites. The result, however, will be an environment safe 
for people, in addition to being attractive for economic development, 
existing businesses and people visiting the area.
    As for cooperation, when it became apparent that asbestos concerns 
ranged far beyond those associated with the request to release the bond 
at the mine, I immediately formed a group of DEQ employees to work on 
the proposed bond release and asbestos investigation. The group 
includes: the person in charge of reviewing the proposal to release the 
bond., a project coordinator to work with EPA on the environmental 
health investigation, the DEQ's media manager and a project coordinator 
from the Director's Office to work with EPA and local, State, and 
Federal public health officials. Additionally, these DEQ persons are 
drawing on the expertise of a number of persons throughout the 
department.
    The DEQ and EPA investigation of possible asbestos contamination in 
the Libby area began with sampling in December 1999, The team collected 
air, soil (yard, garden and driveway samples), dust and vermiculite 
insulation samples. Samples were taken at 32 residences, as well as 
several potential areas of concern due to historic vermiculite-related 
activities.
    To date, the State and Federal team's investigation includes:
    Approximately 73 air sample results from 32 residences, two 
businesses' and two former processing areas there received and 
reviewed. Transmission electron microscopy analysis was used to count 
asbestos fibers (10-grid system count looking for fibers 5 microns or 
greater).
    Results from the December air sampling event were released on 
January 31, 2000. Preliminary results indicate that two potential areas 
have relatively elevated levels of asbestos related fibers in the 5-10 
micron range.
    Two homes have elevated levels of asbestos fibers. Chrysotile 
(serpentine asbestos) was detected in one home and tremolite-actinolite 
fibers were detected in the other hone. (The chrysotile is not related 
to the old vermiculite mine).
    The two former processing areas with elevated levels of tremolite-
actinolite asbestos fibers present are the lumber facility at the 
former export plant and the plant nursery (Parker business and 
residence) at the former screening facility,
    Of the remaining homes, 24 have trace levels of tremolite fibers. 
However, to make sure nothing was missed, these same samples were sent 
back to the laboratory to be re-tested with a more stringent analysis 
(lower detection limit) looking at fibers from 5-10 microns in length 
using a 30 grid count system. Results are anticipated by the end of 
February or early March.
    The other samples taken during the December sampling will be 
available in mid-March. These results, along with the air sampling 
results, Frill provide a better assessment of the extent of any 
contamination in residential homes and businesses. These data, along 
with Store residential and business sampling will allow the agencies to 
determine the best possible solutions.
    The team also installed ambient air monitors at four locations in 
Libby to detect asbestos fibers in outdoor air.
    EPA opened a field office (the Storefront, 501 Mineral) in Libby. 
The office is being shared with DEQ and other State and Federal 
agencies. The office is open from 8:30 a.m. to 5 p.m. every day except 
Tuesday. Tuesday it is open from 12 noon to 8 p.m.
    The environmental and public health sampling and monitoring will 
determine if there are problems, and, if so, how severe. Based on that 
information' appropriate local, State and Federal agencies will, after 
considering public review and comment, determine what needs to be done. 
It is at this point decisions mill have to be Moe regarding my 
responsible parties and where the money should come from to pay the 
costs of any cleanup or stabilization activities.
    The agencies involved with the investigation are still in the 
sampling and monitoring phase of the investigation.
    So, where does the responsibility lie for the asbestos 
contamination and health problems in the Libby area? It will take time 
and patience to answer these questions. Based on the anticipated 
scientific, technical and medical investigation results, these 
questions must and will be answered carefully and thoughtfully. In the 
meantime, the DEQ along with its local, State and Federal partners will 
do their best to administer their respective environmental and public 
health laws.
    With respect to DEQ, if there are violations of the law and a 
responsible party can be identified, the department will expect the 
responsible party to take full responsibility for its actions. However, 
from the DEQ's perspective, the highest priority is identifying and 
eliminating sources of asbestos contamination that pose a health risk 
to the public.
    Based on the sampling results, the health of finials involved will 
be preparing a health risk assessment to identify the risk of exposure 
from varying times and doses of exposure in the area Cat have created 
the levels of asbestosis observed in the Libby area. Areas exceeding 
the risk thresholds will be cleaned up. Other areas may simply need to 
have land use restrictions placed on them to limit risks to acceptable 
levels. These decisions must be made based on sound scientific data.
    Thank you, Senator Baucus, for the opportunity to present this 
testimony.
                               __________

 STATEMENT OF WILLIAM YELLOWTAIL, REGIONAL ADMINISTRATOR, REGION VIII, 
                    ENVIRONMENTAL PROTECTION AGENCY

    I would like to thank the Senate Committee on Environment and 
Public Works for inviting me to offer testimony concerning the asbestos 
situation in Libby, Montana. This is a most serious matter. My staff 
end I have given it our utmost attention. EPA Region 8 will complete 
the investigation it is conducting in Libby with all due speed and 
thoroughness--as a top priority. After providing a brief background 
about the Site, I will discuss five topics:
    1. The Agency's recent actions at the Site.
    2. What we know of the extent of asbestos related health effects in 
Libby.
    3. What we know of the current state of the environment in Libby.
    4. The next step's to be taken by EPA and other Federal agencies at 
the Site.
    5. Coordination of State, Local, and Federal efforts.
Background
    Mr. Edward Alley began initial mining operations on a vermiculite 
ore body located approximately 7 miles northeast of Libby, Montana in 
the early 1 920's. Full scale operations began later that decade under 
the name of the Universal Zonolite Insulation Company (Zonolite). 
Scientists didn't know the health ramifications at the time, but it was 
known that this ore body contained amphibole asbestos of the tremolite-
actinolite series. Unlike, the commercially exploited chrysotile 
asbestos, the tremolite-actinolite material has never been used 
commercially, and was considered a contaminant. Uses of vermiculite 
include a variety of insulation products and construction materials, as 
a carrier for fertilizer and other agricultural chemicals, and as a 
soil conditioner.
    Operations at the mine were fairly simple. Miners strip-mined the 
ore using conventional equipment and then processed (beneficiated) it 
in an on-site dry mill to remove waste rock and overburden. After 
beneficiation, workers trucked the processed ore down Rainey Creek Road 
to a screening plant, which separated the milled ore into five size 
ranges for use in various products. From there, shippers sent the 
material across the country, predominantly by rail, for either direct 
inclusion in products, or for expansion (also known as exfoliation). 
Heating the ore in a dry kiln to approximately 2000 degrees F boiled 
the water trapped in the crystalline matrix of the vermiculite and 
expanded the material by a factor of 10 to 15 fold.
    In Libby, operations handling the beneficiated material occurred at 
four main locations: the Mine and Mill located on Rainey Creek Road; 
the Screening Plant and Railroad Loading Station located astride the 
Kootenai River at the intersection of Rainey Creek Road and Highway 37; 
the
    Expansion/Export Plant located off Highway 37 where it crosses the 
Kootenai River; and an Expansion/Export Plant located at the end of 
Lincoln Road, near Fifth Street.
    In 1963, the W.R. Grace Company bought the Zonolite Company and 
continued operations in a similar fashion. Grace added a wet milling 
process to the operation in 1975, which operated in tandem with the dry 
mill, until the dry mill was taken offline in 1985. Expansion Plant 
operations ceased in Libby sometime prior to 1981, although workers 
still used this area to bag and export milled ore until mining 
operations were stopped in 1990.

1. The Agency's Recent Actions

    On Monday, November 22, 1999, I made the decision to send to Libby 
an On Scene Coordinator from my Emergency Response Program, along with 
a team of scientists, toxicologists, and a physician from the Public 
Health Service (PHS) to investigate the situation. They arrived in 
Libby on November 23, 1999.
    The initial investigation consisted of the following: a brief 
inspection of the former mine and processing facilities; interviews 
with local officials and some members of impacted families; an 
interview with a pulmonologist in Spokane, Washington who specializes 
in the treatment of asbestos related diseases; and the collection of a 
small set of environmental samples.
    This investigation confirmed two things. First, there is a large 
number of current and historic cases of asbestos related diseases 
centered around Libby, Montana. The pulmonologist in Spokane was 
currently treating over 200 cases of asbestos related diseases among 
folks who had either lived in Libby or worked at the mine, and had 
provided care to dozens more who had already died. Most disturbing of 
this physician's cases were 33 incidents of apparently non-occupational 
exposures. Of these 33, six had no family or other ties to anyone 
working at the mine. The interviews conducted by the Team identified 
additional people who were either sick or had died from asbestos 
related diseases. The Team also obtained a number of court documents 
stemming from the large number of asbestos related lawsuits in Libby 
which provided background information about the Site.
    The second thing our investigation confirmed was the high 
likelihood that significant amounts of asbestos contaminated 
vermiculite still remain in and around Libby. High concentrations of 
tremolite-actinolite asbestos remain in the ore body, tailings pile, 
and tailings pond at the former mine itself. In addition, visible piles 
of unexpanded vermiculite remain at the former screening plant/ 
railroad loading station, and the base material of Rainey Creek Road 
appears to contain tailings and sands from the mine. Residents stated 
that piles of expanded and unexpanded vermiculite used to sit at the 
former Expansion/Export Plant, next to two former youth baseball 
fields. They indicated that children regularly played in and around 
these piles, including the current Governor of Montana. Local residents 
commonly used both expanded and unexpanded vermiculite from waste piles 
around the mining operations in their yards and gardens as a soil 
conditioner, and the expanded vermiculite was used as wall and attic 
insulation in many homes. Descriptions of historic operations of the 
mine, mill, and processing centers indicate that large amounts of dust 
and other fugitive emissions were released into the environment when 
these operations were still running.
    These findings led EPA to initiate a larger scale investigation 
with three overall goals:
    1. Determine the current distribution of asbestos contamination in 
Libby.
    2. More accurately determine (in conjunction with the Agency for 
Toxic Substance and Disease Registry (ATSDR), the Montana Departments 
of Environmental Quality (MDEQ) and Public Health and Human Services, 
and PHS) the extent of asbestos related health impacts in Libby.
    3. Distinguish the effects from past asbestos exposures from any 
that might be on-going currently, or may occur in the future.
    In December 1999 EPA collected samples of air and dust from inside 
32 homes and 2 businesses around Libby, and collected samples from 
yards, gardens, insulation, and driveways at these same locations. In 
addition, air and soil samples were collected from the former screening 
plant and railroad loading station, as well as at the former expansion/
export plant. Samples were also collected from along Rainey Creek Road. 
To date, EPA has collected over 600 samples. Seasonal sampling of 
ambient air around Libby and the former mine Site began in January, and 
will continue through this Fall.
    In December, EPA contacted the ATSDR to begin planning a wide scale 
Community Medical Testing and Exposure Assessment. This effort will 
make chest x-rays, and where indicated, follow-up pulmonary evaluations 
available to residents and former residents of the Libby area, as well 
as to former mine workers and their families. This effort should help 
determine the full scope of the asbestos-related medical impacts in 
Libby and, in conjunction with the on-going environmental sampling, 
help distinguish between past and current sources of exposure. The 
medical testing is planned for start-up this Spring.

2. What We Know About Asbestos Related Health Effects in Libby

    It is very apparent that the asbestos-related health effects 
associated with the vermiculite mining and processing operations in 
Libby have been significant. Although we will likely never be able to 
confirm the exact number of cases, it is probable that the number of 
cases and deaths reported in the media are in the right range. The vast 
majority, well over 80 percent of cases that EPA and PHS have reviewed, 
appear to be occupational in nature. The next largest group appears to 
be family members of those involved in the mining operations. Beyond 
the occupational and secondary exposures (em, exposure to workers' 
families), it is difficult to identify the sources for other asbestos-
related diseases, and whether they still exist today. It is probable 
that people who played in the piles or lived near the former expansion/
export plant when it was in operation are at greater risk, but this has 
not yet been confirmed by a rigorous investigation. EPA has not yet 
concluded whether or to what extent having this vermiculite in a home 
garden, in a yard, or as wall or attic insulation correlates to an 
increased incidence of asbestos related disease. It is these latter two 
questions which form the crux of the on-going investigations.

3. What We know About the State of the Environment In Libby Today

    It is clear that, relative to the levels of asbestos contamination, 
conditions in Libby today are much better than when the mine was in 
business. The piles of vermiculite around the export/expansion plant 
are gone, air emissions from the mill and processing operations no 
longer exist, and ambient air conditions in Libby have greatly improved 
over the last decade. However, conditions that need to be investigated 
and remedied still exist in Libby. The results from the air samples 
collected by EPA in December indicate that unsafe levels of asbestos 
fibers still exist in some areas of the former screening plant/railroad 
loading station and the export/expansion plant.
    EPA has already initiated discussions with W.R. Grace about 
conducting and/or paying for these clean-up actions. One of the 32 
homes sampled in Libby also showed unsafe levels of tremolite-
actinolite fibers. EPA is currently trying to determine the source of 
these fibers. EPA will then take steps to reduce these levels. We 
expect to have the results from the remainder of the samples collected 
in December by mid-March, and will announce our findings at that time. 
In summary, while it appears that conditions are better in Libby today 
than in the past, there are apparently existing local source areas that 
need to be eliminated. It is still an open question as to the 
significance of vermiculite in people's homes, yards, and gardens.

4. The Next Steps to Be Taken by the Federal Agencies Involved

    The next big step to be undertaken in Libby is the implementation 
of the Community Medical Testing and Exposure Assessment that EPA and 
ATSDR will jointly conduct with assistance from the PHS. The outreach 
and education effort for this will begin in March 2000, with the actual 
medical evaluations scheduled to begin in April 2000. This is the key 
piece of the investigation to date, and it is urgent that the Federal 
Agencies involved see to its proper implementation. EPA and ATSDR have 
both committed to conduct this action under the above mentioned time-
frames. If done successfully, this evaluation should also serve to help 
develop the local medical infrastructure in Libby, so that residents 
can receive proper diagnosis, treatment, and care locally.
    EPA, along with MDEQ, will continue to conduct its sampling 
investigations in and around Libby, and will begin clean up actions at 
the two former processing centers this Spring. As more information is 
gathered and more data becomes available, EPA will announce and discuss 
its findings publicly and take action accordingly. It is EPA's intent 
to identify all areas where unacceptable exposure to tremolite-
actinolite asbestos are occurring and remediate them. EPA plans to test 
an additional 75 to 100 homes starting in late February. Ambient air 
sampling will continue through next Fall. Investigations as to the 
present physical condition of the mine and area surrounding the mine 
will be started as soon as the snow melts this Spring.

5. Coordination of Local, State, and Federal Efforts

    Given the critical nature of the situation in Libby today it is 
imperative that the efforts of all the agencies involved be well 
coordinated. I can and will take steps to ensure that the agencies work 
together in a coordinated manner.
    EPA and MDEQ have conducted several briefings and interviews with 
officials from the City of Libby and Lincoln County. In addition, EPA, 
ATSDR, MDEQ, the Montana Department of Public Health and Human 
Services, and PHS have met extensively with the County Medical Officer, 
hospital officials, and local physicians to exchange information about 
the investigations. Local medical resources will be used to a great 
extent in conducting the Community Medical Screening and Exposure 
Assessment, and have participated in the development of this project.
    EPA and the other agencies involved will continue to communicate 
with local officials and medical personnel as the investigations 
progress.
    EPA and MDEQ have helped to facilitate the formation of a Community 
Advisor Group (CAG), a citizen based group designed to better transmit, 
receive, and evaluate the information collected during these 
investigations. The group will serve to act as a forum to discuss and 
debate publicly many of the controversial issues surrounding the 
investigations.
    The MDEQ has been participating jointly with EPA in this 
investigation since it was begun last November. MDEQ personnel have 
been involved with the investigation design and implementation, and 
will participate with EPA when clean up actions begin. The Montana 
Department of Public Health and Human Services has been integrally 
involved in the collection of current medical information, and has 
participated.in the design of the Community Medical Testing and 
Exposure Assessment. This relationship will continue as this project 
evolves.
    Coordination among the Federal Agencies involved is also paramount 
to the success of this project. The PHS has provided EPA a full-time 
physician to support our efforts, and has also provided other medical 
expertise. Because of the overlap in authorities, and to eliminate any 
duplication of efforts, ATSDR and EPA are jointly conducting their 
investigations in Libby when appropriate. To this end the two Agencies 
are now in the process of finalizing an Agreement on how the work will 
be conducted, and ensuring a sharing of information and resources. As a 
result, EPA has agreed to fully fund the Community Medical Testing and 
Exposure Assessment while relying on ATSDR's expertise in its design 
and implementation. In addition, the agencies have agreed to coordinate 
their enforcement and cost recovery actions concerning W.R. Grace.
    This concludes my testimony on the matter today. I want to assure 
you that I have personally charged my On Scene Coordinator with the 
directions discussed above, and he and I will stand fully accountable 
for the success of their implementation. Thank you for your time and 
consideration.
                               __________

  STATEMENT OF HENRY FALK, M.D., ASSISTANT ADMINISTRATOR, AGENCY FOR 
  TOXIC SUBSTANCES AND DISEASE REGISTRY, PUBLIC HEALTH SERVICE, U.S. 
                DEPARTMENT OF HEALTH AND HUMAN SERVICES

    Good day. I am Dr. Henry Falk, Assistant Administrator of the 
Agency for Toxic Substances and Disease Registry (ATSDR), a public 
health agency within the U.S. Department of Health and Human Services 
(DHHS). Accompanying me is Dr. Jeffrey Lybarger, Director of the 
Division of Health Studies at ATSDR, ATSDR appreciates the opportunity 
to evaluate to the public health issues in the Libby, Montana, area in 
response to concerns expressed by key elected officials such as you, 
community members and former mine workers. ATSDR, with the support of 
other Federal, State and local organizations, will carry out the 
activities to meet the public health needs of the community in Libby, 
Montana.
    Dr. Lybarger and I, along with ATSDR and DHHS staff, share your 
concerns about the health issues being raised in Libby, and share your 
desire to develop immediate and long-term steps to address those 
issues. Among the activities ATSDR will pursue in Libby are providing 
advice and guidance on environmental sampling; reviewing medical and 
vital records for residents already diagnosed with asbestos-related 
disease; developing protocols for medical testing which will begin 
later this spring; developing and distributing health care provider and 
community education materials; and providing relevant training to 
health care professionals who may need to provide services to residents 
and workers in the Libby area.
    ATSDR's mandated activities and expertise enables provision of 
these public health activities in the Libby area. ATSDR was created by 
Congress in 1980 under the
    Comprehensive Environmental Response, Compensation, and Liability 
Act as amended (CERCLA), or what is more commonly known as Superfund 
legislation. CERCLA mandates of ATSDR a broad, national program of 
Superfund site health assessments, health investigations, surveillance 
and registries, applied research, emergency response, health education, 
and toxicological database development. Broadly speaking, ATSDR's 
responsibilities under Superfund, the Resource Conservation and 
Recovery Act (RCRA), and other Federal statutes are to assess the 
effects of toxic substances on community populations and to recommend 
interventions to protect public health where they are needed. This may 
include medical screening and epidemiologic investigations of health 
effects of community populations exposed to hazardous substances. We 
also conduct investigations to measure human exposure to toxic 
substances released from waste sites or other sources of release. Our 
work is conducted in close collaboration with the U.S. Environmental 
Protection Agency (EPA), State health departments, local health 
agencies, and affected communities.
    ATSDR administers public health activities through: State 
partnerships; public health assessment and consultation activities; 
exposure investigations; health studies and registry activities; 
development of toxicological profiles and attendant research; emergency 
response; health education and health promotion; and community 
involvement. In general, ATSDR organizes its site-related activities by 
developing Public Health Response Plans. A Public Health Response Plan 
identifies appropriate public heath activities, designates who is 
responsible for the conduct of the activities, and provides an 
estimated time line for accomplishing those activities in the community 
All stakeholders, including officials and the affected community, 
provide input throughout the Response Plan process
    Libby-area asbestos description and background: From 1920--1990 a 
vermiculite mine and two refining facilities were located in the Libby 
area. Natural vermiculite ore and its products can be contaminated with 
asbestos. The vermiculite ore mined at Libby has been shown to be 
contaminated with asbestos, and the degree of contamination is under 
investigation.
    Reported health concerns: In the past, asbestos-contaminated dust 
may have been spread in the course of operations of the facilities 
through emissions from the refining process, via disposal operations, 
through product shipping and use' and on miners' clothing. Studies 
published by the National Institute for Occupational Safety and Health 
(NIOSH) at the Centers for Disease Control and Prevention (CDC) in the 
mid 1980's documented asbestos exposure and related health effects, 
including respiratory and lung ailments, in workers at the Libby 
vermiculite facilities. Truck drivers, railroad workers, forestry 
service workers, and others who provided services and support to the 
mining operations may have been exposed to asbestos-contaminated dust 
during their daily work activities. ATSDR will consider other ways that 
residents in the area night have been exposed to asbestos including 
children playing with vermiculite, recreational activities near the 
mine, insulation in homes, or other activities and situations reported 
by the community.
    ATSDR's primary objectives for public health activities in Libby, 
MT, are to: identify the people at health risk from exposures to 
asbestos, evaluate the association between exposures to asbestos and 
health. effects in the community, conduct an epidemiologic 
investigation to assess the full scope of health effects in the past 
and present, and to intervene to eliminate exposures and prevent 
further adverse health effects in the community.
    Health effects associated with asbestos: A significant potential 
health concern with vermiculite is the degree to which it may be 
contaminated with asbestos. Vermiculite alone can cause irritation to 
the respiratory system (nose and throat), but it does not represent the 
threat to health that it does when in combination with asbestos.
    The amount and duration of exposure to asbestos determine the risk 
for adverse health effects. Breathing high levels of asbestos may cause 
several severe adverse health effects. Asbestosis is a serious disease 
that results in a slow build up of scar-like tissue within the lungs. 
People with asbestosis have shortness of breath, often along with a 
cough and sometimes heart enlargement Less severe, but important in 
assessing exposure to asbestos are changes in the lining of the lung 
which are quite common in workers heavily exposed to asbestos. When 
exposure to asbestos causes scarring to the lining of the chest wall 
surrounding the lungs, these areas are called pleural plaques. They are 
often not associated with symptoms, but they do indicate that asbestos 
exposure has occurred and that the person can be at risk of other, more 
serious, asbestos related conditions.
    Exposure to asbestos has been related to two types of cancer. The 
first is lung cancer. Studies of workers exposed to asbestos have 
demonstrated higher rates of lung cancer; interactions between 
cigarette smoke and asbestos increase the chances of getting lung 
cancer. The second type of cancer, which is highly associated with 
asbestos exposure is mesothelioma. This cancer is extremely severe, and 
is more common in workers, although it has also been reported in non-
workers with apparently limited exposures. Smoking plays no role in 
risk for mesothelioma. Studies of workers suggest that breathing 
asbestos can also increase the chances of getting cancer in other parts 
of the body, although less frequently.
    ATSDR involvement Since November 1999, ATSDR and DHHS Region VIII 
staff in Denver, CO, have consulted with EPA and county health 
officials on environmental sampling of mining waste and interpretation 
of the environmental data with respect to potential health effects.
    ATSDR has worked with the Libby community and local, State and 
other Federal officials to identify key elements of a Public Health 
Response Plan to address the public health needs of the community.
    ATSDR initiated site activities with a site visit from January 18 
to January 21, 2000, in Libby, MT. The site visit by ATSDR and DHHS 
regional staff allowed the review of current public health 
environmental actions; gathering of environmental data, health data and 
community concerns; and meetings with relevant parties to formulate an 
action plan. ATSDR staff met with officials of EPA, the Montana 
Department of Public Health and Human Services (MDPHHS), the Lincoln 
County Commissioners and Department of Health, St. John's Lutheran 
Hospital, and a key local physician who has seen and diagnosed 
individuals with asbestos-related illnesses. During this visit, ATSDR 
and the State and local health officials initiated discussions to 
address the public health needs of the community.
    During a follow-up site visit February 2-9, 2000, DHHS regional and 
ATSDR staff worked with State and local health officials to outline 
future public health activities in a Public Health Response Plan. Key 
elements of the overall Public Health Response Plan for Libby, MT, are 
to: 
    1 ) provide input and advice on environmental sampling being done 
by EPA to better understand patterns of exposure;
    2) collect and analyze medical and epidemiologic data to better 
characterize the nature and extent of asbestos-related disease in the 
community (this would involve review of medical, pathology, and vital 
records data for residents of the Libby area who have already been 
diagnosed with asbestos-related disease);
    3) coordinate medical testing for people in the community who have 
had past exposures to asbestos in order to identify people with 
asbestos related conditions so they can be referred for medical care; 
and
    4) provide a public health education program to assist residents 
and health care providers in obtaining full and up-to-date information 
on asbestos-related risks and diseases.
    Medical testing and referral: Medical testing to identify the 
extent of the site-related adverse health effects is a key component of 
the Libby Public Health Response Plan. Planning to provide medical 
testing to persons who lived or worked in Libby during the time of 
highest exposure is ongoing. The medical testing will provide screening 
services and advice on diagnosis and long-term care needs, where 
appropriate, for people who were exposed to asbestos; estimate the 
prevalence of asbestos-related conditions in people who might have been 
exposed; and assist the local health department and local physicians to 
estimate the magnitude of asbestos-related illnesses that must be 
addressed by local physicians. Under this plan, people who lived near 
the site, worked with vermiculite, lived in a household with a 
vermiculite worker, or had some other activity which allowed them to 
have frequent contact with the vermiculite in the Libby area, would be 
identified and included in the medical testing plan. People who meet 
the designated criteria will be scheduled for a chest x-ray and will be 
asked to complete a detailed questionnaire. The x-rays will be reviewed 
by expert radiologists and the results will be provided back to the 
participants. People with abnormalities associated with asbestos will 
be notified, counseled and offered additional lung function tests and 
radiographic procedures, along with referral to their physician. People 
who do not have a physician will be referred through a system 
coordinated by the local health department We currently estimate that 
as many as 3,000 people would meet the criteria for testing and desire 
to be tested.
    A written project plan, as described above, is currently being 
formulated and will be submitted for independent review by a panel of 
physicians and health scientists with expertise in asbestos-related 
diseases. We anticipate this review will occur by the end of February 
2000. We hope to begin medical testing within two to 3 months. The 
Health Resources and Services Administration (HRSA) has already 
committed $80,000 toward the medical testing program.
    Health education communication and community involvement: ATSDR's 
health education and promotion program encompasses the overall goals of 
educating individuals, communities, and health care providers about the 
health effects of hazardous substances in the environment; working with 
affected communities to develop and promote public health strategies to 
mitigate the health impact of hazardous substances; and disseminating 
environmental health education materials, training, and information.
    To date, local public health professionals (physicians and nurses) 
have been contacted to enable ATSDR to better understand local health-
related concerns; community involvement specialists in the various 
represented organizations (including EPA, ATSDR, and the State health 
department) have begun developing strategies for clear, effective 
message delivery; and contact lists are being developed to ensure that 
affected and interested parties in the Libby area receive information 
that is disseminated. Further, ATSDR is working with EPA to discuss 
mechanisms, such as a community-based group to obtain regular and 
consistent community input to the development and implementation of the 
Public Health Response Plan.
    A key part of ATSDR's health promotion program is education and 
training for health care providers and other health professionals, to 
facilitate access to environmental medical services, and to establish 
the connection between environmental public health practice and long-
term health care. An integrated health care provider education plan is 
being developed that will target primary care physicians as well as 
community health nurses, x-ray technicians, respiratory therapists, and 
other health-related professionals who interact with people who may 
have been affected by Libby-area contamination.
    ATSDR staff are currently working with local partners to plan a 
community meeting in Libby. The idea is to create an environment for 
individuals to talk directly with scientific, environmental and health 
experts at Information kiosks'' about their health-related questions 
and concerns. The public availability session is expected to be held 
within in the next month and before the medical testing activities 
begin.
    I would like to reiterate that ATSDR shares your concerns about the 
situation in Libby--both the environmental contamination and the health 
concerns. I am confident that the expertise of the ATSDR staff and its 
partners, working through the integrated Public Health Response Plan, 
can address both short- and long-term public health needs of the 
community
    ATSDR continues to provide input and advice on environmental 
sampling; is reviewing medical and vital records for residents already 
diagnosed with asbestos-related disease; is developing protocols for 
medical testing to commence later this spring; and developing health 
care provider and community education materials for use in this 
response. Each of these activities are in collaboration with other 
Federal, State, and local agencies. Our efforts will result in an 
integrated program to address the health concerns of prior and current 
residents of Libby and the surrounding areas. The community's concerns 
about the environment and its impact on their health can be addressed 
only if we continue to work in the collaborative manner that staff of 
the Federal, State, and local agencies involved in this response have 
already begun.
                               __________

                 STATEMENT OF ALAN STRINGER, W.R. GRACE

    My name is Alan Stringer. From 1981 to 1994 I was site manager of 
the Grace operations in Libby. I have resumed to this community to live 
so that Grace can assure its obligations to the people of this 
community are met.
    I have been asked by Paul Norris, CEO of W.R. Grace, to address 
three matters:
    First, I want to include in the record a history of the Libby 
vermiculite mine from the time Grace purchased the property to the 
completion of its closure in 1994, a period of 30 years. That history 
will show what Grace did and when it did it so that you may draw 
whatever conclusions are appropriate with respect to how this company 
operated in the past.
    Second, I want to discuss the dilemma in which W.R. Grace and 
similarly situated companies find themselves with respect to 
disposition of asbestos-related liability claims.
    Third, I want to discuss what Grace has announced it intends to do 
for its former employees and their families and others who might be 
affected by asbestos-related illness.
    And I want to tell you what we are considering in addition to that 
which we have announced.
    Before I discuss each of those points, I want to make one thing 
clear: like everyone else here, we are concerned about the victims of 
asbestos-related disease. It is our responsibility and our commitment 
to provide the medical assistance necessary for those people who are 
identified as having an asbestos-related disease associated directly or 
indirectly with our corporate operations in the Libby area. We have 
made a down payment on that commitment through our announcement to 
invest a quarter of a million dollars a year in medical screening with 
St. John's Hospital.
    W.R. Grace was a corporate citizen of Libby, Montana. While we no 
longer have economic operations here, we continue to believe that we 
have a responsibility to the community. We will keep that commitment to 
the people in this community.

                           ASBESTOS LIABILITY

    I want to make very clear that W.R. Grace is not a member of any 
coalition seeking to pass Federal asbestos-related disease legislation 
through the Congress of the United States. We have not even taken a 
public position on the pending bills. This does not mean we do not 
believe legislation is needed. The Chief Justice of the Supreme Court, 
the AFL-CIO, even some trial lawyers, asbestos companies and victims 
all agree that the litigious process for settling asbestos claims is 
inefficient, uneconomic, unfair and simply will not deliver a fair 
response to victims of asbestos-related disease in a timely manner.
    W.R. Grace believes Federal legislation is needed. We will work 
with the Montana Delegation and any other Members of Congress, 
irrespective of political affiliation, to try to develop legislation 
which meets the needs of the victims of asbestos disease, including the 
residents of Libby. We believe it is essential that settlement of as 
many claims as possible should be achieved through negotiation rather 
than litigation. But we understand that in order to remove this issue 
from the courts alternative compensation mechanisms have to be fair and 
victims have to believe that they are receiving equity in whatever 
settlement process evolves. In no instance should an alternative 
settlement mechanism deprive claimants who meet simple medical criteria 
of their right to go to court.
    W.R. Grace, under its new management, will not support any Federal 
or State legislation which fails to provide equitable relief for 
victims of asbestos-related disease.
    W.R. Grace knows that we can provide more money to more victims, 
more quickly, if we do not have to pay enormous costs of lawyers and 
expert witnesses and be encumbered by the enormous delay that is 
associated with litigating each of these cases. W.R. Grace only asks 
that there be established some basis for determining if a claimant has 
an asbestos-related disease far which compensation is sought. If we can 
agree that there needs to be a means to establish asbestos-related 
disease criteria which are acceptable to the claimants and to the 
companies, the only remaining impediment is to establish a mechanism of 
compensation which allows companies which formerly used asbestos in 
their products business to remain economically viable so that claimants 
can receive compensation. We believe this last point is critically 
important. If Grace is not economically viable there will be no 
compensation for any one in Lincoln County.
    Now, Mr. Chairman, I would like to discuss what we have proposed to 
do in Libby in response to the current crisis.
    It is important for the record to reflect our commitment to this 
community.
    Grace will provide the funds necessary to develop and establish an 
independent screening program for the people of Libby and Lincoln 
County, which will detect asbestos-related conditions. Initially, we 
stated that Grace would allocate $250,000 annually for as long as 
necessary to address the screening needs in that area. However, Grace 
recognizes that this amount may need to be adjusted to fit the actual 
implementation of such a program. Grace officials have already met with 
Hospital officials, and we plan further discussions with the Hospital 
and the Federal agencies. Our goal is to put into operation an 
effective, independent asbestos screening program for the people of 
Libby, as soon as possible. We believe the hospital is trusted in the 
community and is the responsible place to do this work.
    Grace will also implement a program to cover the medical expenses 
for any individual in Libby and Lincoln County who suffers from 
asbestos-related conditions. Specifically, an eligible resident of 
Libby or Lincoln County. This will be determined as a result of the 
screening program described above.
    Once the Grace Medical Program covers the individual, all of his or 
her medical bills, including prescription drug bills that are incurred 
in the treatment of any asbestos-related condition, will be paid. We 
believe this program represents an effective and streamlined way of 
helping the people of Libby obtain treatment of asbestos-related 
conditions.
    We have sent a contractor into the community to develop asbestos 
remediation plans for the buildings we previously owned and which have 
been identified by EPA. We will conduct the necessary remediation of 
those facilities once we reach agreement with EPA on what is needed, 
and we understand the basis for EPA's determination of the risk that 
exists.
    The sampling and risk assessment methodologies EPA is using in 
Libby are unfamiliar to us. We want to have the opportunity to have our 
scientific and technical experts meet with their counterparts in EPA to 
fully understand these approaches.
    There are two reasons we think its important to understand the 
approaches being followed by EPA. First, for Grace, bad information 
could mean investments in remediation which is not warranted or 
properly focused. For the people of Libby, it could mean a disastrous 
loss of property values and devastating impact on future economic 
development. Sensational and misleading headlines may sell newspapers 
in Seattle, but it is the people in this room that have to live with 
the allegations. These reporters and self-described experts will 
quickly move on from Libby to other events. It is the people of Libby 
who will have to deal with what's left behind.
    We cannot experiment with the future of this community. The people 
of Libby are entitled to a clean, safe environment. They are entitled 
to our company doing what is responsible to assure that clean, safe 
environment. The people of Grace are entitled to a scientific, rational 
and reliable analysis of what is and what isn't in need of remediation; 
what does and what does not pose a risk.
    Given facts based on fully understood EPA procedures, W.R. Grace 
will respond quickly and completely. Government agencies--Federal, 
State and local--have a responsibility to make sure that their response 
to this threat is measured and rational. We hope that EPA, the State 
and the community agencies will take this approach to this problem and, 
as they do, Grace will be right there working with them.


</pre></body></html>
